TABLE OF CONTENTS OF APPENDIX TO
PETITION FOR THE WRIT OF CERTIORARI
__________________________________________
JEFFREY G. THOMAS,
v.
NORMAN SOLOMON
No. 19 - ____________

NO.

TITLE

PAGE#

Denial of State Court
Review
Appellate Decision 12-13-18

A1

3

Table of Contents and
Authorities in Petition for
State Court Review

A22

4

Notice of Appeal

A30

5

Order Sustaining Demurrer

A45

6

Excerpts from Second
Amended Complaint

A52

1
2

DATE

p. i – Appendix to Petition for the Writ of Certiorari in Thomas v.
Solomon et al.

A2

7

Email from Sheppard Mullin
to Respondents

A81

8

Cease and Desist Order

A83

9

Judgment Dated April 22,
2010

A87

10

Transcript of “Trial” Dated
March 15, 2010

A94

11

Docket of State Court
Action BC385560

A172

12

Excerpts from Court of
Appeals dec. B183928

A228

p. ii – Appendix to Petition for the Writ of Certiorari in Thomas v.
Solomon et al.

#A1

Appendix A1 – Denial of State Court Review
Reporter 2019 Cal. Lexis 1662
JEFFREY G. THOMAS, et al., Plaintiffs and Appellants, v.
NORMAN SOLOMON, et al., Defendants and Respondents.
Prior History: [*1] Second Appellate District, Division Eight,
No. B287017.
Thomas v. Solomon, 2018 Cal. App. Unpub. LEXIS 8412 (Cal.
App. 2d Dist., Dec. 13, 2018)
Opinion

Petition for review denied.

p. 1 ( A1) , Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

#A2

Appendix A2 – Appellate Opinion
Reporter: 2018 Cal. App. Unpub. Lexis 8412
JEFFREY G. THOMAS, et al., Plaintiffs and Appellants, v.
NORMAN SOLOMON, et al., Defendants and Respondents.
Notice: NOT TO BE PUBLISHED IN OFFICIAL REPORTS.
CALIFORNIA RULES OF COURT, RULE 8.1115(a),
PROHIBITS COURTS AND PARTIES FROM CITING OR
RELYING ON OPINIONS NOT CERTIFIED FOR
PUBLICATION OR ORDERED PUBLISHED, EXCEPT AS
SPECIFIED BY RULE 8.1115(b). THIS OPINION HAS NOT
BEEN CERTIFIED FOR PUBLICATION OR ORDERED
PUBLISHED FOR THE PURPOSES OF RULE 8.1115.
Subsequent History: Review denied by Thomas v. Solomon,
2019 Cal. LEXIS 1662 (Cal., Mar. 13, 2019)
Prior History: [*1] APPEAL from an order of the Superior
Court of Los Angeles County. No. BC546574, Samantha
Jessner, Judge.
Thomas v. Zelon, 2017 U.S. Dist. LEXIS 20151 (C.D. Cal.,
Jan. 17, 2017)
Disposition: Affirmed.
Counsel: Jeffrey G. Thomas Pro per for Plaintiff and
Appellant.
Hugh J. Gibson for Defendants and Respondents.
Judges: RUBIN, J.; BIGELOW, P. J., GRIMES, J. concurred.
Opinion by: RUBIN, J.
p. 2 (A2), Appendix – Petition for the Writ of Certiorari in Thomas v.
Solomon et al.

Opinion

INTRODUCTION
Attorney Jeffrey G. Thomas appeals monetary sanctions
awarded against him in connection with a motion for
reconsideration filed in the trial court. Thomas represented
plaintiff True Harmony in litigation disputing the ownership of
real property located in downtown Los Angeles. After
judgments were entered against True Harmony finding that
others owned the property, Thomas brought the current action
on behalf of True Harmony to void those prior judgments.
Defendant and respondent Norman Solomon successfully
demurred. Following the court's order sustaining the demurrer
without leave to amend and its entry of judgment dismissing the
complaint, Thomas filed a motion for reconsideration.
Respondent Solomon requested Thomas withdraw his motion
because the court lacked jurisdiction to hear it. Thomas refused
and caused defendants to incur over $20,000 in expenses
defending the frivolous motion. Defendants then
brought, [*2] and the court granted, a motion for sanctions
against Thomas for pursuing the improper reconsideration
motion.
Thomas appeals from the order awarding sanctions. We affirm
because the trial court correctly found it lacked jurisdiction to
hear the motion for reconsideration. The court did not abuse its
discretion in awarding sanctions for Thomas's frivolous motion.
The court reasonably could have found that Thomas knew his
motion was frivolous because Solomon's counsel had sent
Thomas relevant authority. We also grant respondent
Solomon's motion for appellate sanctions based on Thomas's
failure to comply with court orders and frivolous appeal of
matters not properly before this court. Sanctions in the amount
of $65,480.64 are imposed on Thomas, with $56,980.64
p. 3 (A2), Appendix – Petition for the Writ of Certiorari in Thomas v.
Solomon et al.

payable to respondents and $8,500 payable to the clerk of this
court.
FACTS AND PROCEDURAL BACKGROUND
This case is the latest in lengthy litigation between True
Harmony and other parties over the ownership of 1130 South
Hope Street, in downtown Los Angeles ("the property").
Attorney Jeffrey Thomas has represented True Harmony
throughout the present and earlier litigation. Thomas also
represented other clients in connection with litigation [*3] over
the property; one client (Ray Hiem) we briefly discuss below to
provide context.
1. Prior Litigation Related to the Property
In February 2008, 1130 South Hope Street Investment
Associates LLC sued True Harmony, among others, to quiet
title to the property. In a judgment filed June 3, 2009, based on
an arbitration award, the trial court found in favor of the LLC.
The court concluded that 1130 South Hope Street Investment
Associates, LLC "is the sole owner of the Property located at
1130 South Hope Street." The court found True Harmony was
a 50 percent owner of 1130 South Hope Street Investment
Associates, LLC, with another individual. The judgment stated
"True Harmony has not had any interest in the Property that
could be transferred or encumbered since October 9, 2003," and
only the manager of 1130 South Hope Street Investment
Associates, LLC had the ability to authorize transfers or
encumbrances of the property. The court found that attempts by
True Harmony or its representatives to transfer or encumber the
property were void.
The property was subsequently sold and additional litigation
arose out of the sale. In July 2011, 1130 Hope Street Investment
Associates, LLC filed an interpleader [*4] complaint against
p. 4 (A2), Appendix – Petition for the Writ of Certiorari in Thomas v.
Solomon et al.

several parties and requested the trial court resolve the
defendants' competing claims to interests in the sale proceeds.
The court eventually directed 1130 Hope Street Investment
Associates, LLC to distribute the sale funds to an entity called
Hope Park Lofts and an individual named Rosario Perry.
Defendant Ray Hiem was eventually dismissed from the
interpleader action. His cross-complaint was stricken for his
failure to serve the cross-defendants and his motion to vacate
that decision was denied for lack of jurisdiction. The appellant
in the present case, attorney Jeffrey G. Thomas, represented
Ray Hiem in the trial court and related earlier appellate
proceedings.
Two petitions for writ of mandamus and two appeals emanated
from the interpleader action. Three of these proceedings were
initiated by Thomas on behalf of Hiem. Division Seven of this
court denied Hiem's writ as untimely and dismissed his first
appeal for lack of standing.
In an unpublished opinion filed in April 2015, Division Seven
considered Hiem's second appeal and issued an opinion
affirming the trial court's order denying Hiem's motion to
vacate for lack of jurisdiction. (1130 Hope St. Inv. Assocs., LLC
v. Haiem (Apr. 27, 2015, No. B254143), 2015 Cal. App. Unpub.
LEXIS 2996, 2015 WL 1897822.) In the opinion,
Division [*5] Seven sanctioned Thomas individually (not his
client) for filing a frivolous appeal. The court explained that
through Hiem's second appeal, Thomas (1) attempted to
circumvent Division Seven's prior orders dismissing his first
appeal and (2) impermissibly argued the merits of an order
which had not been timely appealed. (2015 Cal. App. Unpub.
LEXIS 2996, [WL] at p. 9.) When opposing counsel asked
Thomas to limit the scope of his appeal to matter properly
before the court, Thomas made gratuitous and unprofessional
comments. (2015 Cal. App. Unpub. LEXIS 2996, [WL] at pp.
8-9.) Thomas also resisted opposing counsel's efforts to create
a competent record for appellate review. (2015 Cal. App.
Unpub. LEXIS 2996, [WL] at pp. 9-10.) The court further
p. 5 (A2), Appendix – Petition for the Writ of Certiorari in Thomas v.
Solomon et al.

observed Thomas's appeal lacked citation to a single authority
to support his position that the motion to vacate was timely and
the trial court had jurisdiction to hear it. (2015 Cal. App. Unpub.
LEXIS 2996, [WL] at p. 10.) The court sanctioned Thomas
$58,650. (2015 Cal. App. Unpub. LEXIS 2996, [WL] at p. 12.)
2. The Present Lawsuit: True Harmony Sues to Void the
Prior Judgment
The case from which this appeal arises was initially filed in May
2014 by True Harmony.1 Two-and-one-half years later, on
January 19, 2017, True Harmony filed a second amended
complaint against 1130 South Hope Street Investment
Associates, LLC and others, including Norman Solomon,
seeking to (1) void the trial [*6] court's prior judgment and (2)
declare True Harmony as the owner of the property. The causes
of action included "equitable action to void judgment and orders
of this court," "equitable relief to enforce the quiet title statute,"
cancellation of instruments, violations of charitable trust and
corporation laws, "restitution and injunction against unfair,
fraudulent, and unlawful practices," retaliation, and conversion
of personal property. (Capitalization omitted.)
Solomon filed demurrers to the second amended complaint.2 At
the April 7, 2017 hearing, the trial court sustained Solomon's
demurrers without leave to amend. That same day, the trial
court signed and entered a judgment dismissing the second
amended complaint with prejudice. Solomon filed with the
court and served Thomas as True Harmony's attorney with the
written notice of entry of judgment that same day by mail. True
Harmony did not appeal the judgment dismissing the second

1 The

record does not contain the original complaint.

2 As

the present appeal only involves defendant Solomon's motion for
sanctions, we focus on his responsive motions.

p. 6 (A2), Appendix – Petition for the Writ of Certiorari in Thomas v.
Solomon et al.

amended complaint within the required 60 days from notice of
entry of judgment. As a result, the judgment became final on
June 7, 2017.
3. True Harmony's Motion for Reconsideration
On April 17, 2017, Thomas filed a motion for reconsideration
of the April [*7] 7th ruling sustaining the demurrers. In July
2017, well before Solomon's response to the motion for
reconsideration was due, counsel for Solomon informed
Thomas in multiple letters that the trial court lacked jurisdiction
to hear the motion for reconsideration because judgment had
already been entered (on April 7th). Counsel also told Thomas
that the court would not re-characterize the motion as one for
new trial or to vacate because the statutory sixty days had
elapsed since entry of judgment and no new facts or law were
presented.
Thomas nonetheless continued to pursue True Harmony's
motion for reconsideration. Solomon was forced to prepare an
opposition. In response to Solomon's opposition, True
Harmony filed a 10-page reply, supplemental declaration, and
more exhibits. Two weeks later, True Harmony filed an ex parte
application to file a supplemental memorandum of points and
authorities in support of the motion for reconsideration. The
court denied plaintiff's ex parte application on October 10,
2017.
On October 17, 2017, the trial court denied the motion for
reconsideration, concluding that it lacked jurisdiction to hear
the motion. The court also found no good cause to
construe [*8] the motion for reconsideration as a motion for
new trial or motion to vacate, explaining that the jurisdictional
period to rule on such motions expired.
4. Solomon's Motion for Sanctions
p. 7 (A2), Appendix – Petition for the Writ of Certiorari in Thomas v.
Solomon et al.

On September 25, 2017, Solomon served on Thomas by hand
delivery a motion requesting sanctions pursuant to Code of Civil
Procedure section 128.7.3 On October 17, 2017, Solomon filed
the motion for sanctions with the trial court. Solomon argued
that the motion for reconsideration was frivolous, untimely, and
baseless. He requested $26,410 in attorney's fees and costs.
Thomas and True Harmony opposed the motion, arguing that
the court lacked jurisdiction to hear the sanctions motion, the
motion for sanctions was a "sham pleading," True Harmony's
motion for reconsideration was not outside the court's
jurisdiction, and the court should use its discretion to deny
sanctions.
On November 30, 2017, the court granted the motion for
sanctions, finding that Thomas violated section 128.7 by
proceeding with a motion for reconsideration that had no basis
in the law. The court sanctioned Thomas (not his client)
$23,350, which was the amount of Solomon's reasonable
attorney's fees and costs. The court slightly decreased the fees
and costs initially claimed by Solomon [*9] by excluding fees
associated with preparing a notice of ruling and attending the
hearing.
5. Appellate Filings
On December 18, 2017, Thomas filed two notices of appeal,
one on behalf of True Harmony and another on behalf of
himself. Thomas identified three orders in each notice of
appeal: (1) the order made on October 10, 2017 denying True
Harmony's request to file supplemental briefing in support of
its motion for reconsideration, (2) the order made on October
17, 2017, denying reconsideration, and (3) the order made on

3 All

subsequent statutory references are to the Code of Civil Procedure
unless indicated otherwise.

p. 8 (A2), Appendix – Petition for the Writ of Certiorari in Thomas v.
Solomon et al.

November 30, 2017 awarding sanctions against Thomas.
Counsel for Solomon sent Thomas four letters in January and
February 2018. The first responded to the notice of appeal,
informing Thomas that the motion for reconsideration was not
appealable and that his appeal of sanctions was not meritorious.
The second letter responded to inaccuracies in Thomas's Civil
Case Information Statements and reiterated that the motion for
reconsideration was not appealable. The letter warned that
Solomon would seek sanctions from the appellate court because
of the unnecessary and inappropriate expense he would incur in
defending the appeal. The third letter followed up on the earlier
correspondence [*10] and informed Thomas that Solomon
would seek dismissal of the appeal.
Thomas then emailed Solomon's counsel asking counsel "to
simply state the grounds for [the] motion to dismiss in a single
letter, and make it succinct." Solomon's counsel responded in a
fourth letter enclosing copies of the earlier correspondence,
again asserting the appeal was frivolous, and asking Thomas to
dismiss the appeal. Solomon's counsel sent Thomas a fifth letter
in April 2018, asking Thomas to dismiss the appeal and
recapitulating the reasons for dismissal.
Thomas did not abandon the appeal or any of its improper
components. On April 6, Solomon filed a motion to dismiss the
appeal of True Harmony in its entirety and Thomas's appeal as
to the two orders made in October 2017 regarding the motion
for reconsideration. Thomas filed a 54-page opposition, to
which Solomon subsequently replied. On May 4, 2018, this
court dismissed the appeal entirely as to True Harmony for lack
of standing as no sanctions order had been made against True
Harmony. We dismissed as untimely Thomas's appeal as to all
orders except for the sanctions order.
Thomas then filed a 45-page petition for rehearing of the
dismissal, arguing that [*11] all his appeals and all of True
Harmony's appeals should be allowed to proceed. We denied
p. 9 (A2), Appendix – Petition for the Writ of Certiorari in Thomas v.
Solomon et al.

the petition.
On May 23, 2018, ignoring this court's order, Thomas filed an
opening brief on behalf of himself and True Harmony, arguing
that the trial court made an error in sustaining Solomon's
demurrer and that sanctions should not have been imposed. The
opening brief concluded that this court "must reverse . . . and
remand to the Superior Court to permit amendment of the
pleading and the action to continue in the Superior Court."
Notably, our May 4, 2018 dismissal order had concluded that
the trial court's ruling on the demurrer was irrelevant to the
appeal for the motion for sanctions. Also on May 23, 2018,
Thomas filed a request for judicial notice.4
On June 4, 2018, Thomas sent this court and served on Solomon
a 37-page "Supplement to Appellant's Opening Brief," arguing
yet again that True Harmony ought to be given the right to file
a third amended complaint in the underlying action.
In early June 2018, Solomon's counsel sent Thomas a letter
asking Thomas to withdraw all appeals on behalf of True
Harmony, confirm that his appeal is limited to the sanctions,
withdraw his request for judicial [*12] notice, and withdraw
his supplemental brief. The letter provided legal argument as to
why Thomas should take the requested actions. Thomas
declined.
On June 11, 2018, Solomon moved to strike (1) Thomas's
opening brief filed on behalf of True Harmony, (2) the request
for judicial notice, and (3) appellant's supplemental brief (or to
reject it if not yet filed).
On July 11, 2018, we struck Thomas's opening brief because it
failed to limit its arguments to the sanctions order. We also
struck the supplemental brief. We indicated Thomas could file

4 We

deny this request for judicial notice.

p. 10 (A2), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

a new opening brief limited to the sanctions order.
Thomas then filed a revised brief titled "Thomas Appellant's
Opening Brief." The new brief again went outside the scope of
the appeal by launching into an argument about the ownership
and sale of the property in the fact section and a section on
"unclean hands." In his appellate brief, Solomon indicates he
chose not to file another motion to strike the new opening brief
because of the expense involved. We also observe that the
appendix filed by Thomas has some key omissions: Thomas
includes only 7 of the 23 exhibits that were originally filed with
Solomon's the motion for sanctions.
After the case [*13] was fully briefed, Solomon filed a motion
for sanctions on appeal, supported by a declaration from
counsel and exhibits. Thomas filed opposition and a motion to
strike. We deny the motion to strike and grant Solomon's
motion for appellate sanctions for the reasons stated below.
DISCUSSION
We address the merits of Thomas's appeal of the trial court's
order awarding sanctions, and Solomon's motion for sanctions
in turn.
1. Standard of Review for the Trial Court Sanctions
"We review a Code of Civil Procedure section 128.7 sanctions
award under the abuse of discretion standard. [Citation.] We
presume the trial court's order is correct and do not substitute
our judgment for that of the trial court. [Citation.] To be entitled
to relief on appeal, the court's action must be sufficiently grave
to amount to a manifest miscarriage of justice." (Peake v.
Underwood (2014) 227 Cal.App.4th 428, 441, 173 Cal. Rptr.
3d 624.) "However, the proper interpretation of a statute relied
upon by the trial court as its authority to award sanctions is a
question of law, which we review de novo." (Martorana v.
p. 11 (A2), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Marlin & Saltzman (2009) 175 Cal.App.4th 685, 698, 96 Cal.
Rptr. 3d 172.)
2. The Trial Court Properly Concluded It Lacked
Jurisdiction to Hear the Motion for Reconsideration
The predicate to the trial court's award of sanctions is the
validity of the trial court's denial of the motion for
reconsideration. [*14] Thomas argues that the trial court "erred
in deciding that it had no jurisdiction to decide [True
Harmony's] motion for reconsideration" and therefore
Solomon's motion for sanctions lacked merit. We summarize
our earlier chronology. On April 7, 2017, the trial court
sustained the demurrer without leave to amend, and then signed
and entered a judgment dismissing the second amended
complaint with prejudice. The judgment was served on Thomas
via mail on April 7, 2017. Thomas filed a motion for
reconsideration 10 days later, on April 17, 2017.
We conclude that the trial court correctly determined it lacked
jurisdiction to hear the motion for reconsideration. The
Supreme Court has held, "After entry of judgment, the superior
court [does] not have jurisdiction to entertain or decide a motion
for reconsideration." (Aguilar v. Atlantic Richfield Co. (2001)
25 Cal.4th 826, 859, 107 Cal. Rptr. 2d 841, 24 P.3d 493; Safeco
Ins. Co. v. Architectural Facades Unlimited, Inc. (2005) 134
Cal.App.4th 1477, 1482, 36 Cal. Rptr. 3d 754 ["It is well settled
that entry of judgment divests the trial court of authority to rule
on a motion for reconsideration."].) We also agree the trial court
properly concluded that by the time of the October hearing, it
could not construe the motion for reconsideration as a motion
to vacate or for new trial because the 60-day jurisdictional
timeline for ruling on such motions [*15] had lapsed. (See §
663a, subd. (b) ["the power of the court to rule on a motion to
set aside and vacate a judgment shall expire 60 days from the
mailing of notice of entry of judgment by the clerk of the court
pursuant to Section 664.5, or 60 days after service upon the
p. 12 (A2), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

moving party by any party of written notice of entry of the
judgment, whichever is earlier"]; § 660 [stating the same for
motion for new trial].)5
Thomas asserts that the judgment was entered on May 1, 2017
or May 19, 2017, and that his motion was filed before its entry.
Thomas provides no citation to the record for these entry of
judgment dates. The entry of judgment was clearly dated April
7, 2017. Even if judgment had been entered after Thomas filed
a motion for reconsideration, it would not benefit Thomas. "The
issue is jurisdictional. Once the trial court has entered judgment,
it is without power to grant reconsideration. The fact that a
motion for reconsideration may have been pending when
judgment was entered does not restore this power to the trial
court." (APRI Ins. Co. S.A. v. Superior Court (1999) 76
Cal.App.4th 176, 182, 90 Cal. Rptr. 2d 171.)
Thomas next contends that the judgment was not valid because
it was entered before "the court entered the written minute order
in the public records." Thomas fails to support this argument
with [*16] any citation to the record. On the contrary, the
court's minute order dated April 7, 2017, at 9:00 a.m., indicates
that it first sustained Solomon's demurrer without leave to
amend before it dismissed the appeal. After stating the reasons
for sustaining the demurrer, the minute order states: "LATER:
A judgment dismissing complaint of True Harmony as to
defendants Norman Solomon, 1130 Hope Street Investment
Associates, LLC, and Hope Street Lofts . . . with prejudice, is
signed, filed and entered on this date." The minute order states
that it was made and entered on April 7, 2017. Nothing in the
record before us shows that the trial court's entry of judgment
took place before the court sustained the demurrer. An appellate
brief must "[s]upport any reference to a matter in the record by
a citation to the volume and page number of the record where
5 We

observe that True Harmony's motion was brought exclusively pursuant
to section 1008 as a motion for reconsideration.

p. 13 (A2), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

the matter appears." (Cal. Rules of Court, rule 8.204(a)(1)(C).)
Indeed, "[i]t is axiomatic that an appellant must support all
statements of fact in his briefs with citations to the record."
(Pierotti v. Torian (2000) 81 Cal.App.4th 17, 29, 96 Cal. Rptr.
2d 553 (Pierotti).) Thomas failed to do so.
Thomas cites Pacific Home v. County of Los Angeles (1953) 41
Cal.2d 855, 857, 264 P.2d 544, In re Marriage of Drake (1997)
53 Cal.App.4th 1139, 1170, 62 Cal. Rptr. 2d 466, and Newman
v. Overland P.R. Co. (1901) 132 Cal. 73, 75, 64 P. 110, for
support of his proposition that the ruling must be written in the
minutes before the court enters judgment. Yet, these cases
are [*17] inapt as they deal with conflicts between written and
oral rulings. None support Thomas's contention that there must
be a minute order before entry of judgment. We therefore deem
this argument waived. (Benach v. County of Los Angeles (2007)
149 Cal.App.4th 836, 852, 57 Cal. Rptr. 3d 363 [appellant must
provide legal authority to support his contentions, otherwise his
arguments are waived].)
3. Thomas's Remaining Arguments Are Unpersuasive
Thomas argues that the trial court awarded "punitive sanctions
without the procedural safeguards required by due process of
the laws." Thomas's contention that the sanctions were punitive
is not supported by the record. The trial court explicitly awarded
sanctions pursuant to section 128.7. "Section 128.7 is designed
to be remedial, not punitive." (Galleria Plus, Inc. v. Hanmi
Bank (2009) 179 Cal.App.4th 535, 538, 101 Cal. Rptr. 3d 803.)
And, the amount of the sanctions was measured by the attorney
fees and costs that Solomon incurred.
To the extent Thomas's argument could be construed as arguing
the court abused its discretion, we conclude there was no abuse.
Solomon's counsel clearly and correctly made Thomas well
aware that Thomas's motion for reconsideration had no basis in
law, yet Thomas still pursued it and caused Solomon to
p. 14 (A2), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

needlessly incur thousands of dollars in attorneys' fees.
Thomas also argues that Solomon's alleged "unclean
hands" [*18] are a ground for reversal. Thomas requests this
court to take judicial notice of documents in support of his
unclean hands argument that did not exist when the trial court
entered its sanctions order. We decline to do so. This argument
is merely an attempt to relitigate the underlying complaint and
True Harmony's claims of fraud. In making this frivolous
argument, Thomas has violated our court order specifically
limiting his appeal to the sanctions motion.
We conclude this part of our discussion by affirming the trial
court's sanctions order. We next turn to Solomon's motion for
sanctions on appeal.
4. Thomas's Conduct on Appeal Warrants Sanctions
Solomon requests sanctions against Thomas for pursuing a
substantively frivolous appeal and repeatedly violating our
court orders. We agree that Thomas's appellate filings were
largely frivolous and done in violation of court orders and rules.
Section 907 provides: "When it appears to the reviewing court
that the appeal was frivolous or taken solely for delay, it may
add to the costs on appeal such damages as may be just."
California Rules of Court, rule 8.276(a)(1) and (4) provide for
sanctions for "[t]aking a frivolous appeal, . . . appealing solely
to
cause
delay,"
or
"[c]omitting
any
unreasonable [*19] violation of these rules." (Id. at subd.
(a)(4).)
An appeal may be frivolous based upon either subjective or
objective criteria. (In re Marriage of Flaherty (1982) 31 Cal.3d
637, 649, 183 Cal. Rptr. 508, 646 P.2d 179.) "[A]n appeal
should be held to be frivolous only when it is prosecuted for an
improper motive—to harass the respondent or delay the effect
of an adverse judgment—or when it indisputably has no
p. 15 (A2), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

merit—when any reasonable person would agree that the appeal
is totally and completely without merit." (Id. at p. 650.)
"'"While each of the above standards provides independent
authority for a sanctions award, in practice the two standards
usually are used together 'with one providing evidence of the
other. Thus, the total lack of merit of an appeal is viewed as
evidence that appellant must have intended it only for delay."'"
(Personal Court Reporters, Inc. v. Rand (2012) 205
Cal.App.4th 182, 191, 140 Cal. Rptr. 3d 301 (citations
omitted).)
Here, Thomas sought to prosecute an appeal on behalf of a party
that clearly lacked standing, and attack a judgment that had long
become final. The only order properly appealed was the
sanctions order itself.6 The only party with standing to appeal
that order was Thomas. Nonetheless, Thomas filed two
improper notices of appeal on behalf of himself and True
Harmony, identifying two additional orders related to his
motion for reconsideration [*20] that were not appealable.
When Solomon wrote Thomas letters asking him to limit his
appeal to the sanctions order, Thomas refused. Solomon
unnecessarily incurred costs in filing a successful motion to
dismiss the improper appeals. Thomas then filed a motion for
rehearing, which was also denied by this court.
Despite our order striking True Harmony's appeal, Thomas
filed an opening brief on behalf of both True Harmony and
6 Because

a motion for reconsideration was unavailable following entry of
judgment, no appeal is available from its denial. (Safeco Ins. Co. v.
Architectural Facades Unlimited, Inc., supra, 134 Cal.App.4th at pp. 14801481 [motion for reconsideration did not extend 60-day period to appeal after
notice of entry of judgment, where judgment entered before ruling on motion
for reconsideration because trial court lost jurisdiction to hear motion for
reconsideration].) And, even if the October 17, 2017 order was appealable,
Thomas failed to timely file his notice of appeal from it; notice of appeal was
filed on December 20, 2017, beyond the permitted 60 days. (See Cal. Rules
of Court, rule 8.104.)

p. 16 (A2), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

himself. The appeal addressed the merits of the underlying case
and demurrer, and was not limited to the sanctions order.
Solomon again corresponded with Thomas asking him to
withdraw his improper brief. Thomas refused. Solomon then
incurred further costs bringing a successful motion to strike the
opening brief. Even after we ordered Thomas to limit his brief
to the sanctions order, Thomas still argued the underlying
judgment and matters unrelated to sanctions in the new opening
brief.
The first opening brief and the improper portions of Thomas's
second opening brief "indisputably ha[ve] no merit." (In re
Marriage of Flaherty, supra, 31 Cal.3d at p. 650.) Similar to
Thomas's appeal before Division Seven, here Thomas (1)
attempted to circumvent court orders dismissing the improper
appeals and (2) impermissibly argued the [*21] merits of a
judgment which was not appealed. (1130 Hope St. Inv. Assocs.,
LLC v. Haiem, supra, 2015 Cal. App. Unpub. LEXIS 2996, 2015
WL 1897822, at p. 9.)
It is evident from Thomas's pursuit of improper appeals and
plain disobedience of our court orders that his briefing and
motions are frivolous and intended to harass Solomon. Such
improper briefing generated unnecessary and substantial costs
for Solomon. As another appellate court wrote when awarding
sanctions, "an opening brief is not an appropriate vehicle for an
attorney to 'vent his spleen' after losing . . . . This is because,
once the brief is filed, both the opponent and the state must
expend resources in defending against and processing the
appeal. Thus, an unsupported appellate tirade is more than just
words on paper; it represents a real cost to the opposing party
and to the state." (Pierotti, supra, 81 Cal.App.4th at pp. 32-33.)
"[S]uch an outburst, when committed to the pages of an opening
brief, becomes an expensive proposition for all those
concerned. Justice requires that those costs fall on the person
(or persons) who unreasonably caused them." (Id. at p. 33.) We
therefore conclude considerable sanctions are appropriate in
this case.
p. 17 (A2), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

5. Significant Appellate Sanctions Are Deserved
In setting the amount of sanctions on appeal, we consider "'"the
amount of respondent's attorney's [*22] fees on appeal; the
amount of the judgment against appellant; the degree of
objective frivolousness and delay; and the need for
discouragement of like conduct in the future."'" (Kleveland v.
Siegel & Wolensky, LLP (2013) 215 Cal.App.4th 534, 558, 155
Cal. Rptr. 3d 599.)
Here, Solomon seeks $82,380.64 in sanctions, composed of
$75,950 in attorney's fees and $6,430.64 in costs. The attorney's
fees are based on 151.9 hours of work by counsel, billing at a
rate of $500 per hour. Counsel provided billing records
accounting for his time and itemizing the tasks he conducted
while litigating this appeal. Counsel's declaration also provided
an overview of the attorney's fees and hours of work attributable
to major tasks or filings. As for the costs, they are separately
accounted for in an itemized list attached as an exhibit to the
motion for sanctions.
We have reviewed the billing records, counsel's declaration,
and the documents filed with this court from the inception of
this appeal to present. We grant Solomon's motion for attorney's
fees in the amount of $56,980.64, which is the amount we find
to be directly attributable to Thomas's frivolous briefing and
appellate notices. Excluded from this amount are the fees
Solomon necessarily incurred for what should have been an
appeal [*23] limited to the trial court's sanction order. We
reduce the $82,380.64 requested by the $9,650 attributed to
attorney-client correspondence, and the $15,750 attributed to
writing the respondent's brief on the merits. We also impose
$8,500 payable directly to the clerk of this court to reimburse
costs of processing the various frivolous aspects of Thomas's
attorney to 'vent his spleen' after losing . . . . This is because,
once the brief is filed, both the opponent and the state must
expend resources in defending against and processing the
p. 18 (A2), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

appeal. Thus, an unsupported appellate tirade is more than just
words on paper; it represents a real cost to the opposing party
and to the state." (Pierotti, supra, 81 Cal.App.4th at pp. 32-33.)
"[S]uch an outburst, when committed to the pages of an opening
brief, becomes an expensive proposition for all those
concerned. Justice requires that those costs fall on the person
(or persons) who unreasonably caused them." (Id. at p. 33.) We
therefore conclude considerable sanctions are appropriate in
this case.
5. Significant Appellate Sanctions Are Deserved
In setting the amount of sanctions on appeal, we consider "'"the
amount of respondent's attorney's [*22] fees on appeal; the
amount of the judgment against appellant; the degree of
objective frivolousness and delay; and the need for
discouragement of like conduct in the future."'" (Kleveland v.
Siegel & Wolensky, LLP (2013) 215 Cal.App.4th 534, 558, 155
Cal. Rptr. 3d 599.)
Here, Solomon seeks $82,380.64 in sanctions, composed of
$75,950 in attorney's fees and $6,430.64 in costs. The attorney's
fees are based on 151.9 hours of work by counsel, billing at a
rate of $500 per hour. Counsel provided billing records
accounting for his time and itemizing the tasks he conducted
while litigating this appeal. Counsel's declaration also provided
an overview of the attorney's fees and hours of work attributable
to major tasks or filings. As for the costs, they are separately
accounted for in an itemized list attached as an exhibit to the
motion for sanctions.
We have reviewed the billing records, counsel's declaration,
and the documents filed with this court from the inception of
this appeal to present. We grant Solomon's motion for attorney's
fees in the amount of $56,980.64, which is the amount we find
to be directly attributable to Thomas's frivolous briefing and
appellate notices. Excluded from this amount are the fees
p. 19 (A2), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Solomon necessarily incurred for what should have been an
appeal [*23] limited to the trial court's sanction order. We
reduce the $82,380.64 requested by the $9,650 attributed to
attorney-client correspondence, and the $15,750 attributed to
writing the respondent's brief on the merits. We also impose
$8,500 payable directly to the clerk of this court to reimburse
costs of processing the various frivolous aspects of Thomas's
the various frivolous aspects of Thomas's appellate filings. (See
Kleveland v. Siegel & Wolensky, LLP, supra, 215 Cal.App.4th
at p. 558 [imposing $52,727.56 in sanctions payable to
respondent and $8,500 payable to appellate court clerk].)
DISPOSITION
We affirm the trial court's sanctions order. Respondent Norman
Solomon is awarded costs on appeal.
Sanctions in the amount of $65,480.64 are imposed on Thomas,
with $56,980.64 payable to respondents and $8,500 payable to
the clerk of this court within 90 days of the date of remittitur.
Having found Jeffrey G. Thomas, State Bar No. 83076, has
violated court rules and orders in such a degree as to require
sanctions in the amount of $65,480.64, we order Thomas and
the clerk of this court to each forward a copy of this opinion to
the State Bar within 30 days after the issuance of our remittitur.
(Bus. & Prof. Code, §§ 6086.7, subd. (a)(3) & 6068, subd.
(o)(3); Pierotti, supra, 81 Cal.App.4th at pp. 37-38.)
RUBIN, J.
WE CONCUR:
BIGELOW, P. J.
GRIMES, J.
__________________________________________________
p. 20 (A2), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Footnotes

1

The record does not contain the original complaint.

2

As the present appeal only involves defendant Solomon's
motion for sanctions, we focus on his responsive motions.
3

All subsequent statutory references are to the Code of Civil
Procedure unless indicated otherwise.
4

We deny this request for judicial notice.

5

We observe that True Harmony's motion was brought
exclusively pursuant to section 1008 as a motion for
reconsideration.
6

Because a motion for reconsideration was unavailable
following entry of judgment, no appeal is available from its
denial. (Safeco Ins. Co. v. Architectural Facades Unlimited,
Inc., supra, 134 Cal.App.4th at pp. 1480-1481 [motion for
reconsideration did not extend 60-day period to appeal after
notice of entry of judgment, where judgment entered before
ruling on motion for reconsideration because trial court lost
jurisdiction to hear motion for reconsideration].) And, even if
the October 17, 2017 order was appealable, Thomas failed to
timely file his notice of appeal from it; notice of appeal was
filed on December 20, 2017, beyond the permitted 60 days.
(See Cal. Rules of Court, rule 8.104.)

p. 21 (A2), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

#A3

Appendix A3 – Petition for Review
IN THE SUPREME COURT OF CALIFORNIA

JEFFREY G. THOMAS,
Petitioner,
v.
NORMAN SOLOMON
Respondent.

)
)
)
)
)
)
)
)
)
)
)
)
)
)

No. ____

Second District
Court of App.
No. B287017
sub nom. TRUE
HARMONY
v. ROSARIO
PERRY

_________________________________________________
PETITION FOR REVIEW OF THE CALIFORNIA
COURT OF APPEALS’S DECISION GRANTING
MOTION FOR APPELLATE SANCTIONS AND
AFFIRMING ORDER OF THE SUPERIOR COURT
FOR SANCTIONS UNDER CODE CIV. PROC. §128.7
[Concurrently filed Motion for Judicial Notice)
Jeffrey G Thomas
201 Wilshire Blvd., Second Floor
Santa Monica, California. 90401
Telephone: 310-650-8326
Email Address: jgthomas128@gmail.com
PETITIONER IN PROPRIA PERSONA
p. 22 (A3), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

TABLE OF CONTENTS
Table of Contents ……………………………..…………….. i
Table of Authorities ………………………………………… i
I. Statement of Jurisdiction ………………………………… 1
II. Statement of No Interested Parties ……………………… 1
III. Issues Presented ………………………………………
IV. Statement of the Facts ………………………………….
V. Discussion
A. Whether the Court of Appeals Denied Due Process and
Equal Protection of the Laws to Petitioner in Holding that the
Issue of Appellate Jurisdiction of True Harmony’s Appeal is
Irrelevant to the Motion for Sanctions Against Petitioner
……………………………………………………………
B. The Dismissal of the Appeal by True Harmony Denied
Due Process and/or Equal Protection of the Laws to True
Harmony and Petitioner ………………………………………
C. A Judgment Must be Entered Before the Motion for
Reconsideration is Filed to Cut Off the Jurisdiction of the Court
to Consider the Motion, and the Court of Appeals Erred in
Failing to Reverse the Order for Sanctions in the Trial Court
……………………………………………………………….
D. The Issues Defined by B. and C., if not clearly erroneously
decided, were at least Subject to Reasonable Dispute such that
the court of appeals erred in granting the Motion for appellate
sanctions …………………………………………………….

p. 23 (A3), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

E. The Appellate Sanctions Awarded Violated Petitioner’s
Constitutional Rights of Free Speech and Petitioning ………
F. The Sanctions Statute Was Misapplied in Contradiction of
Plain Meaning of its Language and Legislative Intent of the
1858 Legislature, and the Appellate Sanctions Awarded were
Punitive in Effect, Triggering the Enhanced Due Process
Protections of Trial by Jury and Proof Beyond A Reasonable
Doubt …………………………………………………………
VI. Conclusion ………………………………………………..
TABLE OF AUTHORITIES
STATUTES
Amendment Fourteen of U. S. Constitution ………………
Article I, Section 7 of state constitution ……………………
26 U.S.C. §501(c)(3) ……………………………………….
Cal. Code Civ. Proc. §128.5 ………………………………..
Cal. Code Civ. Proc. §128.7 ………………………………
Cal. Code Civ. Proc. §413.10 ………………………………
Cal. Code Civ. Proc. §425.16 ………………………………
Cal. Code Civ. Proc. §436 ………………………………….
Cal. Code Civ. Proc. §437c …………………………………
Cal. Code Civ. Proc. §581(f)(1) ………………………………
Cal. Code Civ. Proc. §663(a) …………………………………
p. 24 (A3), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Cal. Code Civ. Proc. §764.010 ………………………………
Cal. Code Civ. Proc. §907 ……………………………………
Cal. Code Civ. Proc. §909 ……………………………………
Cal. Code Civ. Proc. 1008 …………………………………
Cal. Corp. Code §5913 ……………………………………
Cal. Evidence Code §500 …………………………………
Cal. Evidence Code §550(b) ……………………………….
Cal. Evidence Code §605 …………………………………
Cal. Penal Code §799 ……………………………………
Cal. Penal Code §1265 ……………………………………….
DECISIONS
580 Folsom Associates v. Prometheus Development Co.
(1990) 223 Cal. App. 3d 1 …………………………………
Allied Fire Protection v. Diede Construction, Inc. (2005)
127 Cal. App. 4th 150 …………………………………….
Americans for Prosperity Foundation v. Becerra (9th Cir.
2018) 903 F. 3d 1000 .……………………………………
APRI Ins. Co. v. Superior Court (1999) 74 Cal. App. 4th 176
……………………………………………………………
Barnett v. First National Ins. Co. (2010) 184 Cal. App. 4th
1454 ………………………………………………………….
Berri v. Superior Court (1955) 43 Cal. 2d 856 ……………
p. 25 (A3), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Biancalana v. T. D. Service Co. (2014) 56 Cal. 4th 807 ……
Bockrath v. Aldrich Chemical Co. (1999) 21 Cal. 4th 71 …..
Bose v. Consumer Union (1984) 466 U. S. 485 …………….
Brannon v. Superior Court (2004) 114 Cal. App. 4th 1203
……………………………………………………………
Chern v. Bank of America (1976) 15 Cal. 3d 866 ……………
Chevron Oil Co. v. Huson (1971) 404 U.S. 97 ……………….
Christin v. Story (1931) 211 Cal. 381 [295 P. 515] …………..
Duffens v. Valenti (2008) Cal. App. 4th 161 Cal. App. 4th 434
………………………………………………………………..
Finnie v. Town of Tiburon (1988) 199 Cal. App. 3d 1 ………
Goodyear Tire & Rubber Co. v. Haeger (2017) 137 S. Ct. 1178
………………………………………………………………...
Harper & Row Publishers Inc. v. Nation Enterprises, Inc.
(1985) 471 U. S. 539 ………………………………………
In re Gardens Regional Hosp. (Bank. C.D. Cal. 2017) 567 B.R.
830 …………………………………………………………..
In re Estate of Sayles (1931) 212 Cal. 437 [298 P. 971] ………
Iskanian v. CLS Transportation Los Angeles LLC
(2014) 59 Cal. 4th 348 ……………………………………….
Juge v. County of Sacramento (1993) 12 Cal. App. 4th 59 ….
Kelso v. Ulrich (1944) 66 Cal. App. 2d 873 …………………
p. 26 (A3), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Laird v. Blacker (1992) 2 Cal. 4th 606 ………………………
Los Angeles Airways v. Hughes Tool Co. (1979)
95 Cal. App. 3d 1 [156 Cal. Rptr. 805] ……………………..
Mediterranean Construction Co. v. State Farm Fire &
Casualty Co. (1998) 66 Cal. App. 4th 257 …………………..
Newman v. Emerson Radio Corp. (1989) 48 Cal. 3d 973
………………………………………………………………..
Oliver v. Swiss Club Tell (1963) 222 Cal. App. 2d 528
…………………………..........................................................
Optimal Markets, Inc. v. Salant (2013) 221 Cal. App. 4th 912
………………………………………………………………..
Passavanti v. Superior Court (1990) 225 Cal. App. 3d 1602
……………………………………………………………….
People v. Brady (1973) 30 Cal. App. 3d 81 ………………
People v. Kennedy (1953) 116 Cal. App. 2d 273 …………
People v. LaBlanc (2015) 238 Cal. App. 4th 1059 …………
People v. Lindberg (2008) 45 Cal. 4th 1 ……………………
People v. Thomas (1959) 52 Cal. 2d 521 …………………..
People v. Wilshire Ins. Co. (1977) 67 Cal. App. 3d 521 ……
Phelan v. Superior Court (1950) 36 Cal. 2d 363 ……………
Philippine Export and Foreign Loan Guarantee Corp. v.
Chuidian Philippine Export and Foreign Loan Guarantee
Corp. (1990) 218 Cal. App. 3d 1058 ………………………
p. 27 (A3), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Rollins v. City and County of San Francisco
(1974) 37 Cal. App. 4th ………………………………….
Safeco Ins. Co. v. Architectural Facades Unlimited Inc.
(2005) 134 Cal. App. 4th 1477 …………………………..
San Diego Watercrafts, Inc. v. Wells Fargo
(2002) 102 Cal. App. 4th 308 …………………………….
Shelley v. Kraemer (1948) 334 U.S. 1 ……………………
Shorr v. Kind (1991) 1 Cal. App. 4th 249 ………………….
Sosa v. Directv Inc. (9th Cir. 2006) 437 F. 3d 923 …………..
Strumsky v. San Diego County Employees Retirement Ass’n.
(1974) 11 Cal. 3d 28 ……………………………………….
Texaco Inc. v. Short (1982) 454 U. S. 516 …………………
Thomas v. Gordon (2000) 85 Cal. App. 4th 113 ……………
Today’s Fresh Start Inc. v. Los Angeles County Office of
Educ. (2013) 57 Cal. 4th 197 ………………………………..
United States v. Throckmorton (1878) U. S. ………………
Vaccaro v. Kaiman (1998) 63 Cal. App. 4th 761 …………..
Village of Willowbrook v. Olech (2000) 528 U. S. 562 ……..
Williams v. Davis (1944) 67 Cal. App. 2d 274 ………………
Wilson v. Sellers (2018) 584 U. S. ___, [138 S. Ct. 1188]
………………………………………………………………
Wolfgram v. Wells Fargo Bank (1997) 53 Cal. App. 4th 43
p. 28 (A3), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

[61 Cal. Rptr. 2d 694] ……………………………………….
WSM Inc. v. Tennessee Sales (6th Cir. 1983) 709 F. 2d 1084
………………………………………………………………..
OTHER
M. Pritchett, The Writ of Error Coram Nobis in California,
30(1) Santa Clara Law Review 1 (1990)

ATTACHMENTS
Attachment ‘1’ – order of the court of appeals dated May 4,
2018
Attachment ‘2’ – order of the court of appeals dated May 25,
2018
Attachment ‘3’ – order of the court of appeals dated July 5,
2018
REFERENCES
References to “Appx.” within are references to the
Appendix filed in the court of appeals.

p. 29 (A3), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

#A4

Appendix A4 - Notice of Appeal
For Court Use Only:
FILED DECEMBER
18, 2017
JEFFREY G. THOMAS
FIRM NAME DBA THOMAS LAW COMPANY
STREET ADDRESS 201 WILSHIRE BLVD. SECOND
FLOOR
SANTA MONICA CA 90401
TELEPHONE NO.: 310-650-8326 FAX NO.: 310-3881555
E-MAIL ADDRESS: jgthomas128@gmail.com
Attorney for PLAINTIFF TRUE HARMONY
SUPERIOR COURT OF CALIFORNIA, COUNTY OF
LOS ANGELES STREET ADDRESS. 111 N. HILL
STREET, LOS ANGELES, CA 90012
CASE NUMBER: BC546574
1.
NOTICE IS HEREBY GIVEN that (name): TRUE
HARMONY appeals from the following judgment or
order in this case, which was entered on (date):
1.10.10.2017; 2. 10.17.2017 and 3. 11.30.2017
....
Check: An order or judgment under Code of Civil
Procedure, § 904.1 (a)(3)-{13)
Other (describe and specify code section that authorizes
this appeal):
1. DENIAL OF EX PARTE APPLICATION TO FILE
SUPPLEMENTAL MEMORANDUM FOR MOTION
p. 30 (A4), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

(CCP 906). 2. DENIAL OF MOTION FOR
RECONSIDERATION OF ORDER SUSTAINING
DEMURRER CCP 904.1 (a)(2) and 3. DENIAL OF
RECONSIDERATION SUA SPONTE WITH GRANT OF
MOTION FOR SANCTIONS.
Date: December 15, 2017 /s/ Jeffrey G. Thomas

p. 31 (A4), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Order No. One
SUPERIOR COURT OF CALIFORNIA, COUNTY OF
LOS ANGELES
DATE: 10/10/17
HONORABLE SAMANTHA P. JESSNER
HONORABLE JUDGE PRO TEM EPA
R. MANZO, C.A. Deputy Sheriff
L. ALBINO, Deputy Clerk
DEPT. 31
ELECTRONIC RECORDING MONITOR
NONE: Reporter
8:30 am BC546574
TRUE HARMONY INC ET AL VS ROSARIO PERRY ET
AL. 170.6/Meiers-deft 170.6/Kalin-pltf
Plaintiff JEFFREY G. THOMAS (X) Counsel
Defendant HUGH JOHN GIBSON (X) Counsel
NATURE OF PROCEEDINGS:
PLAINTIFF'S EX PARTE APPLICATION TO FILE
SUPPLEMENTAL MEMORANDUM OF LAW
The Court has read and considered the ex parte
application and any and all oppositions filed.
The ex part application as captioned above is DENIED.
Notice is waived.

p. 32 (A4), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Order No. Two
Superior Court of California County of Los Angeles
FILED: Superior Court of California County of Los
Angeles, OCT 17, 2017 Department 31
TRUE HARMONY,
Plaintiff,
v.
ROSARIO PERRY, et al.
Hearing Date: October 16, 2017
PLAINTIFF'S MOTION TO RECONSIDER THE
COURT'S RULING SUSTAINING THE DEMURRERS
OF DEFENDANTS NORMAN SOLOMON, HOPE PARK
LOFTS 2001·02910056 LLC AND 1130 SOUTH HOPE
STREET INVESTMENT ASSOCIATES LLC TO SECOND
AMENDED COMPLAINT
On April 7, 2017, Department 74 heard
Defendants 1130 Hope Street Investment Associates,
LLC, Hope Park Lofts 2001-029 I0056, LLC, Norman
Solomon, Rosario Perry, Rosario Perry, A Professional
Law Corporation, and BlMHF, LLC's demurrers to the
Second Amended Complaint. The court sustained the
demurrers in their entirety without leave to amend,
finding the second through eighth causes of action were
barred by res judicata and the first cause of action failed
to state a claim. On April 7, 2017, the court entered
judgment in favor of these defendants. On April 17,
2017, plaintiff filed a motion for reconsideration.

p. 33 (A4), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

As noted above, judgment has been entered as to
all the moving defendants affected by the April 7, 2017
demurrer ruling. Therefore, as a matter of law, the court
lacks jurisdiction to hear Plaintiff's motion brought
pursuant to CCP §1008. "The issue is jurisdictional. Once
the trial court has entered judgment, it is without power
to grant reconsideration. The fact that a motion for
reconsideration may have been pending when judgment
was entered does not restore this power to the trial
court." (APRI Ins. Co. v. Superior Court (1999) 76 Cal.
App. 4th 176, 182. See also Ramon v. Aerospace Corp.
(1996) 50 Cal. App. 4th 1233, 1238 ("After judgment a
trial court cannot correct judicial error except in
accordance with statutory proceedings. A motion for
reconsideration is not such a motion."); Aguilar v.
Atlantic Richfield Co. (2001) 25 Cal. 4th 826,
859 n.29 ("After entry of judgment, the superior court
did not have jurisdiction to entertain or decide a motion
for reconsideration."); Eddy v. Sharp (1988) 199 Cal.
App. 3d 858, 863 n.3 ("A motion for reconsideration
may only be considered before the entry of a
judgment.").)
Moreover, while there is some authority for the
proposition that a court may construe a motion for
reconsideration as a motion for new trial or motion to
vacate (See e.g. Passavanti v. Williams (1990) 225 Cal.
App. 3d 1602, 1608), after the entry of judgment, the
court finds no good cause to do so. Moreover, the
jurisdictional period for the court to rule on a motion for
new trial or motion to vacate has expired as the notice of
entry of judgment was sent on April 7, 2017, well over 60
days ago. (CCP § 663a(b) ("If that motion [to vacate
judgment] is not determined within the 60-day period,
or within that period as extended, the effect shall be a
denial of the motion without further order of the
court."); CCP § 660 ("If such motion [for new trial] is not
determined within said period of 60 days, or within said
p. 34 (A4), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

period as thus extended, the effect shall be a denial of the
motion without further order of the court.").)
For these reasons, the motion is DENIED in its entirety.
Defendants are ordered to give notice.
DATED: October 17, 2017
Hon. Samantha P. Jessner Los Angeles Superior Court

p. 35 (A4), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Order No. 3
Superior Court of California County of Los Angeles
FILED: Superior Court of California County of Los
Angeles, NOVEMBER 30, 2017 Department 31
TRUE HARMONY,
Plaintiff,
v.
ROSARIO PERRY, et al.
Hearing Date: November 30, 2017
ORDER RE: DEFENDANT NORMAN SOLOMON’S
MOTION FOR SANCTIONS (CCP §128.7)
Defendants’ Motion for Sanctions (CCP § 128.7) is
GRANTED.
On April 7.2017, the Department 74 heard Defendants
1130 Hope Street Investment Associates. LLC Hlope
Park Lofts 2001-02910056, LLC, Norman Solomon.
Rosario Perry. Rosario Perry. A Professional Law
Corporation, and BIMHF. LLC's demurrers to the SAC.
The court sustained the demurrers in their entirety
without leave to amend, finding the second
through eighth cause of action were barred by res
judicata and the first cause of action failed to
state a claim. The court entered judgment in favor of
these defendants on that date, April 7, 2017.
Plaintiff filed a motion for reconsideration on April
17.2017. On October 10, 2017, the court denied Plaintiffs
motion as untimely based upon entry of judgment. which
terminated the court's jurisdiction to hear a motion for
p. 36 (A4), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

reconsideration. (APRl lns. Co. v. Superior Court 1999)
76 Cal. App. 4th 176. 182 ("The issue is jurisdictional.
Once the trial court has entered judgment, it is without
power to grant reconsideration. The fact that a motion
for reconsideration may have been pending when
judgment was entered does not restore this power to the
trial court.").)
Defendants move the court to impose monetary
sanctions in the amount of $26,410.00 against Jeffrey G.
Thomas, counsel for Plaintiff True Harmony for
pursuing its motion for reconsideration.
Sanctions pursuant to CCP § 128.7 are
discretionary. (CCP § 128.7(c) ('"If, after notice
and a reasonable opportunity to respond, the court
determines that subdivision (b) has been violated, the
court may, subject to the conditions stated below,
impose an appropriate sanction upon the attorneys, law
firms, or parties that have violated subdivision (b) or are
responsible for the violation.").) Additionally, Section
128.7 imposes a 21-day safe harbor period. (CCP
§128.7(c)( 1) ("Notice of motion shall be served as
provided in Section 1010, but shall not be filed with or
presented to the court unless, within 21 days after service
of the motion. or any other period as the court may
prescribe, the challenged paper, claim, defense,
contention, allegation, or denial is not withdrawn or
appropriately corrected.").) The motion was served more
than 21 days before it was filed, was filed separately,
describes the specific conduct alleged to violate
subdivision (b), and the challenged claims were not
withdrawn or corrected. Therefore, the motion satisfies
the procedural requirements of CCP § 128.7(c).
"A sanction imposed for violation of subdivision (b) shall
be limited to what is sufficient to deter repetition of this
conduct or comparable conduct by others similarly
p. 37 (A4), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

situated. Subject to the limitations in paragraphs (I) and
(2), the sanction may consist of, or include, directives of
a nonmonetary nature, an order to pay a penalty into
court, or, if imposed on motion and warranted for
effective deterrence, an order directing payment to the
movant of some or all of the reasonable attorney's fees
and other expenses incurred as a direct result of the
violation." (CCP § 128.7(d).) "When imposing sanctions,
the court shall describe the conduct determined to
constitute a violation of this section and explain the basis
for the sanction imposed." (CCP §128.7(e).) "Code of
Civil Procedure section 128.7 sanctions should be made
with restraint. and are not mandatory even if a claim is
frivolous." (Peake v. Underwood (2014) 227 Cal. App.
4th 428, 448 (internal citations omitted).)
"By presenting to the court, whether by signing,
filing, submitting, or later advocating, a pleading,
petition, written notice of motion, or other similar paper,
an attorney or unrepresented party is certifying that to
the best of the person's knowledge, information, and
belief, formed after an inquiry reasonable under the
circumstances, all of the following conditions are met:
(1) It is not being presented primarily for an improper
purpose, such as to harass or to cause unnecessary delay
or needless increase in the cost of litigation.
(2) The claims, defenses, and other legal contentions
therein are warranted by existing law or by a
nonfrivolous argument for the extension, modification,
or reversal of existing law or the establishment of new
law.
(3) The allegations and other factual contentions have
evidentiary support (CCP § 128.7(b).) Defendants
contend Plaintiffs motion for reconsideration, initially
filed April 17, 2017 and resolved on October 10, 2017,
p. 38 (A4), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

violated § 128.7(b) as the motion was not supported by
existing law or a nonfrivolous argument for the
modification of existing law, was brought for an
improper purpose, and its factual contentions lacked
evidentiary support.
As previously noted by the court in denying the
motion for reconsideration, judgment was entered in
favor of all defendants affected by the April 7, 2017
demurrer ruling challenged by Plaintiff in its motion for
reconsideration. Thus, the court lacked jurisdiction as a
matter of law to entertain the motion. (APRI lns. Co. v.
Superior Court (1999) 76 Cal. App. 4th 176. 182. ("The
issue is jurisdictional. Once the trial court has entered
judgment. it is without power to grant reconsideration.
The fact that a motion for reconsideration may have
been pending when judgment was entered does not
restore this power to the trial court."); Ramon v.
Aerospace Corp. (1996) 50 Cal. App. 4th 1233. 1238
("After judgment a trial court cannot correct judicial
error except in accordance with statutory proceedings. A
motion for reconsideration is not such a motion.");
Aguilar v. Atlantic Richfield Co. (2001) 25 Cal. 4th 826.
859 n.29 ("After entry of judgment. the superior court
did not have jurisdiction to entertain or decide a motion
for reconsideration."); Eddy v. Sharp (1988) 199 Cal.
App. 3d 858, 863 n.3 ("A motion for reconsideration
may only be considered before the entry of a
judgment.").) Plaintiff’s motion for reconsideration was
brought solely and exclusively pursuant to CCP § 1008 as
a motion for reconsideration.
While there is some authority for the proposition
that a court may construe a motion for reconsideration
as a motion for new trial or motion to vacate. (See e.g.
Passavanti v. Williams (1990) 225 Cal. App. 3d 1602.
1608). after the entry of judgment. The jurisdictional
period for the court to rule upon a motion for new trial
p. 39 (A4), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

or motion to vacate long expired as the notice of entry of
judgment was sent on April 7. 2017, well over 60 days
prior to the hearing on the motion for reconsideration.
(CCP § 663a(b) ("If that motion [to vacate judgment] is
not determined within the 60-day period. or within that
period, as extended, the effect shall be a denial of the
motion without further order of the court."); CCP § 660
("If such motion [for new trial] is not determined within
said period of 60 days. or within said period as thus
extended. the effect shall be a denial of the motion
without further order of the court.").)
In Opposition, Plaintiff argues, without citation to
authority, that the instant motion should have been
brought pursuant to CCP § 177.5. (Opp. at 1.) However,
Section 177.5 only applies to violations of a lawful court
order and is therefore irrelevant and inapplicable.
Plaintiff’s reliance on the court's September 5, 2017
minute order denying the motion for reconsideration is
misplaced. Unbeknownst to the court, the parties had
continued the hearing date prior to September 5, 2017,
which explains why none of the parties appeared on
September 5, 2017. In Reply, Defendants contend "[t]he
court should vacate its 9/5/17 order." The court
issued an order nunc pro tunc on September 28, 2017
striking the September 5, 2017 order in its entirety due
to inadvertence and clerical error. The stricken order is
irrelevant to the issues presented in the instant sanctions
motion. Additionally, the clerk gave notice to Plaintiff of
this order and directed Plaintiff to give notice to all other
parties. (Min. Order dated Sept. 28. 2017.) It appears
Plaintiff failed to comply with the order to give notice as
Defendants seem unaware of the issuance of the
September 28, 2017 order nunc pro tunc. Defendants'
Reply also appears to indicate that Plaintiffs Opposition
was the first time they became aware of the September 5,
2017 order, of which Plaintiff was similarly ordered to
give notice.
p. 40 (A4), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Plaintiff also contends the sanction motion is a "sham
pleading," citing Berman v. Bromherg (1997) 56
Cal.App.4th 936. (Opp. at 2-3.) The sham pleading rule
applies to consecutive complaints and is inapplicable to
sanctions motions. As noted by the court in
Berman:
Generally, after an amended pleading has been filed,
courts will disregard the original pleading. [Citation.]
However, an exception to this rule is found in Lee v.
Hensley [(1951) 103 Cal. App. 2d 697, 708-709 (230 P.2d
159)], where an amended complaint attempts to avoid
defects set forth in a prior complaint by ignoring them.
The court may examine the prior complaint to ascertain
whether the amended complaint is merely a sham.'
[Citation.] The rationale for this rule is obvious. 'A
pleader may not attempt to breathe life into a complaint
by omitting relevant facts which made his previous
complaint defective.' [Citation.] Moreover, any
inconsistencies with prior pleadings must be explained;
if the pleader fails to do so, the court may disregard the
inconsistent allegations. (Berman. supra at 945-46.)
Plaintiff also once again contends, despite the
clear and unambiguous authority above, that the court
did not lack jurisdiction. Plaintiff also contends, despite
the undisputed fact that the relevant statutory periods
had long passed (CCP § 663a(b), that the court could
have considered the motion for reconsideration as a
motion to vacate judgment. (Opp. at 4.)
Plaintiff further argues that the court "did not
refer to Plaintiff's argument in the reply memorandum
that the requirement of a motion for dismissal after a
demurrer is sustained, in Code Civ. Proc. § 581 (f)(1),
was not complied with; and therefore Plaintiff had good
cause to file the motion for reconsideration." To the
extent Plaintiff raised the issue tor the first time in reply,
p. 41 (A4), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

the argument was improper. (Reichardt v. Hoffman
(1997) 52 Cal. App. 4th 754, 764 ("Points raised for the
first time in a reply brief will ordinarily not be
considered, because such consideration would deprive
the respondent of an opportunity to counter the
argument.").) Moreover, Plaintiffs contention lacks
substantive merit. "The requirement that the judgment
be made 'when the defendant moves for such dismissal',
Code Civ. Proc. § 581, subd. 3, relieves the court of the
duty to dismiss the action upon its on motion, but does
not require that notice of the motion be given to
plaintiffs." (Dumm v. Pacific Valves (1956) 146 Cal. App.
2d 792, 795-96.) The judgment entered on April 7, 2017,
the judgment entered on May 1, 2017, and the judgment
entered on May 19, 2017, as to each Defendant subject to
the April 7, 2017 demurrer ruling were all entered on a
proposed judgment prepared by Defendants' counsel.
Thus, it is clear that these defendants properly moved
the court to dismiss the action, meeting the
requirements of CCP §581(f)(1). Plaintiff was not entitled
to notice of the request. Plaintiffs citation to Reid v.
Balter (1993) 14 Cal. App. 4th 1186. which involved
dismissal for failure to prosecute, rather than dismissal
after the sustaining of a demurrer without leave to
amend. is inapplicable.
Plaintiff raises irrelevant contentions regarding a
conflict of interest with Defendant Rosario Perry.
contends "any frivolity is de minimis injury," mistakenly
contending Defendants are seeking "one hundred
thousand dollars" in sanctions. Plaintiff also improperly
seeks to litigate issues of bias and conflicts of interest in
arbitrations long since completed and allegations of
criminal conduct which are irrelevant as to whether
Plaintiffs motion for reconsideration had merit and
whether Plaintiff should be sanctioned. Plaintiffs citation
to the doctrine of in pari delicto, which is the federal
court's term for unclean hands, is similarly without
p. 42 (A4), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

merit. (Peregrine Funding, Inc. v. Sheppard Mullin
Richter & Hampton LLP (2005) 133 Cal. App. 4th 658,
677 (noting that "unclean hands [is] (generally referred
to in federal decisions as the in pari delicto doctrine).")
Unclean hands is an affirmative, equitable defense to an
action and Plaintiff provides no authority that conduct
outside the instant litigation has any relevance to the
imposition of sanctions here. Finally. Plaintiff invites
the court to sua sponte reconsider the demurrer ruling.
The court finds no good cause to do so.
The court finds that Plaintiffs counsel has violated
CCP § 128.7(b)(2) in proceeding with a motion for
reconsideration which had no basis in the law at the time
it was filed. Defendants claim to have incurred 41.7
hours "researching the law. communicating with Mr.
Thomas to urge him to drop this motion. and writing the
motion" at a rate of $500.00 per hour. (Gibson Decl. ¶
31.) Defendants seek an additional five hours to prepare
a reply. three hours to attend the hearing. and three
hours to prepare a notice of ruling and proposed order.
as well as a $60.00 filing fee. (ld. ¶ 32.) Thus,
Defendants seek attorneys' fees for 52.7 hours of
attorney time.
While Defendants request sanctions in the
amount of $26,410.00 for attorneys' fees and costs, the
amount is decreased slightly. It strikes the court that
three hours to prepare a notice of ruling and three hours
to attend a hearing (especially when Courtcall is readily
available) is not reasonable. The court therefore reduces
the amount by six hours to 46.7 hours x $500) which is
$23,350.00. Pursuant to CCP §128.7, Jeffrey Thomas is
ordered to pay sanctions in the amount of $23,500 to
defendants Norman Solomon’s and/or his attorney of
record.
Defendant is ordered to give notice.
p. 43 (A4), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

DATED: November 30, 2017
SAMANTHA P. JESSNER
Hon. Samantha P. Jessner Los Angeles Superior Court

p. 44 (A4), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

#A5

Appendix A5 – Minute Order Sustaining Demurrer
SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS
ANGELES
DATE: 04/07/17
HON. TERESA SANCHEZ-GORDON
P. BARRERAS, C/A
S. SMYTHE, DEPUTY CLERK
9:00 a.m.
BC546574
TRUE HARMONY, INC. et al. v.
ROSARIO PERRY et al.
Plaintiff counsel: Jeffrey G. Thomas
Defendant counsel: L/O of Rosario Perry by Steven Coard,
Hugh John Gibson
The demurrers of defendants 1130 Hope Street Investment
Associates, LLC, Hope Park Lofts 2001-20910056, and
Norman Solomon, to the second amended complaint, joined
by defendants Rosario Perry, and Rosario Perry, A
Professional Law Corporation (to the Norman demurrer), and
BIMHF, LLC (to all demurrers), are called for hearing.
The court renders her tentative, the matters are argued, and the
court rules as follows:
A demurrer .for sufficiency tests whether the complaint states
a cause of action. [Hahn v. Mirda (2007) 147 Cal.App.4th 740,
747]. When considering demurrers, courts read the allegations
liberally and in context. [Taylor v. City of Los Angeles Dept.
of Water and Power (2006) 144 Cal. App. 4th 1216, 1228].
p. 45 (A5), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

In a demurrer proceeding, the defects must be apparent on the
face of the pleading· or via proper judicial notice.
[Donabedian v. Mercury Ins. Co. (2004) 116 Cal. App. 4th
968, 994]. "A demurrer tests the pleadings alone and not the
evidence or other extrinsic matters. Therefore, it lies only
where the defects appear on the face of the pleading or are
judicially noticed." SKF Farms v. Superior Court (1984) 153
Cal. App. 3d 902, 905]. "The only issue involved in a
demurrer hearing is whether the complaint, as it stands,
unconnected with extraneous matters, states a cause of action."
[Hahn, supra, Cal. App. 4th at A general demurrer lies where
the facts alleged in the complaint or matters judicially noticed
show that is seeking relief from the same defendant on the
same cause of action as in a prior action, or is asserting an
decided against plaintiff in the prior action. [Boeken v. Philip
Morris USA, Inc. (2010) 48 Cal.4th 788, 792].
Here, defendants argue that each and every cause of action in
plaintiff's second-amended complaint is barred by res judicata
and collateral estoppel by court proceedings in BC244718,
BC385560, BC385560, and the Court of Appeal decision in
BC466413. Defendants have provided the judgments as
judicially noticeable exhibits.
"As generally understood, the doctrine of res judicata gives
certain conclusive effect to a former 'judgment in subsequent
litigation involving the same controversy. The doctrine has a
double aspect. In its primary aspect, commonly known as
claim preclusion, it operates as a bar to the maintenance
of a second suit between the same parties on the same cause of
action. In its secondary aspect, commonly known as collateral
estoppel, the prior judgment ... operates in a second suit ...
based on a different cause of action ... as an estoppel or
conclusive adjudication as to such issues in the second action
as were actually litigated and determined in the first action.

p. 46 (A5), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

"The prerequisite elements for applying the doctrine to either
an entire cause of action or one or more issues are the same:
(1) A claim or issue raised in the present action is identical to
a claim or "issue litigated in a prior proceeding; (2) the prior
proceeding resulted in a final judgment on the merits; and the
party against whom the doctrine is being asserted was a party
or in privity with a party to the prior proceeding." Id. at 797.
To determine whether two proceedings involve identical
causes of action for purposes of claim preclusion, California
courts have "consistently applied the 'primary rights' theory."
[Slater v. Blackwood (1975) 15 Cal.3d 791, 795]. For
purposes of applying the doctrine of res judicata, the phrase
"cause of action" has a more precise meaning: The cause of
action is the right to obtain redress for a harm suffered,
regardless of the specific remedy sought or the legal theory
(common law or statutory) advanced. [Bay Cities Paving
Grading, Inc. v. Lawyers' Mutual Ins. Co. (1993) 5 Cal. 4th
854, 860].
Under the primary rights theory, the determinative factor is the
harm suffered. When two actions involving the same parties
seek compensation for the same harm, they generally involve
the same primary right. [Agarwal v. Johnson (1979) 25 Cal.3d
932, 954]. A party cannot by negligence or design withhold
issues and litigate them in consecutive actions. Hence, a prior
judgment is res judicata on matters that' "were raised or could
have been raised, on matters litigated or litigable." [Warga v.
Cooper (1996) Cal.App.4th 371, 378].
Issue preclusion" generally occurs where "an issue that was
previously litigated and determined is raised in a subsequent
action between the same parties on a different claim. This
effect is commonly called "collateral estoppel. (7 Witkin,
Cal.. Proe. 342 (2008)). "

p. 47 (A5), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

A different action between the same parties on a different
cause of action is not precluded by a former judgment. But
the first judgment “operates an estoppel or conclusive
adjudication as to such issues in the second action as were
actually, litigated and determined in the first action.”
[Todhunter v. Smith (1934) 219 C. 690, 695].
This distinct aspect of the doctrine of res judicata was
formerly called "estoppel by judgment." The first Restatement
of Judgments used the term “collateral estoppel," 'and this
term is now in common use. The Second Restatement refers to
collateral estoppel as "issue preclusion. (7 Witkin, Cal. Proc. §
413 "(2008)).
This court finds that the causes of action in this complaint,
aside from the equitable relief from judgment" cause of action,
is barred by the doctrine of res judicata. In BC244718, the
Honorable Kenneth Freeman ordered plaintiff, pursuant to the
terms of the second-amended judgment and Court of Appeal
decision dated March 21, 2007, and previous settlement, to
execute and deliver a deed to defendant Perry. On November
5, 2008, the court ordered and required the court clerk to
execute the quitclaims deeds to defendants (they were
plaintiffs in the BC244718 action).
In BC385560, in a judgment confirming the arbitration award,
the Honorable John A. Kronstadt determined that these
defendants were the "sole owner of the Property" in question.
Judge Kronstadt also determined that the defendants' entities
were not cancelled and remained a valid and existing LLC
entity.
The judgment also stated that "True Harmony has not had any
interest in the Property that could be transferred or
encumbered since October 9, 2003, the date of its settlement
agreement with Hope Park. The judgment also stated that
agents of plaintiff True Harmony had purported to cancel
p. 48 (A5), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

defendant's LLC without any authorization and plaintiff also
filed a false "Statement of Information" listing certain
people as members of defendant's entities.
The court, in issuing its judgment, "enjoined and restrained"
True Harmony from transferring or encumbering title to the
property, clouding title to the property, attempting to affect
defendant entities' validity and interfering with their
existence. Further, the court decreased True Harmony's share
by the amount of $50,979.44, representing attorneys' fees and
costs incurred by Defendants as of 2009. Additionally, the
judgment required that the property be listed for sale for $2
million.
Causes of action two through eight in the second-amended
complaint are barred by res judicata. The claims were
specifically litigated between these parties or should have
been brought in the previous actions as part of the action based
on the "primary right" doctrine. Plaintiff attempts to skirt the
bar to finality of judgments by adding novel causes of action
and alleging "these causes of action were not litigated."
Defendants' demurer is sustained without leave to amend for
these causes of action.
The first cause of action seeks equitable relief from previous
judgments and orders based on allegations of fraud. A
judgment obtained under circumstances of extrinsic fraud or
mistake that prevent a fair adversary hearing where the
aggrieved party does not have a reasonable opportunity to
litigate his or her claim or defense is not entitled to the usual
conclusive effect. [Caldwell v. Taylor (1933) 218 Cal. 471, 23
P~2d 758]. The essential characteristic of extrinsic fraud is
that it has the effect of preventing a fair adversary hearing, the
aggrieved party being deliberately kept in ignorance of the
action or proceeding, or in some other way fraudulently
prevented from presenting that party's claim or defense. Id. at
476; United States v. Throckmorton (1878) 98 U.S. 61.
p. 49 (A5), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Nevertheless, if the aggrieved party had a reasonable
opportunity to appear and litigate that party's claim or defense,
fraud occurring in the course of the proceeding is not a ground
for equitable relief. The underlying theory is that these matters
will ordinarily be exposed' during the trial by diligence of the
party and his or her counsel, and that the occasional
unfortunate results of undiscovered perjury or other intrinsic
fraud must be endured in the interest of stability of final
judgments. Pico v. Cohn (1891) 91 C. 129, 1341; 8 Witkin,
Cal. Proc. § 241 (2008). When a party is represented by
counsel, absent concealment, any fraud will usually be
intrinsic. [In re Marriage of Stevenot (1984) 154 C.A.3d
1051, 1070].
Plaintiff's seeks equitable relief from void judgments and
orders in the previous action. However, plaintiff does not
allege that defendants committed any fraud preventing a
reasonable opportunity to litigate. Plaintiff was represented
by counsel and had every opportunity to litigate the issues.
Based on the court judgments, the issues were specifically
litigated and considered by the courts. There was no extrinsic
fraud, and the myriad judgments conclusively demonstrate
that the courts considered the allegations in plaintiff's
operative complaint. Thus, the allegations in the complaint
are nothing more than another attempt to relitigate matters
resolved in previous judgments.

Defendants· demurrer to the first cause of action is sustained,
without leave to amend. The demurring parties are to prepare,
serve and submit a judgment/dismissal.
Note that counsel for defendants Solomon, Hope Park
Lofts 2001-02910056 LLC, and 1130 Hope Street Investment

p. 50 (A5), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Associates, LLC, already has done so, and the proposed
judgment dismissing this action as to his clients is submitted
to the court for consideration.
Counsel for the moving defendants to give notice.
LATER: A Judgment Dismissing Complaint of True Harmony
as to defendants Norman Solomon, 1130 Hope Street
Investment Associates, LLC, and Hope Street Lofts
2001-12910056, with prejudice, is signed, filed and
entered this date.
The motion of defendant Hope Park Lofts 200102910056
for a protective order, and the case management conference,
are advanced from 5-3-17 and 5-17-17, respectively, to this
date and taken off-calendar.

p. 51 (A5), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

#A6

Appendix A6 - Second Amended Complaint
[Pages 1 through 6]
JEFFREY G. THOMAS CA SBN 83076
201 WILSHIRE BLVD. Second Floor
SANTA MONICA, CALIFORNIA
90401
TELEPHONE: 310-650-8326
FACSIMILE: 310-388-1555
ATTORNEY AT LAW FOR PLAINTIFF TRUE
HARMONY

IN THE SUPERIOR COURT OF CALIFORNIA
UNLIMITED JURISDICTION
FOR THE COUNTY OF LOS ANGELES, CENTRAL
DISTRICT – MOSK COURTHOUSE
TRUE HARMONY, a California nonprofit
public benefit corporation (and public
charity registered under Internal Revenue
Code §501(c)(3)),
Plaintiff,
v.
ROSARIO PERRY, an individual, LAW
OFFICES OF ROSARIO PERRY, a

p. 52 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

professional corporation, NORMAN
SOLOMON, an individual, and
HOPE PARK LOFTS 2001-02910056, LLC
a California limited liability company, 1130
SOUTH HOPE STREET INVESTMENT
ASSOCIATES LLC, a former California
limited liability company with articles of
organization cancelled in 2008, c/k/a 1130
Hope Street Investment Associates LLC,
BIMHF, LLC, a California limited liability
company, SHAWN MANSHOORY, an
individual, and ALL PERSONS
UNKNOWN, CLAIMING ANY LEGAL OR
EQUITABLE RIGHT, TITLE, ESTATE,
LIEN, OR INTEREST IN THE PROPERTY
DESCRIBED HEREIN ADVERSE TO
PLAINTIFF’S TITLE, OR ANY CLOUD
UPON PLAINTIFF’S TITLE THERETO,
and DOES 4 to 10, individuals and/or
entities,
Defendants.

p. 53 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Case No.: BC546574
VERIFIED SECOND AMENDED COMPLAINT FOR
MONEY DAMAGES, RESTITUTION AND
INJUNCTION:
(1) INDEPENDENT EQUITABLE ACTION TO SET
ASIDE VOID ORDERS AND JUDGMENT(S) OF THIS
COURT; (2) EQUITABLE RELIEF TO ENFORCE THE
QUIET TITLE STATUTE; (3) EQUITABLE RELIEF
AND DAMAGES FOR VIOLATIONS OF CHARITABLE
TRUST AND CORPORATION LAWS, (4)
RESTITUTION AND INJUNCTION AGAINST UNFAIR,
FRAUDULENT AND UNLAWFUL PRACTICES; (5)
EQUITABLE RELIEF AND MONEY DAMAGES FOR
TRANSACTION VOIDABLE UNDER CIVIL CODE
§3439.01 ET SEQ.; (6) DAMAGES FOR RETALIATION
AGAINST THE TERMINATION OF A CHARITABLE
FUND-RAISING CONTRACT IN VIOLATION OF
PUBLIC POLICY, and (7) MONEY DAMAGES FOR
CONVERSION OF PERSONAL PROPERTY.
DEMAND FOR JURY TRIAL
_______________________________________

I.
PARTIES AND STANDING
1.

Plaintiff TRUE HARMONY is a nonprofit public

benefit corporation organized under the laws of the state
of California. Its principal office and place of business
are in Los Angeles County. It is a public charity
registered by the Internal Revenue Service under Section
501(c)(3) of the Internal Revenue Code (“IRC”).
p. 54 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

2.

Plaintiff was formerly known as Turner’s

Technical Institute, Inc. also a California nonprofit
public benefit corporation and registered public charity
under §501(c)(3) of the I.R.C.
3.

Under the Uniform Act for the Supervision of

Trustees and Fundraisers for Charitable Purposes Act
(“Uniform Act”), Government Code §§12580 – 12599.8,
the Attorney General of the state (“Attorney General”)
must approve transfers or dispositions of substantial
property of a nonprofit public benefit corporation.
Government Code §§12580 – 12599.8; see also
Corporations Code §5913. These laws authorize Plaintiff
to bring this action to enforce the laws where the
Attorney General has declined to intervene as a party, as
here.
4.

Defendant ROSARIO PERRY (“PERRY”) is an

individual residing in Los Angeles County. He is a
member of the State Bar of California licensed to practice
law herein, and maintains an office in the city of Santa
Monica.
5.

Defendant LAW OFFICES OF ROSARIO PERRY

(“LORP”) is a professional corporation owned by
p. 55 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

PERRY. LORP is substituted herein as a named
defendant for Doe No. 1 in the Complaint.
6.

Defendant HOPE PARK LOFTS 2001-02910056,

LLC represents in pleadings in actions in the courts that
it is a limited liability company organized under the laws
of California, and that it is the continuation of Hope Park
Lofts LLC. However, the articles of Hope Park Lofts,
LLC were cancelled by the Secretary of State in 2008,
and it dissolved. Hope Park Lofts LLC also failed to pay
its taxes to the Franchise Tax Board for several years
continuing. This court entered an order on August 28,
2013 of reinstatement of Hope Parks Lofts LLC to active
status, more than four years after the Secretary of State
cancelled its articles.
7.

1130 Hope Street Investment Associates LLC

(“Hope Street Investment Associates LLC”) was
organized under this name by the filing of the articles of
organization in 2003 in the office of the Secretary of
State, and it filed a change of name to Defendant 1130
SOUTH HOPE STREET INVESTMENT ASSOCIATES
LLC in the office of Secretary of State in 2005.
Defendant 1130 SOUTH HOPE STREET INVESTMENT
p. 56 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

ASSOCIATES LLC is a California limited liability
company which had an administrative name change in
2013, and is no longer referred to as 1130 SOUTH HOPE
STREET INVESTMENT ASSOCIATES LLC by the
California Secretary of State. But it will be referred to by
this name in this Second Amended Complaint. It is
hereby substituted into the Complaint as Doe no. two.
8.

Defendant PERRY described the purpose of Hope

Street Investment Associates LLC in its articles of
organization in 2003 as a “lawsuit settlement vehicle.”
Thereafter it ceased to exist, and as explained further
hereinbelow, although there is today existing in the
records of the Secretary of State of the state of California
a limited liability company by the name of 1130 Hope
Street Investment Associates LLC, the name was
attached to a limited liability company by the office of
the Secretary of State of California. Thus Hope Street
Investment Associates LLC ceased to exist as a limited
liability company independently organized and existing
under that name in 2005.
9.

Hope Street Investment Associates LLC implies in

pleadings and documents filed herein and in other civil
p. 57 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

actions that it is the continuing or successor entity of the
Defendant 1130 SOUTH HOPE STREET INVESTMENT
ASSOCIATES LLC (“SOUTH HOPE INVESTMENT
ASSOCIATES LLC”), which is false. Defendant SOUTH
HOPE STREET INVESTMENT ASSOCIATES LLC is a
limited liability company formerly organized under the
laws of the state of California and dissolved in 2008,
which was the successor in interest to SOUTH HOPE
STREET INVESTMENT ASSOCIATES LLC after the
name change. The Secretary of State cancelled its
articles of organization in 2008.
10.

Defendants obtained an order of reinstatement of

this court for SOUTH HOPE STREET INVESTMENT
ASSOCIATES LLC the California limited liability
company on August 28, in 2013 in action no. BS140530,
more than four years after the articles cancelled in 2008.
The office of Secretary of State could not reinstate
SOUTH HOPE STREET INVESTMENT ASSOCIATES
LLC with the name 1130 SOUTH HOPE STREET
INVESTMENT ASSOCIATES LLC because a Delaware
limited liability company by that name had registered to
do business in the state in 2008. As an administrative
p. 58 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

act and not as a judicial act, the Secretary of State
reinstated SOUTH HOPE STREET INVESTMENT
ASSOCIATES LLC under its former name of 1130 Hope
Street Investment Associates LLC, as an administrative
name change.
11.

Defendant NORMAN SOLOMON (“SOLOMON”)

is an individual residing in Los Angeles County.
12.

Defendant BIMHF, LLC (“BIMHF”) seems to be a

limited liability company organized under the laws of the
state of California, according to public records. Plaintiff
substitutes BIMHF LLC herein as a named defendant for
Doe No. 3 in the Complaint.
13.

Defendant SHAWN MANSHOORY

(“MANSHOORY”) is an individual residing in Los
Angeles County. Plaintiff’s officers and members have
not personally met with MANSHOORY or been informed
of MANSHOORY’s occupation, company affiliation,
address, age, or other characteristics. Plaintiff
substitutes MANSHOORY as a named party defendant
for Doe No. 4 in the Complaint.
14.

Defendants DOES 4 to 10 are individuals or

entities whose true names and identities are unknown to
p. 59 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Plaintiff. Plaintiff prays for leave of the court to amend
this Complaint to substitute the true names of DOES 4 to
10 hereto, when Plaintiff discovers them.
15.

The true names and capacities, whether

individual, corporate, associate or otherwise, of
Defendants named herein as ALL PERSONS
UNKNOWN, CLAIMING ANY LEGAL OR EQUITABLE
RIGHT, TITLE, ESTATE, LIEN, OR INTEREST IN THE
PROPERTY DESCRIBED HEREIN ADVERSE TO
PLAINTIFF’S TITLE, OR ANY CLOUD UPON
PLAINTIFF’S TITLE THERETO (hereinafter "Unknown
Parties"), who therefore sue said Defendants by such
fictitious names. Plaintiff will seek leave of this Court to
amend this First Amended Complaint to show such true
names and capacities when such names have been
ascertained.
16.

Defendants established and maintained SOUTH

HOPE STREET INVESTMENT ASSOCIATES LLC, 1130
Hope Street Investment Associates LLC, and Hope Park
Lofts, LLC as mere artifices, devices, ectoplasms,
corporate shells, or passthrough or conduit entities
having no assets, employees, officers, contracts,
p. 60 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

accounts, offices, addresses, and regular places of
business, lacking legal privileges or rights, legal status or
capacity, and at all times relevant herein, misrepresented
the assets, control, corporeality, and lack of individuality
and independence of these entities. The defendants had
no independent substance, assets, control, or
personality, and did no business separately or
independently.
II.
VICARIOUS LIABILITY AND TIMING
17.

Defendants, at all times that the events described

herein occurred, were agents, servants, employees,
employers, masters, principals, contractors, partners,
partners-in-fact, attorneys-in-fact, shareholders,
directors, members, managers, officers, joint venturers,
joint enterprisers or in some other capacity vicariously
responsible for damages caused by the other defendants
herein, as its successor in interest to the Property.
18.

Defendants, and each of them, had knowledge of

the wrongful acts done by the other Defendants as
alleged herein, and participated in and substantially
assisted the wrongful acts of all defendants.
p. 61 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

19.

Defendants each had a duty of due care and a

duty to act in accordance with law to avoid acts doing
causing injury to Plaintiff, and conspired to cause
injuries to Plaintiff nevertheless.
20.

Defendants had at all times unity of interest and

ownership and/or control, commingled their assets and
business affairs and failed to create and maintain
separate records, finances, and books of accounts, and
agents, employees, servants, managers, places of
business, records of ownership, partners, members or
shareholders.
Defendants must be in equity and law regarded as one
and the same person, or alter egos of one another.
21.

Throughout the events recounted herein,

Defendants PERRY and SOLOMON have dominated the
affairs of the conduit or shell entities of Defendant
SOUTH HOPE STREET INVESTMENT ASSOCIATES
LLC, Hope Park Lofts LLC and Defendant HOPE PARK
LOFTS 2001-02910056 LLC. Defendants PERRY and
SOLOMON have intentionally and fraudulently excluded
TRUE HARMONY from any and all information
concerning possible activities in the conduit entities
p. 62 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

including government and elections, sale of the
Property, communications concerning the sale of the
Property, and from plans or activities to sell the
Property.
22. Throughout the relevant time period, Defendants
conspired to fraudulently conceal and to cover up their
unlawful acts and damages. Plaintiff used reasonable
....
[Pages 15 through 18]
55.

Plaintiff did not execute the deeds required by the

judgment entered on July 9, 2008. Defendant SOUTH
HOPE STREET INVESTMENT ASSOCIATES LLC,
directed by Defendant PERRY and represented by Jeff
Berke, attorney at law, moved the court to order clerk’s
deeds to the Property to be executed for Defendant. The
motion argued that the judgment entered on July 9,
2008 required Plaintiff to execute the clerk’s deeds, and
that the Settlement Agreement, the Second Amended
Judgment dated August 17, 2005 and the court of
appeals’ opinion required clerk’s deeds to be executed for

p. 63 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

SOUTH HOPE STREET INVESTMENT ASSOCIATES
LLC as grantee.
56.

The court entertained live arguments on

Defendants’ motion in the court on November 5, 2008.
On December 15, 2008, the court entered an order
requiring the clerk to execute the deed(s).
57.

The clerk of the court executed a deed from

Plaintiff TRUE HARMONY to Defendant SOUTH HOPE
STREET INVESTMENT ASSOCIATES LLC the
California limited liability company on or about
February 18, 2009. The execution of the clerk’s deed
exerted economic duress and coercion on Plaintiff TRUE
HARMONY because it clouded title and made it
impossible for Plaintiff TRUE HARMONY to borrow
money against the security of the Property to pay for
attorneys’ fees in its ongoing legal dispute with
Defendants. TRUE HARMONY did not have the money
to pay these fees.
58.

Simultaneously with the Defendant’s frauds on

the court in action no. BC244718 focused on obtaining
orders for clerk’s deeds to transfer title to the Defendant
SOUTH HOPE INVESTMENT ASSOCIATES LLC the
p. 64 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

California limited liability company, the Defendants
brought an action entitled 1130 SOUTH HOPE STREET
INVESTMENT ASSOCIATES LLC v. TRUE HARMONY
on or about February 10, 2008, in action no. BC385560.
This action petitioned the court to compel arbitration on
a cause of action for cancellation of specified
instruments, ie. the quitclaim deed that Plaintiff TRUE
HARMONY executed to transfer title to the Property to
Delaware limited liability company 1130 SOUTH HOPE
STREET INVESTMENT ASSOCIATES LLC as grantee,
deeds of trust recorded on the Property by the Delaware
limited liability company, and other instruments.
59.

The version of the settlement agreement that the

Defendants attached to their motion in the post-trial
decision hearings, in no. BC244718 in 2004, contains a
strike-through of the typewritten word “binding”
preceding the typewritten word “arbitration” with a pen,
and the struck-through revision is initialed by Rick
Edwards and Defendant PERRY. Exhibit 1. There was
no agreement between Plaintiff and Defendants to
submit any issue arising under the so-called settlement
agreement to binding arbitration, including the issue of
p. 65 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

attorneys’ fees. Yet Ret. Judge Schoettler never ruled on
the arbitrability of the so-called Settlement Agreement
(conspiracy plot).
60.

In arbitration hearings Ret. Judge Schoettler

assumed that Plaintiff TRUE HARMONY would be the
controlling member with fifty-one percent (51%) equity
and voting power in SOUTH HOPE STREET
INVESTMENT ASSOCIATES LLC, but Defendant
SOLOMON and his attorney at law Rick Edwards
insisted that the so-called settlement agreement required
an even split of voting power and equity, and they
submitted the pre-typewritten award to Ret. Judge
Schoettler with the equal split of voting power and equity
and Ret. Judge Schoettler accepted and signed the draft
award without objection.
61.

Defendant SOUTH HOPE STREET

INVESTMENT ASSOCIATES LLC the California limited
liability company attached to the petition to compel
arbitration in action no. BC385560 an entirely different
version of the so-called settlement agreement, which did
not include a crossed-out word “binding” before
arbitration. And the petition for arbitration was based
p. 66 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

on the false premise that SOUTH HOPE STREET
INVESTMENT ASSOCIATES LLC could enforce the
“agreement to arbitrate” (itself a falsehood) as a third
party beneficiary of the agreement. The court heard
arguments on the petition in case no. BC385560 on
September 11, 2008 and ordered the parties to arbitrate
the dispute concerning cancellation of instruments,
which the court would not have ordered if it had known
of the Defendants’ misrepresentation in their pleadings
that the settlement agreement required binding
arbitration.
62.

The arbitration hearing on January 27, 2009 was

a default for Plaintiff. Defendants provided one week’s
notice of the hearing to Plaintiff TRUE HARMONY and
its attorney at law Vadim Frisch objected that it violated
due process of the laws because Plaintiff needed more
time to prepare for the hearing. In the Partial and Final
award dated February 23, 2009, Ret. Judge Schoettler
awarded Hope Park Lofts LLC money damages
approximately equal to Four Hundred Thousand Dollars
($400,000) against Plaintiff, and incorporating a lump
sum of approximately Three Hundred and Forty-five
p. 67 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Thousand Dollars ($345,000) in prior awards by the
same arbitrator. The award failed to individually
identify the incorporated prior awards by date, amount
and type of damages and/or claims decided in the prior
awards, or to account for the summation of the prior
awards to calculate the total final award, and therefore
exceeded the arbitrator’s powers and violated Plaintiff’s
rights to due process of the laws.
63.

Ret. Judge Schoettler failed to acknowledge that

Plaintiff’s public rights were at stake in his Partial and
Final Award dated February 23, 2009, which purported
to be a binding arbitration award despite the contrary
language in Exhibit 1. The Partial and Final arbitration
award violated Plaintiff’s public rights, and is
unconscionable. It was void because the real party in
interest, SOUTH HOPE STREET INVESTMENT
ASSOCIATES LLC, was dissolved. The arbitrator’s
award included an order that TRUE HARMONY must do
nothing to affect title to the Property, which infringed
upon Plaintiff’s constitutional right of free speech and
exceeded the arbitrator’s powers.

p. 68 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

64.

Defendants PERRY and LORP violated RPC 3-

300 because the Settlement Agreement involved him in a
business transaction with Plaintiff failing to obtain
Plaintiff’s written consent thereto, and failing to advise
Plaintiff of its right to consult an independent legal
counselor as to PERRY’s and LORP’s conflicts of
interest. Defendants violated RPC 3-310 because they
failed to inform TRUE HARMONY that PERRY would
use his position as manager of the not yet formed
SOUTH HOPE STREET INVESTMENT ASSOCIATES
LLC to obtain payment for his legal fees under the
engagement agreement with Plaintiff TRUE HARMONY.
If Defendants PERRY and LORP earned any contingent
fee under his agreement in the trial, their conflicts of
interest caused them to forfeit their fee.
65.

Defendant PERRY and LORP violated RPC 4-

400 as they expressly or impliedly represented to
Plaintiff that their ties and connections with SOLOMON
and Edwards assured Plaintiff TRUE HARMONY that
Defendants would perform their obligations under any
Settlement Agreement.

p. 69 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

66.

In May of 2009, Plaintiff TRUE HARMONY

arranged for the Delaware limited liability company
SOUTH HOPE STREET INVESTMENT ASSOCIATES
LLC to file for bankruptcy under Chapter 11 of the
bankruptcy laws in the U. S. Bankruptcy Court for the
Central District of California. As this court
acknowledged, in case no. BC385560 it stayed the action
and the entry of the judgment dated June 3, 2009
because of the bankruptcy.
67.

Subsequently Defendants led by Defendant

PERRY obtained an order of the bankruptcy court lifting
the automatic stay (but not annulling the stay), and they
returned to the superior court in action no. BC385560 to
cause the court to enter a final judgment confirming the
default arbitration award on or about April 22, 2010.
68.

Throughout the events recounted herein, PERRY

and SOLOMON have dominated the affairs of the
conduit or shell entities of Defendant SOUTH HOPE
STREET INVESTMENT ASSOCIATES LLC, Hope Street
Investment Associates LLC and/or Hope Park Lofts LLC
and Defendant HOPE PARK LOFTS 2001-02910056
LLC. Defendants PERRY and SOLOMON have
p. 70 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

intentionally and fraudulently excluded TRUE
HARMONY from any and all participation in the conduit
entities including government and elections, sale of the
Property, communications concerning the sale of the
Property, and from plans or activities to prepare the
Property for sale or its sale.
69.

Defendants SOLOMON and PERRY caused

SOUTH HOPE STREET INVESTMENT ASSOCIATES
LLC to contract to sell the Property with two purchasers,
a
....
[Pages 23 through 27]
86.

The opinion of the court of appeals in appeal no.

B183928 affirmed the Second Amended Judgment in
action no. BC244718. Thus after the court of appeals
ruled in no. B183928 on or about March 21, 2007,
Plaintiff was holder of quiet title.
87.

This court entered a judgment on July 9, 2008,

without the parties appearing in the court on the record
for the purpose of entering the and without Defendants
filing a motion or an ex parte application for the
judgment.
p. 71 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

88.

The judgment entered on July 9, 2008 cites the

opinion of the court of appeals, the so-called settlement
agreement, and the original judgment, first amended
judgment and second amended judgment as requiring
Plaintiff to transfer title to the Property to 1130 SOUTH
HOPE INVESTMENT ASSOCIATES LLC. As previously
explained these statements are false. The judgment also
purports to confirm an arbitration award as a judgment
requiring Plaintiff to transfer title to 1130 SOUTH HOPE
INVESTMENT ASSOCIATES LLC, but the judgment
neither incorporates this arbitration award by reference
nor recites the language of the award that requires
Plaintiff to transfer the title to 1130 SOUTH HOPE
INVESTMENT ASSOCIATES LLC.
89.

The judgment of this court entered on July 9,

2008 is therefore void on its face; and it is also void
because Defendants failed to move the court or to apply
to the court to enter the judgment.
90.

Defendants moved the court to order the clerk to

execute deeds transferring title to the Property to 1130
SOUTH HOPE INVESTMENT ASSOCIATES LLC on
November 5, 2008, on the grounds that Plaintiff failed to
p. 72 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

comply with the judgment entered on July 9, 2008 to
execute deeds transferring title to the Property to 1130
SOUTH HOPE INVESTMENT ASSOCIATES LLC. This
court granted the motion and entered an order on
December 15, 2008 directing the clerk to execute
quitclaim deeds to the Property transferring title to 1130
SOUTH HOPE INVESTMENT ASSOCIATES LLC.
91.

This order of the court entered on December 15,

2008 requiring the clerk to execute deeds transferring
title to the Property is void on its face, because it is
based on the judgment entered on July 9, 2008 in the
court’s records which is void on its face.
92.

Plaintiff TRUE HARMONY is entitled to the set

aside or nullification of the clerk’s deed transferring title
to the Property based on a void judgment.
93.

This court granted Defendants’ petition to compel

arbitration in action no. BC385560 on September 11,
2008. The petition to compel arbitration is the direct
result of Defendant’s fraudulent petition which falsely
claimed that 1130 SOUTH HOPE INVESTMENT
ASSOCIATES LLC was the intended third party
beneficiary of the s0-called settlement agreement, that
p. 73 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

1130 SOUTH HOPE INVESTMENT ASSOCIATES LLC
had not yet dissolved, and that the so-called settlement
agreement contained a clause for binding arbitration
94.

The arbitration clause in the so-called settlement

agreement did not require binding arbitration which
may be verified with reference to the language of Exhibit
1 attached hereto. Defendants defrauded the court by
attaching a copy of the so-called settlement agreement to
the petition to compel arbitration which was altered to
read as though it did require binding arbitration
95.

1130 SOUTH HOPE INVESTMENT ASSOCIATES

LLC was not the intended third party beneficiary of the
so-called settlement agreement because as previously
explained 1130 SOUTH HOPE INVESTMENT
ASSOCIATES LLC was not in existence at the time of the
so-called settlement agreement, it was not a “new llc,”
and it was not even a party to action no. BC244718 at the
time that it filed the petition to compel arbitration in the
court. 1130 SOUTH HOPE INVESTMENT ASSOCIATES
LLC, the California limited liability company, was
dissolved on February 5, 2008, and it bring the petition
to compel arbitration in the court
p. 74 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

96.

The Partial and Final Arbitration Award dated

February 23, 2009 is null and void, because the
Defendants caused fraud on the court in the petition to
compel arbitration as explained hereinabove.
97.

Plaintiff caused the title to the Property to be

transferred from Plaintiff TRUE HARMONY to 1130
SOUTH HOPE INVESTMENT ASSOCIATES LLC, the
Delaware limited liability company, before the clerk
executed the clerk’s deeds transferring title to the
Property to 1130 SOUTH HOPE INVESTMENT
ASSOCIATES LLC, the California limited liability
company. Subsequently, in case no. 09-bk-20914 filed
in the central district for California bankruptcy court,
1130 SOUTH HOPE INVESTMENT ASSOCIATES LLC
the Delaware limited liability company filed a petition
for bankruptcy in chapter 11. The filing of the petition in
bankruptcy created the automatic stay in bankruptcy as
of the filing of the petition in May of 2009.
98.

The entry of judgment as a confirmation of the

arbitration award on June 3, 2009 was voided by the
automatic stay. The entry of the summary judgment in
action no. BC385560 on the cause of action for
p. 75 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

cancellation of instruments in May of 2009 was voided
by the automatic stay.
99.

Defendants obtained an order lifting the stay in

bankruptcy in February of 2010 (however, the stay was
not annulled). The court held a trial on March 15, 2010
pursuant to the order lifting the stay. On March 15, 2010
Defendants requested the court to enter the summary
judgment, which was void because it was entered in
violation of the automatic stay, as a final judgment. The
judgment entered on April 22, 2010 was therefore void
because it incorporated a void summary judgment that
violated the automatic stay in bankruptcy in 2009.
100.

The judgment obtained by Defendant PERRY in

action no. BC404640 against Plaintiff for attorneys’ fees
is and was void, because the attorney-client agreement
between Defendants PERRY and LORP and Plaintiff
TRUE HARMONY is and was unconscionable, and
because Defendant PERRY’s violations of Rules of
Professional Conduct 3-300, 3-310, and 4-400 were,
and continue to be, substantial, continuing and
damaging to Plaintiff.

p. 76 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

101.

Neither 1130 SOUTH HOPE INVESTMENT

ASSOCIATES LLC nor MANSHOORY nor BIMHF, LLC
are bona fide or good faith purchasers for value of the
Property from Plaintiff TRUE HARMONY or as between
themselves.
102.

Plaintiff has no adequate remedy at law to vacate

or to set aside the void judgment entered on July 9, 2008
in action no. BC244718, or to vacate or set aside the void
order of the court in action no. BC244718 entered in this
court’s records on December 15, 2008, or to vacate or to
set aside the clerk’s deeds recorded in the official records
on February 18, 2009, or to vacate or set aside or to
nullify and to void the judgment entered on April 22,
2012 in action no. BC385560..
103.

Plaintiff was, and continues to be, irreparably

injured by the continued viability of these judgments,
orders and clerks’ deeds as recorded in the official
records of the county.
104.

Plaintiff is entitled to an injunction pendente lite

restraining Defendants from further transferring title to
the Property, including any transfer of title by
Defendants MANSHOORY and BIMHF, LLC who are
p. 77 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

not bona fide purchasers for value from Plaintiff TRUE
HARMONY or between themselves. Plaintiff is also
entitled to a permanent mandatory injunction requiring
the Defendants to transfer title to the Property to
Plaintiff.
105.

Plaintiff is entitled to a constructive trust on the

proceeds on the sale and resale of the Property by
Defendants.
106.

In addition to the injunctions prayed for herein,

Plaintiff is entitled to costs of suit.
107.

Plaintiff is entitled to public interest attorneys’

fees under Code Civ. Proc. §1021.5.
VI.
SECOND CAUSE OF ACTION
EQUITABLE RELIEF TO ENFORCE THE QUIET TITLE
STATUTE
(AGAINST ALL DEFENDANTS)
108.

Plaintiff realleges and incorporates by reference

the allegations made in paragraphs 1 through 83 herein.
109.

A true and correct copy of a current preliminary

title commitment for the Property which identifies
BIMHF, LLC as the current owner of record of legal title
is attached hereto as Exhibit 2.
110.

A true and correct copy of a document similar to

a preliminary title commitment for the Property called a
p. 78 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

“litigation title guarantee” prepared by the Chicago Title
Insurance Company in 2001 identifies some exception
items recorded against title to the Property when
Plaintiff was record owner of the legal title in January of
2001, attached hereto as Exhibit 3 (for the purpose of
comparison to Exhibit 2).
111.

Plaintiff is informed and believes that each of the

following named defendants claim the right to
ownership and possession of the Property adverse to
Plaintiff: SOLOMON, PERRY, HOPE PARK LOFTS
2001-02910056 LLC, SOUTH HOPE STREET
INVESTMENT ASSOCIATES, MANSHOORY, and
BIMHF, LLC. Each of the following unnamed
defendants also claim the right to ownership and
possession of the Property from whatever source or
origin: ALL PERSONS UNKNOWN, CLAIMING ANY
LEGAL OR EQUITABLE RIGHT, TITLE, ESTATE,
LIEN, OR INTEREST IN THE PROPERTY DESCRIBED
HEREIN ADVERSE TO PLAINTIFF’S TITLE, OR ANY
CLOUD UPON PLAINTIFF’S TITLE THERETO.
Plaintiff is entitled to a judgment of this court finding
that these named and unnamed Defendants have no
p. 79 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

rightful claim to ownership and/or possession, or right,
title and interest in the Property.
112.

Plaintiff was entitled to quiet title to the Property

under the judgment, first amended judgment and second
amended judgment in action no. BC244718, the opinion
of the court of appeals and the so-called settlement
agreement.
113.

Code Civ. Proc. §764.010, the quiet title statute,

guaranteed to Plaintiff an evidentiary hearing with
presentation of testimony by live witnesses in the entry
of judgment for quiet title on April 22, 2010, after
Plaintiff defaulted in its own defense at the trial for quiet
title on March 15, 2010.
114.

Plaintiff was, and continues to be, deprived of a

meaningful opportunity to assert its statutory rights to
the evidentiary hearing guaranteed by Code Civ. Proc.
§764.010.
115.

Defendants infringed upon and violated the

Plaintiff’s statutory rights to an evidentiary hearing
established under Code Civ. Proc. §764.010 because in
action no. BC385560, Defendants pleaded the cause of
action solely as a cause of action to cancel . . . .
p. 80 (A6), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

#A7

Appendix A7 - Email
Page 1 of 1
Edgeman, Elaine
From: Marianne Huettemeyer-Holm [MHuettemeyerHolm@sheppardmullin.com]
Sent: Tuesday, April 05, 2011 5:40 PM
To: Shebesta, William; Hallman, Donald; Abernathy, Doug;
Edgeman, Elaine
Cc: Pamela Westhoff
Subject: 1130 South Hope Street Update
Attachments: 403415258_1 1130 South Hope Street California Attorney General Letter dated April 1 2011.PDF
I just wanted to let you all know we are currently out of
contract on 1130 South Hope
Street. It is very possible that the deal may come to life again,
but unfortunately new
issues were disclosed to us (in addition to the right of first
refusal issue previously
discussed). For your records, I am attaching a copy of a letter
from the California
Attorney General which we received this afternoon. Seller
claims that this is an old
issue which has already been resolved, however we have not
researched the issues
discussed in the Attorney General Letter.
Thank you all for your assistance and work with this
transaction. We appreciate all your
hard work and efforts.
Please call me or Pam if you have any questions.
Marianne
Marianne Hueltemeyer-Holm
Real Estate Specialist
p. 81 (A7), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Sheppard Mullin Richter & Hampton LLP
333 South Hope Street. 48th Floor
Los Angeles, CA 90071-1448
MHuetlemeyer-Holm@sheppardmullin.com
Direct: 213.617.4229
Fax: 213.443.2859
Cell: 310.982.9869
SIIEPPARD MULLIN
333 South Hope Street
43rd Floor
Los Angeles, CA 90071-1422
213.620.1760 office
213.620.1398 fax
www.sheppardmullin.com
Marianne Huettemeyer-Holm
Real Estate Specialist
213.617.4229 direct
213.443.2859 fax
310.982.9869 cell
MHuettemeyer-Holm@sheppardmullin.com

p. 82 (A7), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

#A8

Appendix A8 - Cease and Desist Order
Kamala Harris
State of California
Attorney General
Department of Justice
____________________________________
300 S. Spring Street
Los Angeles, California
90013
Public: 213-897-2000
Telephone: 213-897-2179
Facsimile: 213-897-7605
Email: Sonja.berndt@doj.ca.gov
April 1, 2011
All Service to Addressees by Personal Delivery
True Harmony
1211 W. Bennett St.
Compton, CA 90220
Ray of Life Charitable Foundation
1675 Carla Ridge
Beverly Hills, California 90210
1130 South Hope Street Investment Associates LLC
A Purported California Limited Liability Company
c/o Rosario Perry, Manager
312 Pico Blvd.
Santa Monica, California 90405
Rosario Perry, Esq.
312 Pico Blvd.
Santa Monica, California 90405
Metro Resources, Inc.
c/o Norman Solomon, Esq.
p. 83 (A8), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Agent for Service of Process
929 E. Second Street, Suite 101
Los Angeles, CA 90012
Norman Solomon, Esq.
Metro Resources, Inc.
929 E. Second Street, Suite 101
Los Angeles, CA 90012
David J. Stahl
c/o Metro Resources, Inc.
929 E. Second Street, Suite 101
Los Angeles, CA 90012
Cordova Investment Partners LLC
c/o Norman Solomon, Esq.
Agent for Service of Process
929 E. Second Street, Suite 101
Los Angeles, CA 90012
Hope Park Lofts LLC, a Purported LLC
Carlton Slater,
Agent for Service of Process
1204 S. Whitemarsh Ave.
Compton, CA 90220
Hope Park Lofts LLC
Naz Rafalian
Agent for Service of Process
101 Greenfield
Los Angeles, CA 90024
Re: Sale/Transfer of Real Property Located at 1130 South Hope
Street, Los Angeles, California. 90015
Notice of Violation of Corporations Code Section 5913; Cease
and Desist
To All of the Persons to Whom This Notice is Addressed:
p. 84 (A8), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

The Attorney General’s office has received information that
there are ongoing efforts to sell or otherwise transfer or
encumber the real property located at, and commonly known
as, 1130 South Hope Street, Los Angeles, California, 90015
(“1130 South Hope Street”) and that the property may be in
escrow as of the date of this letter and may close shortly. The
legal description of this property is as follows: Lot 6 of Block 79
of Ord’s survey, in the City of Los Angeles, County of Los
Angeles, State of California, as per map recorded in book 31,
page(s) 90 of miscellaneous records, in the office of County
Recorder of said county.
This office has become aware that the California nonprofit
public benefit corporations True Harmony or Ray of Life
Charitable Foundation (“Ray of Life”), or both, have a
substantial financial interest in 1130 South Hope Street.
Further this office has learned that the charitable interest in
1130 South Hope Street would constitute all or substantially all
of the assets of True Harmony and Ray of Life.
Pursuant to Corporations Code Section 5913, the Attorney
General must receive written notice 20 days before a charitable
corporation “sells, leases, conveys, exchanges, transfers, or
otherwise disposes of all or substantially all assets . . . unless
the Attorney General has given a written waiver of this section
as to the proposed transaction.” The Attorney General has not
received any such notice and has given no waiver of notice and
intends to review this transaction.
Accordingly with respect to 1130 South Hope Street, you are
hereby notified to immediately cease all activity with regard to
the sale, lease, conveyance, exchange, transfer and any other
activity that would affect title to the Property until the
requirements of Corporations Code Section 5913 have been
met.

p. 85 (A8), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

If you have questions, you may contact Deputy Attorney
General Sonja K. Berndt at 213-897-2179.
Sincerely,
SONJA K. BERNDT,
Deputy Attorney General
For KAMALA HARRIS
Attorney General
SKB: meh

p. 86 (A8), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

#A9

Appendix A9 – Judgment dated April 22, 2010
Jeff Berke, Esq. SBN 101574
Christopher Polk, Esq. SBN 58035
Polk & Berke
11620 Wilshire Blvd.
Los Angeles, California 90025
Telephone: 310-235-2009
Facsimile: 310-235-2029
SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
1130 SOUTH HOPE STREET INVESTMENT
ASSOCIATES LLC, A CALIFORNIA LIMITED
LIABILITY COMPANY; AND ROSARIO PERRY,
PLAINTIFFS,
VS.
1130 SOUTH HOPE STREET INVESTMENT
ASSOCIATES LLC, A DELAWARE LIMITED LIABILITY
COMPANY, ET AL.,
DEFENDANTS.
NO. BC 385560
Assigned for all purposes to: John A. Kronstadt, Dept. 30
NOTICE OF ENTRY OF JUDGMENT
To all defendants herein either acting in pro per or through
their counsel of record:
p. 87 (A9), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

NOTICE IS hereby given that on April 22, 2010, the Court in
this matter entered judgment in favor of plaintiff 1130 South
Hope Street Investment Associates LLC, a California limited
liability company, and its manager Rosario Perry, and against
defendants 1130 South Hope Street Investment Associates
LLC, a Delaware limited liability company, La Vance Tarver,
Ray of Life Charitable Foundation, Farzad Nediathaiem aka
Farzad Haiem akaRay Haiem aka Farzad Nejat-haiem;
Jonathan Marzet; Samuel F. Benskin; and Priscilla Turner
(previously named as Doe 1).
A true and correct copy of the judgment is attached to this
Notice.
Dated: April 26, 2010

POLK & BERKE
__/s/ Jeff Berke_______
Jeff Berke, Esq. SBN
101574
ATTORNEYS FOR
1130 SOUTH HOPE
STREET NVESTMENT
ASSOCIATES LLC, a
California Limited
liability company; and
ROSARIO PERRY

p. 88 (A9), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Jeff Berke, Esq. SBN 101574
Christopher Polk, Esq. SBN 58035
Polk & Berke
11620 Wilshire Blvd.
Los Angeles, California 90025
Telephone: 310-235-2009
Facsimile: 310-235-2029
SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
1130 SOUTH HOPE STREET INVESTMENT
ASSOCIATES LLC, A CALIFORNIA LIMITED
LIABILITY COMPANY; AND ROSARIO PERRY,
PLAINTIFFS,
VS.
1130 SOUTH HOPE STREET INVESTMENT
ASSOCIATES LLC, A DELAWARE LIMITED LIABILITY
COMPANY, ET AL.,
DEFENDANTS.
NO. BC 385560
Assigned for all purposes to: John A. Kronstadt, Dept. 30
JUDGMENT IN FAVOR OF PLAINTIFFS AND AGAINST
DEFENDANTS 1130 SOUTH HOPE STREET
INVESTMENT ASSOCIATES LLC, A DELAWARE
LIMITED LIABILITY COMPANY; LA VANCE TARVER;
RAY OF LIFE CHARITABLE FOUNDATION; FARZAD
NEDIATHAIEM aka FARZAD HAIEM aka RAY HAIEM
aka FARZAD NEJAT-HAIEM; JONATHAN MARZET;
p. 89 (A9), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

SAMUEL F. BENSKIN; AND PRISCILLA TURNER,
previously named as Doe 1
Date: March 15, 2010
Time: 8:30 a.m.
Place: Dept. 30
Filed: February 14, 2008
Trial: March 15, 2010
The trial of this matter came on regularly for hearing on
March 15, 2010
Previously on December 24, 2009, the Court heard and
granted plaintiffs’ motion for summary adjudication against
defendants La Vance Tarver; Ray of Life Charitable
Foundation; a California non-profit public benefit corporation,
Farzad Nediathaiem aka Farzad Haiem aka Ray Haiem aka
Farzad Nejat-haiem; Jonathan Marzet; Samuel F. Benskin; and
Priscilla Turner (sued herein as Doe 1).
With regard to the above rulings and proceedings, and good
cause being shown therefor:
IT IS HEREBY ADJUDGED, DETERMINED AND
DECREED:
A.
As to Defendant 1130 South Hope Street
Investment Associates, LLC, a Delaware limited liability
company.
The Court hereby grants Plaintiffs’ Motion and will, upon
conclusion of the current trial proceedings, enter judgment for
summary adjudication on the fifth cause of action contained in
the First Amended Complaint herein in favor of plaintiff and
against defendants La Vance Tarver; Ray of Life Charitable
Foundation; a California non-profit public benefit corporation,
p. 90 (A9), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

Farzad Nediathaiem aka Farzad Haiem aka Ray Haiem aka
Farzad Nejat-haiem; Jonathan Marzet; Samuel F. Benskin; and
Priscilla Turner as follows:
1. A declaration and judicial determination is hereby made
that: (a) plaintiff 1130 South Hope Street Investment
Associates, LLC, a California limited liability company,
remains an existing California LLC; (b) any document
purporting to cancel the plaintiff LLC is deemed void; (c) the
plaintiff LLC is the sole legal and equitable owner of, and fee
title holder to, the property located at 1130 South Hope Street
Los Angeles, California (the “subject property”); (d) the
Quitclaim Deed signed by Samuel F. Benskin dated February
7, 2008 and recorded as Instrument No. 20080232175 on
February 7, 2008 is void and of no legal effect whatsoever; (e)
the Quitclaim Deed signed by Farzad Haiem and Jonathan
Marzet on December 10, 2009 and recorded as Instrument No.
20091950890 on December 22, 2009 is void and of no legal
effect whatsoever; and (f) the Delaware LLC has absolutely no
right, title, interest, estate or lien in or to the subject real
property, or any part thereof; and
2. The Delaware LLC, and its employees and representatives,
are enjoined and restrained, temporarily and permanently: (a)
from interfering with the formation, management, operation,
membership and/or existence of the California LLC, a
California limited liability company, (b) from representing or
communicating that either the defendant Delaware LLC or any
other party other than the California LLC is the owner of the
subject property or has any right, title, interest, estate or lien
therein; (c) from transferring, attempting to transfer or
purporting to transfer any right, title, interest, estate or lien in
or to the subject property or any part thereof; (d) from
foreclosing on or transferring the obligation secured by any
deeds of trust purportedly encumbering the subject property;
and (e) from transferring or assigning any interest in any deed
of trust purportedly encumbering the subject property.
p. 91 (A9), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

B.
As to Defendants La Vance Tarver; Ray of Life
Charitable Foundation; a California non-profit public benefit
corporation, Farzad Nediathaiem aka Farzad Haiem aka Ray
Haiem aka Farzad Nejat-haiem; Jonathan Marzet; Samuel F.
Benskin; and Priscilla Turner (sued herein as Doe 1).
3. A declaration and judicial determination is hereby made
that: (a) plaintiff 1130 South Hope Street Investment
Associates, LLC, a California limited liability company,
remains an existing California LLC; (b) any document
purporting to cancel the plaintiff LLC is deemed void; (c) the
California LLC is the sole legal and equitable owner of, and
fee title holder to, the property located at 1130 South Hope
Street Los Angeles, California; (d) the Grant Deed from True
Harmony, Inc. (formerly known as Turner’s Technical
Institute, Inc.) (e) the Deed of Trust dated August 27, 2007
(f) (g) (h) (i) the Quitclaim Deed signed by Farzad Haiem
and Jonathan Marzet and (j)
4. La Vance Tarver; Ray of Life Charitable Foundation; a
California non-profit public benefit corporation, Farzad
Nediathaiem aka Farzad Haiem aka Ray Haiem aka Farzad
Nejat-haiem; Jonathan Marzet; Samuel F. Benskin; and
Priscilla Turner (sued herein as Doe 1) and each of them, and
their agents, employees and representatives, are enjoined and
restrained, temporarily and permanently: (a) from interfering
with the formation, management, operation, membership
and/or existence of plaintiff 1130 South Hope Street
Investment Associates, LLC, a California limited liability
company, (b) from representing or communicating that either
the defendant Delaware LLC or any other defendant is the
owner of the property located at 1130 South Hope Street Los
Angeles, California, or has any right, title, interest, estate or
lien therein; (c) from transferring, attempting to transfer or
purporting to transfer any right, title, interest, estate or lien in
or to the subject property or any part thereof; (d) from
p. 92 (A9), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

foreclosing on or transferring the obligation secured by any
deeds of trust purportedly encumbering the subject property;
and (e) from transferring or assigning any interest in any deed
of trust purportedly encumbering the subject property.
5. Costs shall be awarded pursuant to a Memorandum of
Costs filed in accordance with the applicable provisions of the
Code of Civil Procedure and the Rules of Court.
Dated: April 22, 2010

/s/ John A. Kronstadt
Judge of the Superior
Court

<<Proof of Service>>

p. 93 (A9), Appendix – Petition for the Writ of Certiorari in Thomas
v. Solomon et al.

#A10

Appendix A10 – Transcript of “Trial”
-1SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
DEPARTMENT 30 HON. JOHN A. KRONSTADT, JUDGE
1130 SOUTH HOPE STREET INVESTMENT
ASSOCIATES LLC, A CALIFORNIA LIMITED
LIABILITY COMPANY; AND ROSARIO PERRY,
PLAINTIFFS,
VS.
1130 SOUTH HOPE STREET INVESTMENT
ASSOCIATES LLC, A DELAWARE LIMITED LIABILITY
COMPANY, ET AL.,
DEFENDANTS.
NO. BC 385560
REPORTER'S TRANSCRIPT OF PROCEEDINGS
MONDAY, MARCH 15, 2010
APPEARANCES:
FOR THE PLAINTIFF: POLK & BERKE JEFF BERKE
ATTORNEY AT LAW 11620 WILSHIRE BLVD SUITE 800
LOS ANGELES, CA 90025
FOR DEFENDANTS: (NOT REPRESENTED)

p. 94 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

REPORTED BY: ALEXANDER T. JOKO, CSR NO. 12272
OFFICIAL COURT REPORTER
-2INDEX
WITNESSES
ROSARIO PERRY: DIRECT EXAMINATION BY MR.
BERKE PAGE 32
EXHIBITS: 1 - QUITCLAIM DEED AND ASSOCIATED
MATERIALS DATED ON OR ABOUT DECEMBER 10,
2009 MARKED 34 RECEIVED 37
-31 CASE NUMBER: BC 385560
2 CASE NAME: 1130 SOUTH HOPE STREET
INVESTMENT ASSOCIATES LLC
3
4 LOS ANGELES, CALIFORNIA
MONDAY, MARCH 15, 2010
5 DEPARTMENT 30 JUDGE JOHN A. KRONSTADT
6 APPEARANCES: AS HERETOFORE NOTED
7 REPORTER: ALEXANDER JOKO, CSR NO. 12272
8 TIME: MORNING SESSION

p. 95 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

10 (THE FOLLOWING PROCEEDINGS WERE HELD
11 IN OPEN COURT:)
12
13 THE COURT: ON THE RECORD IN BC 385560, 1130
SOUTH
14 HOPE STREET INVESTMENT, ET AL. VERSUS 1130
SOUTH HOPE
15 STREET INVESTMENT ASSOCIATES, LLC. SAME
NAMES.
16 PLAINTIFF LLC IS A CALIFORNIA LLC.
17 AND THE DEFENDANT IS A DELAWARE LLC.
18 MR. BERKE: GOOD MORNING, YOUR HONOR. JEFF
BERKE
19 FOR PLAINTIFF, THE CALIFORNIA LLC, AND
ROSARIO PERRY AS
20 MANAGER.
21 MR. RABBAN: GOOD MORNING, YOUR HONOR.
MICHAEL
22 RABBAN, R-A-B-B-A-N. AT THIS POINT, I'M
MAKING A
23 SPECIAL APPEARANCE ON BEHALF OF
DEFENDANTS. I'M NOT
24 SURE WHICH DEFENDANTS. I HEARD ABOUT THIS
CASE JUST ON
p. 96 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

25 FRIDAY.
26 THE COURT: WHEN YOU SAY YOU'RE MAKING A
SPECIAL
27 APPEARANCE, WHAT DO YOU MEAN? TODAY IS
SET FOR TRIAL.
28 MR. RABBAN: I'M NOT -- I HAVEN'T BEEN
RETAINED
-41 YET. FROM WHAT I UNDERSTAND, APPARENTLY
THERE WAS A
2 CHANGE IN -- DEFENDANT'S PRIOR ATTORNEY
FILLED OUT
3 CHANGE OF ATTORNEY FORMS WHICH
DEFENDANT IS ALLEGING ARE
4 NOT HIS SIGNATURES. I AM NOT READY FOR
TRIAL BECAUSE,
5 HONESTLY, I DO NOT KNOW ALL THE FACTS OF
THIS TRIAL. I
6 CAME HERE TODAY TO SEE IF YOU ARE WILLING
TO CONTINUE
7 THIS TRIAL. I WILL CATCH UP TO SPEED AND DO
THIS TRIAL.
8 HOWEVER, AT THIS POINT, I AM NOT RETAINED.

p. 97 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

9 THE COURT: OKAY. THERE HAVE BEEN PRIOR
HEARINGS.
10 I'M NOT EVEN SURE YOU CAN MAKE A SPECIAL
APPEARANCE
11 BECAUSE THERE WAS A PRIOR MOTION -- THERE
WAS A MOTION
12 MADE BY EXISTING COUNSEL TO BE RELIEVED.
AND I HEARD
13 THAT MOTION RECENTLY AND DENIED IT. AND I
DENIED IT FOR
14 FAILURE TO GIVE NOTICE.
15 AT THAT TIME, THERE WAS ALSO AN OSC
16 RE: CONTEMPT WITH RESPECT TO AN ALLEGED
VIOLATION OF A
17 COURT ORDER. AND I STARTED THE OSC RE:
CONTEMPT; BUT
18 WHEN I SET OUT WHAT THE SCHEDULE WOULD
INVOLVE, THE
19 MOVING PARTY, PLAINTIFF HERE, WITHDREW
THE OSC SO AS TO
20 MAINTAIN TODAY'S TRIAL DATE. TODAY'S TRIAL
DATE WAS SET
21 SOME TIME AGO.
22 SO IN LIGHT OF ALL THAT'S HAPPENED IN THIS
p. 98 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

23 MATTER, WHICH INCLUDES WHAT I'VE JUST SAID,
COMBINED
24 WITH A DELAY THAT WAS -- A DELAY IN OUR
PROCEEDINGS
25 WHILE CERTAIN BANKRUPTCY PROCEEDINGS
WENT FORWARD, I
26 DON'T SEE A GOOD CAUSE BASIS TO CONTINUE
THE TRIAL
27 AGAIN.
28 I UNDERSTAND YOU'RE RECENTLY HERE AND – I
-51 MEAN, RECENTLY CONTACTED ABOUT THIS; BUT I
JUST
2 MR. RABBAN, I DON'T SEE A BASIS TO CONTINUE
THE TRIAL.
3 YOU'RE NOT EVEN -- AS I SAY, AT THIS POINT I
BELIEVE
4 OTHER COUNSEL IS STILL COUNSEL OF RECORD.
5 MR. RABBAN: THAT'S HOW I FELT, YOUR HONOR,
BASED
6 ON THE FACT I BELIEVE THERE WERE SIX
SUBSTITUTION OF
7 ATTORNEY FORMS FILLED OUT ON BEHALF OF
THE SIX
p. 99 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

8 DEFENDANTS I WOULD BE REPRESENTING.
9 THE COURT: WHICH SIX ARE THEY?
10 MR. RABBAN: WE HAVE -- I HAVE THEIR SIGNED
BLANK
11 CHANGE OF ATTORNEY FORMS. IT WOULD BE
1130 SOUTH HOPE
12 STREET, SAMUEL BENSKIN, LA VANCE TARVER,
TRUE HARMONY,
13 PRICILLA TURNER AND JOHNATHAN MARZET.
14 THE COURT: JUDGMENT AS TO SOME OF THOSE
PARTIES 15 IS THAT CORRECT, HAS JUDGMENT BEEN
ENTERED AS TO ANY OF
16 THE PARTIES WHOM MR. RABBAN HAS JUST
READ?
17 MR. BERKE: ONLY TRUE HARMONY. AND I HAVE
ASKED
18 FOR THE OTHERS TODAY.
19 THE COURT: DO YOU THINK -- OTHER THAN THE - THESE
20 ARE PROPOSED SUBSTITUTIONS OF ATTORNEY
AS TO THOSE
21 PARTIES?

p. 100 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

22 MR. RABBAN: YES, YOUR HONOR. AS I SAID, I
HAVE
23 NOT BEEN RETAINED OR HAVE A FINAL
RETAINER AGREEMENT
24 SIGNED.
25 THE COURT: I UNDERSTAND.
26 BUT WHAT YOU'RE REFERRING ME TO ARE
DOCUMENTS
27 PURSUANT TO WHICH YOU MIGHT BECOME
COUNSEL IF YOU AGREE
28 TO BE SUBSTITUTED IN?
-61 MR. RABBAN: YOUR HONOR -- YES. AND, IN
ADDITION,
2 THE DEFENDANTS HAVE ALLEGED THAT THESE
AREN'T THEIR
3 SIGNATURES ON THE CHANGE OF ATTORNEY
FROM THE PRIOR
4 COUNSEL THAT YOU MENTIONED WHO TRIED TO
MOTION TO BE LET
5 OUT. HOWEVER, I GUESS THE EASIER WAY WOULD
HAVE BEEN
6 FOR HIM TO BE FIRED WHICH -

p. 101 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

7 THE COURT: I DON'T UNDERSTAND, MR. RABBAN.
YOU
8 HAVE SOMETHING IN YOUR HAND. AND IT'S A
PROPOSED
9 SUBSTITUTION OF ATTORNEY THAT -- PURSUANT
TO WHICH YOU
10 MIGHT BECOME COUNSEL IN THE CASE?
11 MR. RABBAN: YES, IF YOUR HONOR CONTINUES 12 THE COURT: WHAT IS IT YOU THINK WAS FORGED
ON
13 THIS?
14 MR. RABBAN: I PRINTED THREE OF THESE SINCE
THEY
15 COST 7.50 FOR EACH. BUT THERE ARE SIX ON
FILE.
16 THE COURT: WHAT ARE THEY?
17 MR. RABBAN: SUBSTITUTION OF ATTORNEY
FORMS.
18 THE COURT: AND WHO IS -- MAY I SEE THESE? IS
19 SOMEBODY COMING IN AND OUT OR 20 MR. RABBAN: AT THIS POINT, YOUR HONOR 21 THE COURT: JUST A MINUTE.

p. 102 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

22 MR. RABBAN: AT THIS POINT, I DON'T KNOW WHO
THEIR
23 ATTORNEY IS.
24 THE COURT: THESE DOCUMENTS WHICH ARE
FILED MARCH
25 5 -- OF THE THREE YOU HAVE GIVEN ME, ONE IS
AS TO
26 APPEARS TO BE AS TO A -- AN INDIVIDUAL
PARTY, MR. FARZAD
27 HAIEM. AND THEN ONE OF THEM IS -- ANOTHER
IS AS TO A
28 SEPARATE INDIVIDUAL, JOHNATHAN MARZET.
-71 MR. RABBAN: WHO IS PRESENT IN COURT.
2 THE COURT: JUST A MINUTE.
3 THAT'S NOT TRUE. TWO OF THEM -- ONE OF
4 THEM -- OF THE THREE YOU HAVE GIVEN ME, ONE
IS AS TO AN
5 INDIVIDUAL. THE OTHER TWO -- AND AS TO THE
INDIVIDUAL,
6 IT SAYS, "THE INDIVIDUAL WILL BECOME SELFREPRESENTING."
7 THE OTHER TWO, ONE IS AS TO -- IT SAYS
p. 103 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

8 "JOHNATHAN MARZET, SLASH, 1130 SOUTH HOPE
STREET." AND
9 THE THIRD ONE SAYS, "FARZAD HIEM, SLASH,
HOPE PARK LOFTS
10 LLC."
11 IN EACH OF THESE, IT ALSO PROVIDES THAT THE
12 PARTY IS TO REPRESENT ITSELF. BUT NEITHER
LLC CAN
13 REPRESENT ITSELF. SO I'M NOT SURE WHAT TO
MAKE OF THESE
14 DOCUMENTS. BECAUSE TO THE EXTENT THAT
INDIVIDUALS WISH
15 TO BECOME SELF-REPRESENTED, THEY MAY. BUT
AN ENTITY MAY
16 NOT.
17 MR. RABBAN: AS I INDICATED, I'M NOT FAMILIAR
WITH
18 THE FACTS OF THIS CASE.
19 THE COURT: I UNDERSTAND.
20 MR. RABBAN, I'M NOT -- I'M NOT -- MY
COMMENTS
21 SHOULDN'T BE INTERPRETED AS CRITICAL OF
YOU. THEY'RE
22 NOT.
p. 104 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

23 MY COMMENTS ARE, I HAVE HAD THIS CASE
NOW FOR
24 MONTHS. I MADE RULINGS MANY MONTHS AGO. I
MADE A
25 RULING AS TO SOME GRANTING SUMMARY
JUDGMENT OR
26 ADJUDICATION TO CERTAIN ENTITIES. I STAYED
THE
27 EFFECTIVENESS OF THAT RULING WHILE THE
BANKRUPTCY COURT
28 COULD EVALUATE THINGS, ISSUES AND TO
DETERMINE -- I DID
-81 SO IN THE EVENT THAT THE BANKRUPTCY COURT
WERE TO
2 DETERMINE THAT MY RULINGS WERE NOT
CONSISTENT WITH THE
3 AUTOMATIC STAY. MEANING, THAT THE
AUTOMATIC STAY
4 APPLIED TO SOME PARTIES BUT NOT OTHERS, AS I
UNDERSTOOD
5 IT. BUT I WANTED TO MAKE SURE THAT THE
BANKRUPTCY COURT
6 HAD THE ABILITY TO DETERMINE THAT WITHOUT
MY RULINGS
p. 105 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

7 BEING DEEMED FINAL. THE BANKRUPTCY COURT
GRANTED RELIEF
8 FROM THE AUTOMATIC STAY.
9 MEANWHILE, WE'VE BEEN -- MANY, MANY WEEKS
HAVE
10 GONE BY. AND TODAY IS THE DAY THAT WE
HAVE SET FOR
11 TRIAL FOR SOMETIME AS TO THE REMAINING
ENTITIES.
12 AND I UNDERSTAND YOU'RE NEW TO THE
MATTER
13 AND -- POTENTIALLY NEW TO THE MATTER. AND
I UNDERSTAND
14 THAT YOU'RE NOT PREPARED TODAY TO GO
FORWARD WITH TRIAL.
15 BUT I'M NOT PREPARED TODAY TO CONTINUE
THE TRIAL. IT'S
16 NOT A CRITICISM OF YOU. IT'S JUST THAT BASED
ON THIS
17 HISTORY, I DON'T THINK IT'S WARRANTED.
ESPECIALLY, AS I
18 SAID TO YOU AT THE OUTSET, OTHER COUNSEL
WHO HAD
19 APPEARED PREVIOUSLY WITH RESPECT TO
RAISING, FOR
p. 106 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

20 EXAMPLE, CERTAIN BANKRUPTCY ISSUES, I
NEVER RELIEVED
21 THAT COUNSEL. THEY ASKED TO BE RELIEVED,
AND I DENIED
22 THE MOTION. SO I THINK IT'S TIME TO GO TO
TRIAL.
23 AND IF YOU -- I DON'T KNOW HOW BETTER TO
24 EXPRESS IT. IF YOUR WILLINGNESS TO BECOME
TRIAL COUNSEL
25 IS CONTINGENT UPON CONTINUING THE TRIAL,
YOU AND
26 MR. MARZET CAN CONFER. BUT I'M NOT GOING
TO CONTINUE
27 THE TRIAL. IT WOULD BE PREJUDICIAL TO THE
PLAINTIFF
28 AND -- AFTER ALL OF THIS TIME AND ENERGY
AND MONEY AND,
-91 AS I SAID, PUSHING OFF THE -- DISCHARGING THE
OSC
2 RE: CONTEMPT, HAVING WITNESSES HERE TODAY,
COUNSEL HERE
3 TODAY, I'M JUST NOT GOING TO CONTINUE IT.
4 I'VE ALSO -- I MIGHT ADD, IN TERMS OF MY OWN
p. 107 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

5 CALENDAR, I HAVE ANOTHER TRIAL IN WHICH I'M
INVOLVED
6 WHICH I HAVE POSTPONED SO I CAN DO THIS ONE.
SO A LOT
7 OF COURT RESOURCES HAVE BEEN ALLOCATED
TO GET GOING
8 TODAY.
9 MR. RABBAN: MAY I HAVE 10 MINUTES WITH MR.
MARZET?
10 THE COURT: YES
11 ANYTHING YOU WANT TO ADD, MR. BERKE?
12 MR. BERKE: I AGREE WITH YOUR HONOR WHOLEHEARTEDLY
13 THAT THIS MATTER HAS TO GO FORWARD
TODAY. THE JUDGMENT
14 THAT I PREVIOUSLY SUBMITTED WITH REGARD
TO THOSE OTHER
15 INDIVIDUALS AND ENTITIES, I BEG THE COURT
TO SIGN IT
16 TODAY.
17 THE COURT: I DON'T WANT TO BE BEGGED. IF THE
LAW
18 REQUIRES IT, I'LL DO IT. BEGGING IS NOT PART
OF WHAT
p. 108 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

19 GOES ON HERE.
20 MR. BERKE: I APOLOGIZE. I REQUEST THAT THE
COURT
21 ENTER THE JUDGMENT BASED ON A MOTION
THAT WAS GRANTED
22 TWO MONTHS AGO -- THREE MONTHS GO.
23 THE COURT: I UNDERSTAND.
24 MR. MARZET, CONFER WITH YOUR COUNSEL.
WE'LL
25 RESUME AT 10:30. THANK YOU.
26
27 (RECESS)
28
-101 THE COURT: GOOD MORNING AGAIN. BACK ON
THE RECORD
2 IN THE 1130 SOUTH HOPE STREET INVESTMENT
ASSOCIATES.
3 MR. BERKE IS PRESENT. MR. RABBAN IS PRESENT.
4 MR. RABBAN: MAY I BE HEARD, YOUR HONOR?
5 THE COURT: JUST A SECOND.
6 YES, MR. RABBAN?
p. 109 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

7 MR. RABBAN: YES. AS I INDICATED, I'M NOT
FAMILIAR
8 WITH THE FACTS OF THIS CASE. AND BASED ON
YOUR RULING
9 THAT THIS TRIAL IS GOING FORWARD, I WILL NOT
BE THE
10 ATTORNEY ON THIS MATTER. AND DEFENDANTS
WILL HAVE TO GO
11 AT IT ALONE, OR HAVE THEIR ATTORNEY WHO IS
OF RECORD BE
12 PRESENT AT THIS CASE.
13 THE COURT: THANK YOU FOR CHECKING, MR.
RABBAN.
14 YOU'RE WELCOME TO STAY, BUT YOU'RE
EXCUSED.
15 MR. RABBAN: THANK YOU, YOUR HONOR. 16 THE
COURT: SO WHO IS -- MR. BERKE, YOU ARE
17 PRESENT.
18 WOULD YOU STATE YOUR NAME AGAIN.
19 MR. MARZET: JOHN MARZET.
20 THE COURT: GOOD MORNING.
21 MR. BENSKIN: SAMUEL BENSKIN.
22 THE COURT: MR. BENSKIN, ARE YOU A PARTY?
p. 110 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

23 MR. BENSKIN: YES.
24 THE COURT: MR. BENSKIN, ARE YOU AN
INDIVIDUAL
25 DEFENDANT?
26 MR. BERKE: YES, HE IS, YOUR HONOR.
27 THE COURT: OKAY. IS MR. MARZET AN
INDIVIDUAL
28 DEFENDANT?
- 11 1 MR. BERKE: YES, HE IS.
2 THE COURT: OKAY. WELL, AS I HAVE STATED
EARLIER,
3 WE'RE HERE FOR THE TRIAL OF THE REMAINING
ISSUES IN THE
THERE HAVE BEEN PRIOR4 MATTER. I PREVIOUSLY
5 PROCEEDINGS THAT HAVE RESOLVED CERTAIN
ISSUES.
6 MR. BENSKIN AND MR. MARZET ARE BOTH HERE
AND,
7 AS INDIVIDUAL DEFENDANTS, MAY REPRESENT
THEMSELVES AS
8 SUCH. HOWEVER, NEITHER MAY REPRESENT AN
ENTITY. SO THE
p. 111 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

9 ENTITY DEFENDANTS SHOULD -- HAVE BEEN
REPRESENTED BY
10 CERTAIN COUNSEL. IT CHANGED OVER THE
PERIOD OF MONTHS
11 THAT THE CASE HAS BEEN PENDING WITH ME.
BUT AT THIS
12 TIME, THERE IS COUNSEL OF RECORD. BUT HE IS
NOT HERE.
13 AND, MR. MARZET, YOU HAVE TRIED TO REACH
HIM;
14 AND HE'S NOT APPEARING?
15 MR. MARZET: NO.
16 THE COURT: AS FAR AS YOU KNOW?
17 MR. MARZET: AS FAR AS WE KNOW.
18 MR. BENSKIN, DO YOU HAVE ANY ROLE IN
19 THE CASE OTHER THAN AS AN INDIVIDUAL?
20 IN OTHER WORDS, DO YOU HAVE AN INTEREST IN
ANY
21 OF THE DEFENDANTS THAT ARE NOT
INDIVIDUALS SUCH AS 1130
22 SOUTH HOPE STREET INVESTMENT ASSOCIATES
LLC, A DELAWARE
23 LIMITED LIABILITY COMPANY?
p. 112 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

24 MR. BENSKIN: YES. I'M SECRETARY.
25 THE COURT: AND HOPE PARK LOFTS LLC?
26 MR. BENSKIN: NO.
27 THE COURT: AND LA VANCE TARVER, THAT'S AN
28 INDIVIDUAL?
-121 MR. BENSKIN: YES.
2 MR. MARZET: YES. AGENT FOR SERVICE OF
PROCESS.
3 THE COURT: AND RAY OF LIFE CHARITABLE
FOUNDATION,
4 DOES EITHER OF YOU HAVE AN INTEREST IN THAT
ENTITY?
5 MR. MARZET: NO.
6 THE COURT: TRUE HARMONY, INC., DOES EITHER
OF YOU
7 HAVE AN INTEREST IN TRUE HARMONY?
8 MR. MARZET: YES. BOTH OFFICERS OF TRUE
HARMONY.
9 THE COURT: TRUE HARMONY, INC. NEEDS TO BE
10 REPRESENTED BY A LAWYER. AND HOPE PARK
LOFTS, AS WELL
p. 113 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

11 AS 1130 SOUTH HOPE STREET INVESTMENT
ASSOCIATES LLC, A
12 DELAWARE LIMITED LIABILITY COMPANY NEEDS
TO BE
13 REPRESENTED BY A LAWYER.
14 AS WE HAVE GONE OVER, THERE'S NO LAWYER
15 PRESENT. AND, THEREFORE -- MR. RABBAN WAS
HERE, BUT
16 DECLINED TO BECOME COUNSEL TO THOSE
ENTITIES GIVEN THE
17 TRIAL DATE. SO THOSE ENTITIES CANNOT
PRESENT EVIDENCE
18 OR EXAMINE OR CROSS-EXAMINE WITNESSES.
BUT BOTH
19 INDIVIDUALS MAY.
20 MR. BERKE: YOUR HONOR, MAY I ADDRESS THAT
POINT?
21 THE COURT: YES
22 BOTH OF THOSE INDIVIDUALS -- BOTH OF
23 THESE INDIVIDUALS WERE THE SUBJECT OF A
SUMMARY
24 ADJUDICATION MOTION. AND, AGAIN, IT WAS MY
INTENTION

p. 114 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

25 AND HOPE THAT WITH THE ENTRY OF JUDGMENT
BASED UPON THE
26 SUMMARY ADJUDICATION, THE ONLY PARTY
THAT THIS TRIAL
27 WOULD GO FORWARD AGAINST WOULD BE THE
DELAWARE LLC WHO
28 WE COULD NOT GET SUMMARY ADJUDICATION
AGAINST BECAUSE OF
-131 THE BANKRUPTCY.
2 THE COURT: OKAY. THAT'S FINE. IF THAT'S THE
ONLY
3 PARTY AGAINST WHOM YOU'RE PROCEEDING,
THEN LET'S
4 PROCEED.
5 MR. BERKE: I WOULD LIKE TO KNOW IF THE
COURT WILL
6 ENTER JUDGMENT?
7 THE COURT: I PREVIOUSLY MADE ORDERS
GRANTING THE
8 SUMMARY ADJUDICATION WITH RESPECT TO
CERTAIN ENTITIES.
9 YOU AGREE WITH THAT?
10 MR. BERKE: INDIVIDUALS AND ENTITIES, YES.
p. 115 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

11 THE COURT: YOU AGREE WITH THAT, MR.
MARZET, I
12 PREVIOUSLY GRANTED SUMMARY
ADJUDICATION AS TO CERTAIN
13 ENTITIES AND CERTAIN CLAIMS -- EXCUSE ME.
14 THERE WERE PRIOR HEARINGS. AS A RESULT OF
15 THOSE PRIOR HEARINGS, I GRANTED SUMMARY
ADJUDICATION, I
16 BELIEVE; IS THAT CORRECT?
17 MR. BERKE: YES.
18 THE COURT: AS TO BOTH CERTAIN CLAIMS AND
AS THOSE
19 CLAIMS PERTAIN TO CERTAIN INDIVIDUALS AND
ENTITIES. YOU
20 AGREE WITH THAT?
21 MR. BERKE: I DO.
22 THE COURT: DO YOU AGREE WITH THAT, SIR?
23 MR. MARZET: I DO.
24 I STAYED THAT ORDER IN PART PENDING THE
25 BANKRUPTCY COURT'S CONSIDERATION OF THE
NEW -- OF THE
26 THEN RELATIVELY RECENTLY FILED
BANKRUPTCY PROCEEDINGS.
p. 116 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

27 DO YOU AGREE WITH THAT?
28 MR. BERKE: IT WAS STAYED, YES.
-141 THE COURT: DO YOU AGREE WITH THAT?
2 MR. MARZET: I'M NOT SURE ABOUT THAT.
3 THE COURT: I MADE AN ORDER. BUT BECAUSE
THE
4 BANKRUPTCY PROCEEDINGS HAD BEEN
COMMENCED BY ONE -- I
5 BELIEVE BY ONE ENTITY, THE DELAWARE LLC.
6 MR. BERKE: THAT IS CORRECT.
7 THE COURT: I MADE THE ORDERS, BUT I STAYED
THEM
8 PENDING FURTHER PROCEEDINGS IN THE
BANKRUPTCY COURT.
9 DO YOU AGREE WITH THAT, SIR?
10 MR. MARZET: YES.
11 MR. BERKE: YES.
12 THE COURT: I DIDN'T MEAN TO EXCLUDE YOU.
DO YOU
13 AGREE, MR. BENSKIN?
14 MR. BENSKIN: YES.
p. 117 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

15 THE COURT: SINCE THAT TIME, THE
BANKRUPTCY COURT
16 HAS LIFTED THE AUTOMATIC STAY AS TO THE
DELAWARE LLC ON
17 THE APPLICATION OF THE PLAINTIFF HERE; IS
THAT CORRECT?
18 MR. BERKE: THAT IS CORRECT.
19 THE COURT: DO YOU AGREE WITH THAT?
20 MR. MARZET: YES.
21 MR. BENSKIN: YES.
22 THE COURT: OKAY. THEREFORE, THE ONLY
CONDITION
23 THAT REMAINED TO THE ENTRY OF MY ORDERS
HAS BEEN
24 SATISFIED. AND THE PROVISIONAL ORDERS
WHICH WERE SO
25 DESCRIBED NOW BECOME FINAL ORDERS.
26 WITH RESPECT TO THE JUDGMENT, HOWEVER,
THERE
27 SHOULD BE ONE JUDGMENT, NOT MULTIPLE
JUDGMENTS; RIGHT?
28 IS THERE A REASON WE NEED A JUDGMENT AS
TO

p. 118 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

-151 THOSE PARTIES AND THEN A SEPARATE
JUDGMENT AS TO THE
2 DELAWARE LLC?
3 MR. BERKE: WE DO ALREADY HAVE A JUDGMENT
AGAINST
4 TRUE HARMONY.
5 THE COURT: I UNDERSTAND.
6 MR. BERKE: AND THE REASON THAT I WOULD PUT
FORTH
7 IS, THAT I DO NOT BELIEVE THAT THESE
GENTLEMEN WOULD
8 HAVE ANY PART IN THIS TRIAL WHATSOEVER
HAVING JUDGMENT
9 ALREADY ENTERED AGAINST THEM, ALLOWING
ME TO GO FORWARD
10 SIMPLY AGAINST THE DELAWARE LLC.
11 THE COURT: MY QUESTION IS A BIT DIFFERENT. I
12 THINK YOU HAVE ASKED WHETHER I WILL BE
ENTERING THE
13 JUDGMENT AS TO THOSE PARTIES I PREVIOUSLY
RULED -- I
14 JUST WENT THROUGH THIS. I MADE CERTAIN
RULINGS. I
p. 119 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

15 STAYED THEM PENDING BANKRUPTCY
PROCEEDINGS. THE STAY
16 HAS NOW BEEN LIFTED. THEREFORE, THOSE
RULINGS ARE NOW
17 FINAL. YOU ARE ASKING ME IF I WILL ENTER A
JUDGMENT.
18 AND MY QUESTION IS, IF WE'RE HERE FOR A
TRIAL
19 AS TO THE DELAWARE LLC, WHY SHOULDN'T
THERE BE ONE
20 JUDGMENT THAT APPLIES TO THE RULINGS THAT
ARE NOW FINAL,
21 AS WELL AS ANY RULINGS I MAKE TODAY ON
THE DELAWARE LLC,
22 ASSUMING THAT I AGREE WITH YOUR POSITION?
23 MR. BERKE: MY REASONING IS, THAT I BELIEVE
IT IS A
24 LOT CLEANER. AND IT PUTS A LOT OF THE
PUZZLE PIECES TO
25 REST AND WILL MAKE THESE PROCEEDINGS A
LOT CLEANER IF
26 JUDGMENT HAS ALREADY BEEN ENTERED AS TO
THESE GENTLEMEN.
27 THE COURT: I THINK THE ORDER HAS BEEN
ENTERED. I
p. 120 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

28 GRANTED SUMMARY ADJUDICATION AS TO THE
INDIVIDUALS. WE
-161 WENT OVER THAT. THESE TWO INDIVIDUALS. AND
I GRANTED
2 SUMMARY ADJUDICATION AS TO CERTAIN
CLAIMS AGAINST
3 CERTAIN ENTITIES. I STAYED THOSE ORDERS
PENDING THE
4 BANKRUPTCY COURT ADDRESSING THE EFFECT
OF THE BANKRUPTCY
5 PROCEEDINGS OF THE DELAWARE LLC. THE
BANKRUPTCY COURT
6 NOW HAS DETERMINED TO LIFT THE STAY.
ACCORDINGLY, MY
7 STAY OF MY PRIOR ORDERS IS LIFTED. THOSE
ORDERS ARE NOW
8 FINAL.
9 MR. BERKE: WE DON'T HAVE A SIGNED ORDER.
10 THE COURT: THERE WAS A MINUTE ORDER, WAS
THERE
11 NOT?
12 FURTHERMORE -- HAVE YOU SUBMITTED A
PROPOSED
p. 121 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

13 ORDER OR A PROPOSED JUDGMENT?
14 MR. BERKE: PROPOSED ORDER AND JUDGMENT.
15 THE COURT: IS IT ONE DOCUMENT OR TWO?
16 MR. BERKE: ONE.
17 THE COURT: OKAY. THEN I'M BACK TO MY
QUESTION.
18 THINK THERE I THINK THERE IS AN ORDER. THE
ORDER IS
19 WHAT I MADE AT THE PRIOR HEARING. AND THE
ORDER WAS
20 THAT SUMMARY JUDGMENT WAS GRANTED
SUBJECT TO THE STAY
21 THAT I ENTERED, WHICH I HAVE NOW
DESCRIBED MULTIPLE
22 TIMES.
23 WITH THE STAY HAVING BEEN LIFTED, THAT
ORDER
24 IS NOW FINAL. AND THE JUDGMENT THAT WILL
FLOW FROM THAT
25 ORDER, I DON'T THINK I HAVE TO ENTER A
JUDGMENT NOW. I
26 THINK THAT I SHOULD COMPLETE THE TRIAL AS
TO THE

p. 122 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

27 DELAWARE LLC. AND THEN ENTER ONE
JUDGMENT AS TO THAT
28 ENTITY AND ALL OTHER ENTITIES, ASSUMING
THAT I AGREE
-171 WITH YOU, MR. BERKE, THAT THE DELAWARE LLC
SHOULD BE
2 SUBJECT TO THE SAME REMEDIES. MEANING, THE
JUDGMENT
3 SHOULD BE ENTERED AGAINST IT.
4 MR. BERKE: I UNDERSTAND YOU CLEARLY. MY
POSITION
5 IS, GIVEN WHAT'S GONE ON IN THIS CASE, GET
SOMETHING IN
6 WRITING, GET IT SIGNED AS QUICKLY AS
POSSIBLE. BUT I
7 YIELD TO YOUR HONOR, AND I WILL GO FORWARD
ONLY AGAINST
8 THE ENTITY, WHICH MEANS THESE GENTLEMEN
SHALL NOT BE
9 PERMITTED TO PRESENT EVIDENCE.
10 THE COURT: MR. MARZET, IF I HAVE -- AS YOU
HAVE

p. 123 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

11 HEARD ME, I THINK, EXPLAIN -- WELL, I KNOW
YOU HAVE
12 HEARD ME. I'M SURE YOU HAVE HEARD ME AS
WELL
13 MR. BENSKIN. I PREVIOUSLY RULED THAT THE
JUDGMENT WOULD
14 BE ENTERED AGAINST EACH OF YOU AS
INDIVIDUALS. THAT
15 ORDER IS NOW FINAL.
16 AND EACH OF YOU IS HERE TODAY, WHICH I
17 RESPECT; BUT YOU'RE ONLY HERE CAPABLE OF
REPRESENTING
18 YOURSELVES. AND I DON'T THINK THERE'S
REALLY AN ISSUE
19 THAT'S LEFT AS TO EITHER OF YOU BECAUSE I
GRANTED THE
20 MOTION AS TO EACH OF YOU IN TERMS OF YOUR
INDIVIDUAL
21 ROLES.
22 THE ONLY THING WE'RE HERE TO DO TODAY IS
TO
23 HAVE A TRIAL WITH RESPECT TO THE CLAIMS BY
PLAINTIFFS

p. 124 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

24 AGAINST 1130 SOUTH HOPE STREET INVESTMENT
ASSOCIATES,
25 INC. LLC, A DELAWARE CORPORATION. AND YOU
HAVE EACH
26 TOLD ME THAT YOU EACH BELIEVE YOU HAVE
AN INTEREST IN
27 THAT ENTITY. AND I BELIEVE YOU HAVE EACH
TOLD ME YOU
28 BELIEVE YOU'RE AN OFFICER OF THAT ENTITY.
-181 MR. MARZET: WE ARE.
2 THE COURT: AS EACH OF YOU HEARD ME SAY, THE
ENTITY
3 NEEDS A LAWYER TO PROCEED IN A TRIAL.
4 MR. MARZET: EXACTLY.
5 THE COURT: AND THERE'S NO LAWYER.
ACCORDINGLY,
6 ALTHOUGH YOU'RE HERE AND ARE YOU ARE
WELCOME TO STAY
7 AND OBSERVE THE PROCEEDINGS. YOU CAN'T
REPRESENT THE
8 ENTITY. AND THERE'S NO ISSUE PRESENTED AS TO
EITHER OF
9 YOU AS INDIVIDUALS.
p. 125 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

10 DO YOU UNDERSTAND THAT, MR. MARZET AND
11 MR. BENSKIN?
12 MR. MARZET: YES.
13 MR. BENSKIN: YES.
14 THE COURT: THANK YOU. JUST ONE SECOND,
PLEASE.
15 JUST TO CONFIRM WHAT I HAVE SAID, THE
MINUTE
16 ORDER OF DECEMBER 24, 2009 REFLECTS, AMONG
OTHER THINGS,
17 THAT THE MOTION FOR SUMMARY
ADJUDICATION WAS GRANTED,
18 HOWEVER, NOT IN TWO RESPECTS. FIRST,
INJUNCTIVE RELIEF
19 WAS NOT GRANTED IN CONNECTION WITH ANY
ACTION BY ANY OF
20 THE NONMOVING PARTIES WHO IS A MEMBER OF
THE DEBTOR IN
21 CONNECTION WITH ANY ACTION TO BE TAKEN IN
THE BANKRUPTCY
22 PROCEEDINGS WITH RESPECT TO THE DEBTOR
ENTITY.
23 AND, SECOND, THE COURT STAYED ITS ORDERS
FOR A
p. 126 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

24 PERIOD OF 30 DAYS TO ALLOW THE
BANKRUPTCY COURT
25 PROCEEDINGS TO GO FORWARD.
26 AND THEN ON FEBRUARY 18, 2010, COUNSEL
27 INFORMED THE COURT THAT RELIEF FROM THE
BANKRUPTCY STAY
28 HAD BEEN TENTATIVELY GRANTED. AND
COUNSEL WAS DIRECTED
-191 TO PROVIDE A COPY OF THE SIGNED ORDER
WITHIN THREE DAYS
2 AFTER RECEIVING IT. SUCH SIGNED COPY WAS
THEN PROVIDED.
3 ACCORDINGLY, THE TERMS OF THE DECEMBER 24,
4 2009 ORDER WERE SATISFIED. AND THE ORDERS
THEN HELD
5 MADE CONDITIONALLY -- OR, EXCUSE ME, THE
ORDERS THEN
6 MADE THAT WERE STAYED, THE STAY WAS
LIFTED. AND THE
7 ORDERS BECAME FINAL.
8 IN OTHER WORDS, JUST WHAT I SAID BEFORE. AND
9 IT IS REFLECTED IN -- THE TERMS OF THAT ARE
REFLECTED IN
p. 127 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

10 THE MINUTE ORDER. AND WHAT I JUST SAID
CONFIRMS THAT
11 THERE IS NOT A MINUTE ORDER SAYING THAT
THE MOTIONS WERE
12 THEREFORE GRANTED. BUT THAT'S -- IT'S -- I
THINK THAT'S
13 WHAT'S INFERRED.
14 YES, MR. MARZET?
15 MR. MARZET: YOUR HONOR, 1130 SOUTH HOPE
STREET
16 INVESTMENT ASSOCIATES LLC, THE ONE THAT
WAS FORMED IN
17 CALIFORNIA, THE BOARD OF DIRECTORS SERVED
MR. POLK HERE
18 LETTING HIM KNOW THAT THEY DID NOT
AUTHORIZE HIS
19 REPRESENTATION TO BE HERE.
20 THE COURT: MR. BERKE YOU MEAN?
21 MR. MARZET: POLK AND BERKE.
22 HERE'S THE DOCUMENT THEY WERE GIVEN. AND
THIS
23 IS NOT THE FIRST TIME THEY 24 THE COURT: JUST A MINUTE. WHAT'S THE DATE
OF THE
p. 128 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

25 DOCUMENT?
26 MR. MARZET: THE DATE OF THIS DOCUMENT IS
MARCH
27 8TH, 2010.
28 THE COURT: THAT'S AFTER THE ORDERS BECAME
FINAL.
-201 MR. MARZET: WELL, HE RECEIVED SEVERAL
BEFORE THAT.
2 THE COURT: WHAT ABOUT THAT, MR. BERKE?
3 MR. BERKE: MY CLIENT IS THE PLAINTIFF LLC
WHO IS
4 MANAGED BY A MANAGER AS REFLECTED IN
YOUR HONOR'S JUNE
5 3RD, 2009 ORDER. THE MANAGER WAS MR. PERRY.
HE IS THE
6 ONLY PERSON WHO IS AUTHORIZED TO ACT ON
BEHALF OF THE
7 PLAINTIFF LLC. MR. MARZET IS NOT. MR. BENSKIN
IS NOT.
8 YOUR ORDER SPECIFICALLY REFLECTS THAT.
9 MR. MARZET: SEE, THAT'S WHAT WE'RE NOT
10 UNDERSTANDING. THIS WAS OUR ATTORNEY IN
OUR PREVIOUS
p. 129 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

11 CASE AND
12 THE COURT: WHO WAS YOUR ATTORNEY?
13 MR. MARZET: MR. PERRY OVER THERE IN OUR
PREVIOUS
14 CASE WHERE ANOTHER PARTY HAD CONSPIRED
TO TRY TO STEAL
15 THE CHARITY'S PROPERTY. AND THE PROPERTY
WAS NEVER
16 TRANSFERRED OUT OF THE CHARITY'S NAME.
17 THE COURT: I THINK -- TO BE CLEAR -- SIR,
EXCUSE
18 ME, ONE SECOND. ARE YOU FINISHED?
19 MR. MARZET: NO. I WAS GOING TO TELL YOU
HOW HE
20 BECAME MANAGER OF OUR LLC.
21 THE COURT: MR. BERKE, HAVE THESE ISSUES
BEEN
22 ADDRESSED?
23 MR. MARZET: NEVER.
24 THE COURT: JUST A MINUTE.
25 MR. BERKE: THEY WERE ADJUDICATED IN THE
DEPARTMENT

p. 130 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

26 64 CASE. THEY WERE AFFIRMED BY THE COURT
OF APPEAL.
27 THEY WERE DETERMINED BY JUDGE
SCHOETTLER IN THE
28 ARBITRATION. THEY WERE CONFIRMED IN YOUR
HONOR'S JUNE
-211 3, 2009 JUDGMENT.
2 THE COURT: I THINK THAT THESE ISSUES HAVE
BEEN
3 ADDRESSED AND RESOLVED.
4 MR. MARZET: NEVER. FOR SOME REASON -- HOW
SHOULD
5 I SAY THIS? THE APPEAL WAS ONLY SAYING THAT
THE JUDGE
6 DIDN'T HAVE JURISDICTION TO GO BACK AND
CHANGE HIS MIND.
7 THAT WAS THE ONLY ISSUE BEFORE THE JUDGE
THERE. AND HE
8 DID HAVE A RIGHT TO DO THAT.
9 THE COURT: WHAT WE'RE REVIEWING IS ORDERS
THAT I
10 PREVIOUSLY MADE. I THINK THESE ISSUES -THESE WERE
p. 131 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

11 ISSUES AMONG THOSE THAT WERE DECIDED
WHEN I HAD MADE
12 CERTAIN PRIOR ORDERS, INCLUDING THOSE
THAT I'VE REFERRED
13 TO EARLIER TODAY IN DECEMBER OF 2009 AND
FEBRUARY OF
14 2010.
15 I THINK THAT -- IN OTHER WORDS, WE'RE NOT
HERE
16 ON THAT. THAT ISSUE HAS ALREADY BEEN
DECIDED AND -- OR,
17 EXCUSE ME. THOSE ISSUES -- THE ISSUE OF
CONTROL HAS
18 ALREADY BEEN DECIDED. AND TO THE EXTENT
THAT THERE
19 ARE -- IF YOU WERE SEEKING TO RAISE A NEW
ISSUE ON THAT,
20 I THINK IT COMES TOO LATE.
21 THE ONLY ISSUE REMAINING FOR TODAY IS THE
22 CLAIMS BY THE PLAINTIFF AGAINST THE
DELAWARE LLC. SO WE
23 MAY HAVE TO AGREE TO DISAGREE AS TO MY
PRIOR RULINGS.

p. 132 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

24 AND THAT'S FINE. BUT I'M NOT HERE TO REDO -TO REVIEW
25 THEM. THEY HAVE ALREADY BEEN MADE.
26 MR. MARZET: WHAT I'M TRYING TO
UNDERSTAND IS, THAT
27 IT'S TOTALLY AGAINST THE LAW FOR A CHARITY
TO TRANSFER
28 ITS ASSETS TO A FOR-PROFIT LLC. THAT'S WHY
WE HAD TO
-221 FORM THE DELAWARE LLC, SO THAT WE COULD
HONOR THE
2 JUDGE'S RULING IN THE SECOND AMENDED
JUDGMENT.
3 THE COURT: MR. BERKE, EXPLAIN WHY YOU
BELIEVE THAT
4 ISSUE HAS BEEN ADDRESSED BY MY PRIOR
ORDERS OR THOSE IN
5 THE ARBITRATION OR THOSE BY JUDGE FREEMAN.
6 MR. BERKE: IT'S IN THE COURT OF APPEAL
DECISION
7 WHICH I HAVE ATTACHED TO MY TRIAL BRIEF. IT
TALKS ABOUT

p. 133 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

8 THE FACT THAT IT WAS RAISED IN THE PRIOR
CASE AND THE
9 APPEAL FROM THE 2005 JUDGMENT BY JUDGE
FREEMAN. AND IT
10 WAS -- THAT JUDGMENT WAS AFFIRMED ON
APPEAL.
11 THE -- YOUR JUNE 3RD, 2009 JUDGMENT
12 SPECIFICALLY DEALS WITH THE FACT THAT THE
PLAINTIFF LLC
13 IS THE SOLE OWNER OF THE PROPERTY. THAT
THE PLAINTIFF
14 LLC IS A VALID ENTITY. ALL OF THESE OTHER
THINGS.
15 AGAIN, I DON'T KNOW WHO -- ON WHOSE BEHALF
16 MR. MARZET IS RAISING THIS, BUT HE'S NOT A
PARTY TO
17 THESE PROCEEDINGS.
18 THE COURT: I THINK -- SIR, I UNDERSTAND. WE'LL
19 HAVE TO AGREE TO DISAGREE. I THINK THESE
ISSUES HAVE
20 BEEN ALREADY DETERMINED. YOU MAY
DISAGREE WITH HOW I
21 DETERMINED THEM OR HOW JUDGE FREEMAN
DETERMINED THEM OR
p. 134 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

22 HOW THE ARBITRATOR DETERMINED THEM, BUT
THEY'RE BOUND UP
23 IN THE PRIOR JUDGMENTS. WE'RE NOT HERE TO
REDO THAT.
24 WE'RE HERE FOR A SINGLE ISSUE. I UNDERSTAND
YOUR
25 POSITION, SIR.
26 THE DISTINCTION THAT I'M DRAWING IN PART IS
27 THIS: EVEN IF CERTAIN ISSUES WERE NOT
RAISED PREVIOUSLY
28 OR IF CERTAIN -- THEY MAY -- IF THERE'S A
JUDGMENT AND
-231 IT'S FINAL, THOSE ISSUES ARE DEEMED BOUND UP
IN THAT
2 JUDGMENT. SO, ACCORDINGLY, ONCE THE
JUDGMENT -- ONCE A
3 FINAL JUDGMENT HAS BEEN ENTERED, EVEN
THOUGH YOU MAY NOT
4 BELIEVE SOMETHING WAS PRESENTED OR
CONSIDERED, THE
5 JUDGMENT WILL PROBABLY, AND IN THIS CASE
DOES, BIND UP

p. 135 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

6 ALL THE ISSUES. AND IF YOU THINK THE
JUDGMENT IS
7 ERRONEOUS, THEN YOU WILL SEEK APPELLATE
REVIEW. BUT
8 THAT'S NOT WHAT WE'RE HERE TO TRY TODAY.
9 MR. MARZET: IT'S NOT THAT WE DIDN'T WANT TO
GO
10 ALONG WITH ANYTHING. HE'S BEEN WITH US
FROM DAY ONE,
11 MR. PERRY OVER THERE. AND WE WENT AHEAD
AND WE JOINED
12 THE LLC AND FORMED, BUT IT WASN'T FORMED
ON OCTOBER 9TH,
13 2003. IT WAS 2005 WHEN THE NAME CAME INTO
EXISTENCE,
14 CONTRARY TO THE AGREEMENT. BUT WE WENT
AHEAD AND BECAME
15 MEMBERS OF IT. WE TRIED TO TRANSFER THE
PROPERTY TO IT.
16 BUT THEN THAT'S WHEN WE WERE TOLD BY THE
CHARITABLE
17 TRUST DEPARTMENT OF THE IRS THAT WE
COULD NOT TRANSFER
18 IT TO THE FOR-PROFIT LLC. BUT WE COULD FORM
A
p. 136 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

19 NON-PROFIT LLC AND TRANSFER IT TO THAT
ONE. SO THAT'S
20 WHY IT'S THE SAME EXACT NAME AND SAME
EXACT NUMBERS OF
21 IT. WE JUST CANCELED THAT ONE, AND PUT
EVERYTHING INTO
22 THE ONE LEGAL ONE WE COULD TRANSFER THE
TITLE TO.
23 SO THEY'RE ASKING FOR US TO PUT IT INTO AN
LLC
24 THAT BY LAW IT CAN'T BE THERE. SO I GUESS
THAT GIVES US
25 SOME ISSUES.
26 THE COURT: MR. BERKE, ANY RESPONSE TO
THAT?
27 MR. BERKE: AGAIN, THEY HAVE NO STANDING TO
RAISE
28 IT. AND THEN I DON'T -- I DON'T HAVE A PAGE
NUMBER.
-241 BUT THE APPELLATE COURT DECISION, ABOUT
HALFWAY THROUGH
2 CAPITAL E SUBHEADING, DEALS WITH ALL OF
THESE ISSUES
p. 137 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

3 WHICH WERE RAISED IN THE PRIOR ACTION.
4 THE COURT: I UNDERSTAND.
5 SO LET'S PROCEED WITH THE TRIAL.
6 MR. MARZET: WE'RE OUT OF IT; RIGHT?
7 THE COURT: YOU CAN'T APPEAR ON BEHALF OF
THE
8 ENTITY, SIR. YOU ARE WELCOME, AS ANY CITIZEN
IS
9 WELCOME, PERSONS ARE WELCOME TO BE IN THE
COURTROOM. SO
10 YOU'RE NOT REQUIRED TO LEAVE. IF YOU WISH
TO STAY, BOTH
11 OF YOU MAY STAY. IF ONE OF YOU WISHES TO
STAY AND NOT
12 THE OTHER, THAT'S FINE.
13 MR. MARZET: JUST TO LISTEN. THANK YOU, SIR.
14 MR. BERKE: CAN THEY GO INTO THE AUDIENCE,
YOUR
15 HONOR?
16 THE COURT: THEY CAN SIT HERE AS PARTY
17 REPRESENTATIVES. THEY CAN'T PRESENT
EVIDENCE, BUT THEY
18 CAN BE HERE.
p. 138 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

19 MR. BERKE: OKAY. YOUR HONOR, THE WAY I -THE WAY
20 I WOULD LIKE TO PROCEED WOULD BE TO,
AGAIN, ASK THE
21 COURT TO TAKE JUDICIAL NOTICE OF ITS PRIOR
JUDGMENT, AND
22 TO JUST SPECIFY PARTICULAR MATTERS THAT
WERE DETERMINED
23 IN THAT JUDGMENT AS SORT OF THE
EVIDENTIARY FOUNDATION
24 OF THE CASE THAT I WILL MAKE AGAINST THE
DELAWARE LLC.
25 I WILL THEN ASK MR. PERRY A FEW QUESTIONS
TO
26 IN EFFECT UPDATE THE RULINGS THAT WERE
MADE SINCE VERY
27 RECENTLY. AS YOUR HONOR IS AWARE, THE
DEFENDANTS HAVE
28 FILED ANOTHER DOCUMENT.
-251 THE COURT: EXCUSE ME. WE HAVE A PROPOSED
ORDER
2 HERE. IT WAS RECEIVED MARCH 1 FROM YOU.
PROPOSED ORDER
p. 139 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

3 GRANTING PLAINTIFF'S MOTION FOR SUMMARY
ADJUDICATION OF
4 THE FIFTH CAUSE OF ACTION. THAT'S THE
DOCUMENT TO WHICH
5 YOU WERE REFERRING EARLIER?
6 MR. BERKE: DOES IT SAY "JUDGMENT" AT THE
END
7 THERE?
8 THE COURT: IT DOES SAY "AND JUDGMENT
THEREON."
9 MR. BERKE: THAT IS THE DOCUMENT I WAS
REFERRING
10 TO.
11 THE COURT: WELL, WHAT I'M PREPARED TO DO IS
STRIKE
12 OUT "AND JUDGMENT THEREON" IN THE ORDER
AND SIGN IT.
13 MR. BERKE: THAT WOULD BE FINE, YOUR HONOR.
14 THE COURT: OKAY. I'VE MODIFIED THE
DOCUMENT TO
15 PROVIDE THAT THE MOTION IS WHAT I SAID
EARLIER. I'M
16 GRANTING THE MOTION AND WILL, UPON THE
CONCLUSION OF THE
p. 140 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

17 CURRENT TRIAL PROCEEDINGS, ENTER
JUDGMENT WITH RESPECT
18 TO THE SUMMARY ADJUDICATION OF THE FIFTH
CAUSE OF
19 ACTION.
20 I'VE ALSO MODIFIED THE THIRD PARAGRAPH OF
THIS
21 PROPOSED ORDER WHICH SAYS, "ANY JUDGMENT
THAT IS
22 ULTIMATELY ENTERED IN THIS CASE SHALL
INCLUDE THE
23 MATTERS SO ADJUDICATED TO PROVIDE ANY
FURTHER JUDGMENT,"
24 BECAUSE THERE HAS ALREADY BEEN AT LEAST
ONE JUDGMENT.
25 MR. BERKE: THANK YOU, YOUR HONOR.
26 THE COURT: THAT'S BEEN SIGNED.
27 MR. MARZET: CAN WE GET A COPY OF IT?
28 THE COURT: YOU'LL GET SERVED WITH A COPY,
YES.
-261 AT THIS POINT, I ONLY HAVE THE ORIGINAL. IF
2 YOU WISH A COPY, YOU CAN p. 141 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

3 MR. BERKE: YOUR HONOR
4 THE COURT: MR. BERKE, YOU'LL SEND THEM A
COPY?
5 MR. BERKE: NOTHING IS SIMPLE IN THIS CASE. I
6 THINK I'M DUTY BOUND TO COMMUNICATE WITH
THEIR COUNSEL.
7 I WILL SEND A COPY TO THEIR COUNSEL.
8 THE COURT: OR, SIR, YOU CAN GET ONE IN ABOUT
A
9 WEEK. A COPY WILL BE IN THE COURT FILE, AND
YOU CAN
10 COPY IT THERE. IF YOU KNOW HOW TO GO
ONLINE TO GET
11 COPIES OF DOCUMENTS, YOU CAN DO IT THAT
WAY. ANY OF THE
12 ABOVE WILL WORK.
13 OKAY. GO AHEAD, MR. BERKE.
14 MR. BERKE: SO WHAT I WOULD LIKE TO DO IS
SIMPLY
15 READ INTO THE RECORD, IF THE COURT IS
AMENABLE TO THAT,
16 VARIOUS DETERMINATIONS THAT WERE MADE
IN THE JUNE 3RD,

p. 142 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

17 2009 JUDGMENT. AND THEN FOLLOW UP WITH
MR. PERRY ON A
18 FEW QUESTIONS. AND I CAN PROBABLY DO THAT
IN 20
19 MINUTES.
20 THE COURT: PLEASE PROCEED.
21 MR. BERKE: OKAY. BEGINNING WITH THE
22 THE COURT: ARE YOU ASKING ME TO TAKE
JUDICIAL
23 NOTICE OF WHAT YOU'RE READING?
24 MR. BERKE: YES. THE JUDICIAL NOTICE OF THE
25 JUDGMENT PREVIOUSLY 26 THE COURT: SLOW DOWN.
27 MR. BERKE: JUDICIAL NOTICE OF THE JUDGMENT
28 PREVIOUSLY ENTERED AND JUST –
-271 THE COURT: OF WHAT DATE?
2 MR. BERKE: JUNE 3RD, 2009.
3 THE COURT: THAT'S A JUDGMENT THAT I SIGNED;
4 CORRECT?
5 MR. BERKE: IT IS, YOUR HONOR.
p. 143 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

6 THE COURT: I'LL TAKE -- I'LL TAKE JUDICIAL
NOTICE
7 OF THE JUDGMENT ENTERED -- SIGNED ON OR
ABOUT JUNE 3,
8 2009.
9 WHEN WAS IT ENTERED?
10 MR. BERKE: IT WAS ENTERED JUNE 3RD, 2009.
11 THE COURT: OKAY. I'LL TAKE JUDICIAL NOTICE
OF
12 THAT PURSUANT TO THE CALIFORNIA RULES OF
EVIDENCE WHICH
13 PERMIT JUDICIAL NOTICE OF OFFICIAL COURT
DOCUMENTS.
14 THEN I DON'T THINK YOU HAVE TO READ IT, DO
YOU?
15 MR. BERKE: OKAY. JUST FOUNDATIONALLY, I
THOUGHT
16 IT WOULD MAKE MORE SENSE.
17 THE COURT: I'M GOING TO TAKE JUDICIAL
NOTICE OF
18 IT. SO IT'S NOW PART OF THE RECORD IN THIS
TRIAL. WHAT
19 IS IT YOU WANTED TO HIGHLIGHT? 20 MR.
BERKE: WHAT I WOULD LIKE TO DO IS MAYBE p. 144 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

21 THE COURT: SLOW DOWN, PLEASE.
22 MR. BERKE: WHAT I WOULD LIKE TO DO IS
MAYBE JUST
23 HIGHLIGHT AND SUMMARIZE THE RELEVANT
PROVISIONS THAT
24 WOULD THEN SERVE AS THE PREDICATE FOR MY
QUESTIONS FOR
25 MR. PERRY.
26 THE COURT: GO AHEAD.
27 MR. BERKE: NUMBER ONE OF THAT JUDGMENT
CONFIRMS
28 THAT THE CALIFORNIA LLC -- I'LL REFER TO THE
PLAINTIFF
-281 LLC AS THE CALIFORNIA LLC, AND THE
DEFENDANT LLC AS THE
2 DELAWARE LLC.
3 THE COURT: YES.
4 MR. BERKE: NUMBER ONE OF THE JUDGMENT -PARAGRAPH
5 ONE OF THE JUDGMENT CONFIRMS THAT THE
PLAINTIFF LLC IS
6 THE SOLE OWNER OF THE SUBJECT PROPERTY
WHICH IS LOCATED
p. 145 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

7 AT 1130 SOUTH HOPE STREET IN LOS ANGELES.
8 PARAGRAPH TWO CONFIRMS THAT THE PLAINTIFF
LLC
9 HAS NOT BEEN CANCELED AND REMAINS A VALID
AND EXISTING
10 LLC ENTITY.
11 PARAGRAPH THREE CONFIRMS THAT ROSARIO
PERRY
12 IS, AND HAS BEEN SINCE ITS INCEPTION, THE
SOLE MANAGER
13 OF THE PLAINTIFF LLC, AND THAT NONE OF THE
NAMED
14 DEFENDANTS HAVE EVER JOINTLY, SEVERALLY
OR IN ANY
15 COMBINATION HAD ANY AUTHORITY TO TAKE
ACTION ON BEHALF
16 OF THE PLAINTIFF LLC.
17 NUMBER FIVE
18 THE COURT: BY "NUMBER," YOU MEAN
PARAGRAPH FIVE?
19 MR. BERKE: YES, I'M SORRY. PARAGRAPH FIVE
STATES
20 THAT TRUE HARMONY HAS NOT HAD ANY
INTEREST IN THE
p. 146 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

21 PROPERTY THAT COULD BE TRANSFERRED OR
ENCUMBERED SINCE
22 OCTOBER 9, 2003.
23 YOUR HONOR, IF I MAY, I ATTACHED A COPY OF
24 THIS JUDGMENT TO MY TRIAL BRIEF.
25 THE COURT: I HAVE IT.
26 OKAY. ALL RIGHT. I'M TRYING TO MAKE
27 IT EASIER.
28 PARAGRAPH 6 -291 THE COURT: IT'S EXHIBIT C TO YOUR TRIAL BRIEF?
2 MR. BERKE: YES.
3 PARAGRAPH SIX SAYS THAT, "ANY ATTEMPTS BY
ANY
4 OF THE DEFENDANTS HEREIN TO TRANSFER AN
INTEREST IN THE
5 PROPERTY OR ENCUMBER IT SUBSEQUENT TO
OCTOBER 9TH, 2003
6 ARE VOID AS A MATTER OF LAW."
7 PARAGRAPH 7 SPECIFICALLY STATES THAT
VARIOUS

p. 147 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

8 PURPORTED TRANSFERS AND/OR ENCUMBRANCES
ARE VOID AS A
9 MATTER OF LAW. AND I'LL JUST HIGHLIGHT ONE
FOR THE
10 COURT SINCE IT WAS THE TRANSFER THAT
PURPORTEDLY GAVE
11 TITLE TO THE DELAWARE LLC, WHICH IS
REFERENCED IN
12 PARAGRAPH 7(E). AND IT IS THE QUITCLAIM
DEED DATED
13 FEBRUARY 7TH, 2008 FROM TRUE HARMONY TO
THE DELAWARE LLC
14 SIGNED BY MR. BENSKIN AND RECORDED ON
FEBRUARY 7, 2008.
15 PARAGRAPH 8 STATES THAT ROSARIO PERRY IS
16 AUTHORIZED, AS THE MANAGER OF THE
PLAINTIFF LLC, TO
17 IMMEDIATELY TAKE POSSESSION OF THE
PROPERTY AND TO
18 MARKET IT FOR SALE AND SELL IT.
19 PARAGRAPH 9 STATES THAT NO VOTE HAS EVER
BEEN
20 TAKEN PURSUANT TO THE REQUIREMENTS OF
THE CALIFORNIA
p. 148 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

21 CORPORATIONS CODE THAT WOULD REMOVE
MR. PERRY AS
22 MANAGER.
23 PARAGRAPH 10 SAYS, THAT NO ONE OTHER THAN
24 ROSARIO PERRY HAS EVER HAD AUTHORITY TO
SIGN INSTRUMENTS
25 ON BEHALF OF THE PLAINTIFF LLC.
26 PARAGRAPH 11 SAYS, THAT NO ONE OTHER THAN
27 MR. PERRY HAS EVER HAD AUTHORITY TO FILE
DOCUMENTS ON
28 BEHALF OF THE PLAINTIFF LLC WITH THE
CALIFORNIA
-301 SECRETARY OF STATE.
2 PARAGRAPH 12 SAYS, THAT THE DOCUMENTS
FILED
3 WITH THE SECRETARY OF STATE THAT
PURPORTED TO CHANGE THE
4 MEMBERSHIP OF THE PLAINTIFF LLC AND CANCEL
IT WERE NOT
5 AUTHORIZED AND VOID.
6 PARAGRAPH 13 SPECIFIES THE VARIOUS
DOCUMENTS
p. 149 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

7 THAT WERE DEEMED TO BE VOID, INCLUDING, IN
PARAGRAPH
8 13(D), THE PURPORTED CERTIFICATE OF
CANCELATION OF THE
9 PLAINTIFF LLC.
10 AND THEN I'LL JUST SKIP TO PARAGRAPH 17. JUST
11 THREE MORE. IT SAYS THAT THE ACTIONS OF
TRUE HARMONY
12 AND ITS AGENTS THAT ARE SET FORTH IN THE
JUDGMENT
13 CONSTITUTED AN ABUSE OF PROCESS.
14 PARAGRAPH 18 STATES THAT THE ACTIONS OF
TRUE
15 HARMONY AND ITS AGENTS AND
REPRESENTATIVES, AS SPECIFIED
16 IN THE JUDGMENT, WERE FRAUDULENT AND IN
VIOLATION OF
17 THEIR CONTRACTUAL AND FIDUCIARY
OBLIGATIONS TO BOTH THE
18 PLAINTIFF LLC AND ITS 50 PERCENT MEMBER,
HOPE PARK
19 LOFTS.
20 AND THEN, FINALLY, PARAGRAPH 19 SAYS THAT

p. 150 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

21 THOSE ACTIONS CONSTITUTE A VIOLATION OF
TRUE HARMONY'S
22 DUTY OF LOYALTY UNDER THE OPERATING
AGREEMENT.
23 THE COURT: DID PARAGRAPH 17, 18 AND 19 ARISE
OUT
24 OF THE -- ARE BASED ON THE ARBITRATOR'S
FINDINGS?
25 MR. BERKE: YES.
26 THE COURT: GO AHEAD.
27 MR. BERKE: SO THOSE ARE THE DOCUMENTS
THAT HAVE
28 ALREADY BEEN -- I'M SORRY, STRIKE THAT.
-311 THOSE ARE THE FACTS THAT HAVE ALREADY
BEEN
2 DETERMINED BY THIS COURT. AND BASED ON
THAT, AS A
3 PREDICATE, I WOULD LIKE TO CALL MR. PERRY AS
A WITNESS.
4 THE COURT: WHEN YOU SAY THE "FACTS HAVE
BEEN
5 DETERMINED," AN ARBITRATOR HAD A HEARING.
AN ARBITRATOR
p. 151 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

6 MADE CERTAIN FINDINGS OF FACT AND
CONCLUSIONS OF LAW. A
7 PETITION TO CONFIRM THE ARBITRATION AWARD
WAS MADE.
8 CORRECT?
9 MR. BERKE: CORRECT.
10 THE COURT: AND IN TERM OF THIS BENCH
OFFICER, I 11 I MADE A RULING CONFIRMING THAT AWARD;
CORRECT?
12 MR. BERKE: YES.
13 THE COURT: SO I DIDN'T INDEPENDENTLY MAKE
FINDINGS
14 OF FACT.
15 MR. BERKE: CORRECT.
16 THE COURT: OKAY.
17 MR. BERKE: BUT YOU ENTERED THE JUDGMENT.
18 THE COURT: I UNDERSTAND. I THINK YOU JUST
SAID
19 "THIS COURT MADE FINDINGS OF FACT." I JUST
WANTED TO
20 CLARIFY WHAT I DID. I CONFIRMED THE
ARBITRATION AWARD.
p. 152 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

21 MR. BERKE: JUST SO I CAN 22 THE COURT: AND ENTERED THE JUDGMENT.
23 MR. BERKE: THE FACTS HAVE BEEN ALREADY
DETERMINED
24 IN THIS MATTER.
25 THE COURT: CORRECT, THROUGH THE
ARBITRATION AND
26 THEN CONFIRMATION OF THE AWARD.
27 MR. BERKE: CORRECT.
28 THE COURT: WOULD YOU COME FORWARD
PLEASE, SIR.
-321 THE CLERK: YOU DO SOLEMNLY SWEAR THAT THE
2 TESTIMONY YOU ARE ABOUT TO GIVE IN THE
CAUSE NOW PENDING
3 BEFORE THIS COURT SHALL BE THE TRUTH, THE
WHOLE TRUTH,
4 AND NOTHING BUT THE TRUTH, SO HELP YOU
GOD?
5 THE WITNESS: I DO.
6 THE CLERK: PLEASE STATE AND SPELL YOUR
NAME.
7 THE WITNESS: ROSARIO PERRY, R-O-S-A-R-I-O,
p. 153 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

8 P-E-R-R-Y.
9 THE COURT: GOOD MORNING, SIR.
10 PLEASE PROCEED.
11
12 DIRECT EXAMINATION
13 BY MR. BERKE:
14 Q MR. PERRY, DO YOU REMAIN THE MANAGER OF
THE
15 CALIFORNIA LLC AS OF THIS DATE?
16 A I DO.
17 Q AND 18 THE COURT: BY THE "CALIFORNIA LLC," ARE YOU
– TO 19 WHAT ARE YOU REFERRING, SIR?
20 THE WITNESS: 1130 SOUTH HOPE STREET
INVESTMENT
21 LLC, A CALIFORNIA CORPORATION.
22 BY MR. BERKE:
23 Q INVESTMENT ASSOCIATES?
24 THE COURT: 1130 SOUTH HOPE STREET
INVESTMENT

p. 154 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

25 ASSOCIATES LLC, A CALIFORNIA LIMITED
LIABILITY COMPANY;
26 IS THAT CORRECT?
27 THE WITNESS: YES.
28 BY MR. BERKE:
-331 Q IF I MAY, I'LL REFER TO THAT AS THE
CALIFORNIA
2 LLC.
3 A THANK YOU.
4 Q AND DOES THE CALIFORNIA LLC CONTINUE TO
OWN
5 THE PROPERTY LOCATED AT 1130 SOUTH HOPE
STREET?
6 A YES.
7 Q AND DID YOU EVER AUTHORIZE JOHN MARZET
TO SIGN
8 ANY DOCUMENTS ON BEHALF OF THE
CALIFORNIA LLC?
9 A NO.
10 Q DID YOU EVER AUTHORIZE SAMUEL BENSKIN
TO SIGN

p. 155 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

11 ANY DOCUMENTS ON BEHALF OF THE
CALIFORNIA LLC?
12 A NO.
13 Q DID YOU EVER AUTHORIZE PRICILLA TURNER
TO SIGN
14 ANY DOCUMENTS ON BEHALF OF THE
CALIFORNIA LLC?
15 A NO.
16 Q DID YOU EVER AUTHORIZE ANYBODY TO SIGN
ANY
17 DOCUMENTS THAT WERE PURPORTED TO
TRANSFER AN INTEREST OR
18 ENCUMBER THE SUBJECT PROPERTY ON BEHALF
OF THE
19 CALIFORNIA LLC?
20 A NO.
21 Q DID YOU EVER AUTHORIZE ANYBODY TO FILE
ANY
22 DOCUMENTS WITH THE CALIFORNIA SECRETARY
OF STATE THAT
23 WOULD PURPORT TO ALTER THE MEMBERSHIP
OR CANCEL THE
24 CALIFORNIA LLC?
25 A NO.
p. 156 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

26 Q IF I COULD SHOW TO YOU A DOCUMENT THAT
I'M
27 GOING TO MARK AS EXHIBIT 1.
28 THE COURT: WHAT IS EXHIBIT 1, PLEASE?
-341 MR. BERKE: IT IS A -- I'LL SHOW IT TO YOU
2 GENTLEMEN HERE AS WELL.
3 IT IS A QUITCLAIM DEED THAT WAS -4 THE COURT: HOW MANY PAGES IS IT?
5 MR. BERKE: WITH THE CERTIFICATION, IT'S FIVE
6 PAGES.
7 THE COURT: WAS -- IT'S A QUITCLAIM DEED, FIVE
8 PAGES. AND WHAT'S THE DATE?
9 MR. BERKE: IT WAS -- IT'S DATED DECEMBER 10TH,
10 2009.
11 THE COURT: OKAY.
12 MR. BERKE: RECORDED DECEMBER 22ND, 2009.
13 OKAY. EXHIBIT 1, QUITCLAIM 14 FIVE-PAGE QUITCLAIM DEED AND ASSOCIATED
MATERIALS DATED

p. 157 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

15 ON OR ABOUT DECEMBER 10, 2009 IS MARKED
FOR
16 IDENTIFICATION.
17
18 (EXHIBIT 1 WAS MARKED FOR IDENTIFICATION)
19
20 MR. BERKE: I APOLOGIZE. THE DEED ITSELF IS
ONLY
21 THREE PAGES, BUT THERE'S 22 THE COURT: THAT'S WHY I SAID WHAT I SAID,
"DEED
23 AND ASSOCIATED DOCUMENTS."
24 MR. BERKE: YES. SO THE DEED ITSELF
25 THE COURT: I'M JUST IDENTIFYING THE EXHIBIT.
ARE
26 YOU PLANNING TO PRESENT ALL FIVE PAGES AS
YOUR EXHIBIT?
27 MR. BERKE: I AM PLANNING ON PRESENTING
THREE
28 PAGES.
-351 THE COURT: THREE PAGES.
p. 158 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

2 MR. BERKE: WITH THE CERTIFIED STAMP ON IT.
3 THE COURT: WHAT ARE THE THREE PAGES YOU'RE
4 PRESENTING AS EXHIBIT 1?
5 MR. BERKE: ONE IS THE -- PAGE 1 WOULD BE THE
6 RECORDING LEAD SHEET.
7 THE COURT: OKAY.
8 MR. BERKE: PAGE 2 WOULD BE THE QUITCLAIM
DEED
9 ITSELF.
10 THE COURT: YES.
11 MR. BERKE: PAGE 3 WOULD BE THE
NOTARIZATION PAGE.
12 THE COURT: THOSE THREE PAGES AS IDENTIFIED
WILL
13 COMPRISE EXHIBIT 1 MARKED FOR
IDENTIFICATION.
14 PLEASE PRESENT THOSE THREE PAGES TO THE
CLERK.
15 MR. BERKE: I'M GIVING THE ORIGINAL CERTIFIED
COPY
16 TO THE CLERK.
17 THE COURT: THAT'S FINE.
p. 159 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

18 DO YOU HAVE A COPY FOR THE WITNESS?
19 MR. BERKE: YES. MAY I JUST APPROACH HIM?
20 THE COURT: YOU MAY.
21 BY MR. BERKE:
22 Q MR. PERRY, DID YOU AUTHORIZE JOHNATHAN
MARZET
23 TO SIGN THAT PARTICULAR DOCUMENT THAT
WE HAVE MARKED AS
24 EXHIBIT 1?
25 A NO.
26 Q DID YOU AUTHORIZE MR. HAIEM TO SIGN THAT
27 DOCUMENT THAT WE'VE MARKED AS EXHIBIT 1?
28 A NO.
-361 Q DID YOU AUTHORIZE THE RECORDING OF THAT
2 DOCUMENT?
3 A NO.
4 Q WERE YOU AWARE OF THAT DOCUMENT PRIOR
TO THE
5 TIME IT WAS RECORDED?
6 A NO.
p. 160 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

7 Q DID YOU, ON BEHALF OF THE CALIFORNIA LLC,
EVER
8 INTEND TO TRANSFER THAT PROPERTY TO THE
DELAWARE LLC?
9 A NO.
10 Q IN FACT, YOU FILED A SUIT AGAINST THE
DELAWARE
11 LLC, DID YOU NOT?
12 A YES.
13 Q AND WHY DID YOU FILE THAT LAWSUIT?
14 A TO STOP THE IMPROPER TRANSFERS OR
RECORDING OF
15 DOCUMENTS THAT ALLEGEDLY ATTEMPTED TO
TRANSFER THE
16 PROPERTY AWAY FROM THE CALIFORNIA LLC TO
ANY OTHER
17 ENTITY BECAUSE IT WAS ENDLESS LITIGATION.
AND WE WANTED
18 TO GET THE PROPERTY SOLD AND ASSETS
DISTRIBUTED.
19 Q HOW LONG -- TO YOUR KNOWLEDGE, HOW
LONG HAVE
20 YOU BEEN IN LITIGATION WITH REGARD TO THIS
PROPERTY?
p. 161 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

21 A WE STARTED IN 2000 OR 2001.
22 Q AND IS IT YOUR BELIEF THAT INJUNCTIVE
RELIEF
23 IS NECESSARY IN THIS ACTION TO STOP WHAT
HAS HAPPENED?
24 A YES.
25 MR. BERKE: I'VE GOT NO FURTHER QUESTIONS.
26 THANK YOU FOR YOUR TESTIMONY, SIR. YOU
27 MAY STEP DOWN.
28 MR. BERKE: YOUR HONOR, BASED ON THE
EVIDENCE THAT
-371 WAS PRESENTED, I WOULD REQUEST THAT THE
COURT ENTER
2 JUDGMENT ON THE
3 THE COURT: ARE YOU MOVING THE ADMISSION OF
EXHIBIT
4 1?
5 MR. BERKE: I'M SORRY. I AM MOVING EXHIBIT 1
TO BE
6 ADMITTED.
7 THE COURT: EXHIBIT 1 WILL BE ADMITTED.
p. 162 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

8
9 (EXHIBIT 1 WAS RECEIVED INTO EVIDENCE
10 BY THE COURT)
11
12 THE COURT: ARE YOU OFFERING ANY OTHER
EVIDENCE
13 BESIDES THE EXHIBIT AND THE TESTIMONY?
14 MR. BERKE: AND THE JUDICIALLY NOTICED
FACTS.
15 THE COURT: SO PLAINTIFF RESTS?
16 MR. BERKE: PLAINTIFF RESTS.
17 IF I MAY SUM UP?
18 THE COURT: YES, GO AHEAD.
19 MR. BERKE: BASED ON THE EVIDENCE THAT HAS
BEEN
20 SUBMITTED, IN ADDITION TO THE FACTS
PREVIOUSLY
21 DETERMINED IN THIS MATTER, I WOULD
REQUEST THAT THE
22 COURT ENTER JUDGMENT BASED -- I'M SORRY,
JUDGMENT ON THE
23 FIFTH CAUSE OF ACTION TO THE FIRST AMENDED
COMPLAINT
p. 163 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

24 HEREIN, WHICH IS THE CAUSE OF ACTION FOR
DECLARATORY
25 RELIEF AND INJUNCTIVE RELIEF, THE SAME
CAUSE OF ACTION
26 THAT WAS ADJUDICATED IN THE SUMMARY
ADJUDICATION MOTION.
27 THE COURT: WHAT'S THE DATE OF THE
COMPLAINT?
28 MR. MARZET: MAY 20, 2010.
-381 MR. BERKE: I DON'T THINK SO.
2 THE COURT: JUST A SECOND.
3 MR. MARZET: 2009, SIR.
4 THE COURT: THANK YOU, MR. MARZET. JUST ONE
5 SECOND.
6 I HAVE A COPY OF THE FIRST AMENDED
COMPLAINT
7 FOR DECLARATORY AND INJUNCTIVE RELIEF
FILED MAY 20,
8 2008, WHICH IS -- THE COMPLAINT ITSELF IS 14
PAGES. AND
9 THEN THERE'S AN EXHIBIT A ATTACHED TO THE
COMPLAINT.
p. 164 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

10 THE FIFTH CAUSE OF ACTION IS FOR
DECLARATORY
11 RELIEF AND INJUNCTIVE RELIEF AGAINST ALL
DEFENDANTS
12 EXCEPT HOPE PARK. AND ONE OF THE
DEFENDANTS IS 1130
13 SOUTH HOPE STREET INVESTMENT ASSOCIATES
LLC, THE
14 DELAWARE LLC.
15 GO AHEAD.
16 MR. BERKE: IN EFFECT, YOUR HONOR, WHAT I
WOULD
17 REQUEST IS THAT THE COURT ENTER JUDGMENT
AGAINST THE
18 DEFENDANT DELAWARE LLC ON THE SAME
TERMS AS THE
19 ADJUDICATION ORDER WAS ENTERED AGAINST
THE OTHER
20 PARTIES.
21 THE COURT: WAS THE DELAWARE LLC A PARTY
TO THE
22 ARBITRATION?
23 MR. BERKE: NO, IT WAS NOT. THE SUMMARY

p. 165 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

24 ADJUDICATION MOTION WAS NOT BASED UPON
THE ARBITRATION.
25 THE COURT: I UNDERSTAND. BUT WHEN YOU SAY
THE
26 "SAME ORDER," ARE YOU TALKING ABOUT THE
ORDER FROM WHICH
27 YOU WERE READING EARLIER?
28 MR. BERKE: NO. I'M TALKING ABOUT THE ORDER
WHICH
-391 YOUR HONOR SIGNED TODAY.
2 THE COURT: IN OTHER WORDS, YOU'RE SEEKING
RELIEF
3 IN THE FORM OF DECLARATORY AND INJUNCTIVE
RELIEF TO THE
4 EFFECT THAT THE PLAINTIFF HAS THE SOLE
INTEREST IN THE
5 UNDERLYING PROPERTY, AND THAT THE
DEFENDANT IN THIS PART
6 OF THE PROCEEDING - I.E., THE DELAWARE LLC HAS NO
7 INTEREST IN THE REAL PROPERTY?
8 MR. BERKE: CORRECT.
9 AND IF I COULD ADD TO THAT JUST A SPECIFIC
p. 166 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

10 RULING THAT THE EXHIBIT 1 QUITCLAIM DEED IS
VOID FOR
11 BEING WITHOUT AUTHORIZATION.
12 THE COURT: AND THAT'S THE DEED DATED
DECEMBER 10,
13 2009, THAT WAS EXHIBIT 1; CORRECT?
14 MR. BERKE: CORRECT.
15 THE COURT: BASED ON THE EVIDENCE THAT'S
BEEN
16 SUBMITTED AT THE TRIAL TODAY, IN
CONJUNCTION WITH OTHER
17 MATERIALS THAT I PREVIOUSLY -- IN THE
CONTEXT OF THE
18 OTHER MATERIALS THAT I PREVIOUSLY
REVIEWED, BUT NOT 19 THE COURT WILL DO THE FOLLOWING:
20 ONE, I'VE ADMITTED EXHIBIT 1. AND I'VE HEARD
21 THE TESTIMONY OF 22 MR. BERKE: MR. PERRY.
23 THE COURT: -- MR. ROSARIO PERRY.
24 BASED ON THE EVIDENCE THAT'S BEEN
SUBMITTED AT

p. 167 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

25 THE TRIAL, I FIND THAT IT'S BEEN ESTABLISHED
BY THE
26 APPROPRIATE STANDARD OF PROOF -- WHAT IS
THE STANDARD OF
27 PROOF, CLEAR AND CONVINCING EVIDENCE?
28 MR. BERKE: YES.
-401 THE COURT: THAT'S THE STANDARD IN A QUIET
TITLE
2 ACTION?
3 MR. BERKE: THIS IS DECLARATORY RELIEF.
4 THE COURT: BUT YOU'RE SEEKING TO QUIET
TITLE,
5 AREN'T YOU?
6 MR. BERKE: BASICALLY WE'RE USING THE
DECLARATORY
7 RELIEF RULING TO QUIET TITLE IN THAT WAY.
8 THE COURT: WELL, THERE IS CLEAR AND
CONVINCING
9 EVIDENCE THAT'S BEEN PRESENTED THAT THE
CALIFORNIA LLC
10 IS THE SOLE HOLDER OF AN INTEREST IN THE
UNDERLYING REAL
p. 168 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

11 ESTATE; THAT THE DELAWARE LLC HOLDS NO
INTEREST AND HAS
12 PREVIOUSLY HELD NO INTEREST IN THE
UNDERLYING PROPERTY.
13 ACCORDINGLY, THE COURT WILL GRANT THE -FINDS
14 THAT A BASIS EXISTS TO GRANT THE -- BOTH
DECLARATORY AND
15 INJUNCTIVE RELIEF AND DETERMINE THAT AS TO
THE REMAINING
16 ELEMENT OF THIS -- THIS ACTION - I.E., THE FIFTH
CAUSE
17 OF ACTION AGAINST THE CALIFORNIA LLC - THE
RELIEF IS
18 GRANTED. THE COURT FINDS, BASED ON THE
EVIDENCE
19 SUBMITTED, THAT THE CALIFORNIA LLC IS THE
SOLE OWNER OF
20 THE UNDERLYING REAL PROPERTY LOCATED AT
1130 SOUTH HOPE
21 STREET. THAT THE CALIFORNIA (SIC) LLC
DEFENDANT HOLDS
22 NO INTEREST. THAT ANY PRIOR FILINGS OF
CLAIMING

p. 169 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

23 INTEREST BY PRIOR FILINGS ANY -- ANY PRIOR
FILINGS OF
24 RECORD IN THE LOS ANGELES COUNTY
RECORDER'S OFFICE IN
25 THE PUBLIC RECORDS OF LOS ANGELES COUNTY
BY THE
26 DEFENDANT DELAWARE LLC ASSERTING AN
INTEREST IN THE
27 PROPERTY OR CLAIMING THAT AN INTEREST IS
HELD BY THE
28 DELAWARE LLC AS RESULT OF SUCH A FILING
ARE DEEMED –
-411 ARE VOID. AND MAKING THE DELAWARE -EXCUSE ME, MAKING
2 THE CALIFORNIA LLC WHAT I SAID, THE SOLE
OWNER OF THIS
3 PROPERTY.
4 MR. BERKE: THANK YOU, YOUR HONOR. I WILL 5 THE COURT: BY FINDING AS I JUST STATED THAT
ANY
6 PRIOR FILINGS -- PURSUANT TO WHICH ANY -PURSUANT TO

p. 170 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

7 WHICH THE DEFENDANT HERE, THE DELAWARE
LLC, ASSERTED ANY
8 OWNERSHIP INTEREST IN THE PROPERTY
INCLUDING BUT -- THAT
9 INCLUDES, BUT IS NOT LIMITED TO EXHIBIT 1. SO
EXHIBIT 1
10 IS VOID.
11 MR. BERKE: THANK YOU, YOUR HONOR.
12 THE COURT: NOW, YOU -- IT'S SO ORDERED. YOU
CAN
13 PREPARE THEN WHAT WILL BE THE FINAL
JUDGMENT IN THE
14 CASE; CORRECT?
15 MR. BERKE: I WILL.
16 THE COURT: OKAY
17 MR. BERKE: THANK YOU, YOUR HONOR.
18 THE COURT: THANK YOU.
19
20 (END OF PROCEEDINGS)

p. 171 (A10), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

#A11

Appendix A11 – Docket of BC385560
CASE INFORMATION
Case Information | Register Of Actions | FUTURE
HEARINGS | PARTY INFORMATION | Documents Filed |
Proceedings Held
Case Number: BC385560
1130 SOUTH HOPE STREET INVESTMENT
ASSOCIATES LLC VS 1130 SOU
Filing Courthouse: Stanley Mosk Courthouse
Filing Date: 02/14/2008
Case Type: Other Real Property (not eminent domain,
landlord/tenant, foreclosure) (General Jurisdiction)
Status: Judgment by Court 04/22/2010
Click here to access document images for this case
If this link fails, you may go to the Case Document Images
site and search using the case number displayed on
this page
FUTURE HEARINGS
Case Information | Register Of Actions | FUTURE
HEARINGS | PARTY INFORMATION | Documents Filed |
Proceedings Held
None
PARTY INFORMATION
Case Information | Register Of Actions | FUTURE
HEARINGS | PARTY INFORMATION | Documents Filed |
Proceedings Held
1130 SOUTH HOPE STREET INVESTMENT ASSOCI- Plaintiff
BENSKIN SAMUEL F. - Defendant
BERKE JEFF ESQ. - Attorney for Plaintiff
COHEN LOTTIE LAW OFFICES OF - Attorney for
Defendant
DAVIS HERBERT ESQ. - Attorney for Defendant
HAIEM FARZAD - Defendant/Respondent's AKA
HAIEM RAY - Defendant/Respondent's AKA
MARZET JOHNATHAN - Defendant
p. 172 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

MARZET JONATHAN - Attorney for Defendant
NEDIATHAIEM FARZAD - Defendant
NEDJAT-HAIEM FARZAD - Defendant/Respondent's AKA
POGHOSYAN RUZANNA ESQ. - Attorney for Defendant
RAY OF LIFE CHARITABLE FOUNDATION - Defendant
TARVER LA VANCE - Defendant
TARVER LAVANCE - Defendant
TORABI KASRA ESQ. - Attorney for Defendant
TRUE HARMONY INC. - Defendant
TURNER PRISCILLA - Attorney for Defendant
TURNER PRISCILLA DOE 1 - Defendant
TURNER TECHNICAL INSTITUTE INC. Defendant/Respondent's AKA
DOCUMENTS FILED
Case Information | Register Of Actions | FUTURE
HEARINGS | PARTY INFORMATION | Documents Filed |
Proceedings Held
Documents Filed (Filing dates listed in descending order)
Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
02/18/2010 09/02/2009 04/29/2009 10/02/2008 06/25/2008
09/04/2012 ORDER ON COURT FEE WAIVER
(SUPERIOR COURT)
05/21/2012 REPLY TO OPPOSITION OF RAY HAIEM, IN
PRO PER, TO HOPE PARK LOFTS LLCS MOTION
FOR ORDER COMPELLING ARBITRATION AS TO
APPROPRIATENESS OF INTERPLEADER ACTION...
DIRECTED SOLELY AGAINST PLAINTIFF 1130 HOPE
STREET INVESTMENT ASSOCIATES LLC,
02/15/2012 Minute Order
10/24/2011 STATEMENT OF DEFENDANTS NORMAN
SOLOMON AND HOPE PARK LOFTS LL.C RE
UNOTICE OF RELATED CASESU
10/24/2011 STATEMENT OF DEFENDANTS NORMAN
SOLOMON AND HOPE PARK LOFTS LIC RE NOTICE
OF RELATED CASES
10/24/2011 Notice of Related Case
p. 173 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by Defendant/Respondent
05/04/2010 MEMORANDUM OF COSTS (SUMMARY)
05/04/2010 Memorandum of Costs
Filed by Plaintiff/Petitioner
04/30/2010 Proof of Service (not Summons and Complaint)
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
04/27/2010 NOTICE OF ENTRY OF JUDGMENT
04/27/2010 Notice of Entry of Judgment
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
04/23/2010 OPPOSITION TO PLAINTIFFS MOTION TO
HAVE PROPOSED JUDGMENT SIGNED. LETTER
FROM PRISCILLA TURNER. DECLARATION FOR JOHN
MARZET
04/23/2010 Opposition Document
Filed by Turner, Priscilla (doe 1) (Defendant)
04/23/2010 Judgment
Filed by Plaintiff/Petitioner
04/22/2010 Minute Order
04/22/2010 {IH4)TM4I JUDGMENT IN FAVOR OF
PLAINTIFFS AND AGAINST DEFENDANTS 1130
SOUTH
HOPE STREET INVESTMENT ASSOCIATES, LUC, A
DELAWARE LIMITED LIABILITY COMPANY; LA
VANCE
TARVER; RAY OF LIFE CHARITABLE FOUNDATION, A
CALIFORNIA NON-PROFIT PUBLIC BENEFIT
CORPORATIO
04/22/2010 Judgment
Filed by Plaintiff/Petitioner
04/20/2010 PROOF OF SERVICE OF NOTICE OF ENTRY
OF JUDGMENT
04/08/2010 NOTICE OF ATTORNEYS' LIEN FOR FEES
AND COSTS
04/08/2010 Notice
p. 174 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
03/22/2010 NOTICE OF ENTRY OF ORDER OF
SUMMARY ADJUDICATION
03/22/2010 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/15/2010 ORDER GRANTING PLAINTIFFS' MOTION
FOR SUMMARY ADJUDICATION OF THE FIFTH
CAUSE OF ACTION
03/15/2010 REQUEST FOR DISMISSAL
03/15/2010 Minute Order
03/15/2010 REQUEST FOR DISMISSAL
03/15/2010 Request for Dismissal
Filed by Plaintiff/Petitioner
03/15/2010 Request for Dismissal
Filed by Plaintiff/Petitioner
03/15/2010 Order
Filed by Plaintiff/Petitioner
03/11/2010 PLAINTIFFS' TRIAL BRIEF
03/11/2010 NOTICE OF NON-OBJECTION TO PROPOSED
ORDER / JUDGMENT
03/11/2010 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/11/2010 Brief
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/10/2010 STATEMENT : OPPOSITION TO PLAINTIFF'S
( PROPOSED) ORDER GRANTING PLAINTIFFS
MOTION FOR SUMMARY ADJUDICATION OF, THE
FIFTH CAUSE OF ACTION AND ETC.
03/10/2010 Opposition Document
Filed by Johnathan Marzet (Defendant)
03/08/2010 NOTICE OF RULING
03/08/2010 Notice of Ruling
p. 175 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/05/2010 SUBSTITUTION OF ATTORNEY
03/05/2010 SUBSTITUTION OF ATTORNEY
03/05/2010 SUBSTITUTION OF ATTORNEY
03/05/2010 SUBSTITUTION OF ATTORNEY
03/05/2010 SUBSTITUTION OF ATTORNEY
03/05/2010 SUBSTITUTION OF ATTORNEY
03/05/2010 Minute Order
03/05/2010 SUBSTITUTION OF ATTORNEY
03/05/2010 Substitution of Attorney
Filed by Ray of Life Charitable Foundation (Defendant);
Farzad Haiem (Legacy Party)
03/05/2010 Substitution of Attorney
Filed by Farzad Haiem (Legacy Party)
03/05/2010 Substitution of Attorney
Filed by Johnathan Marzet (Defendant); True Harmony, Inc.
(Defendant)
03/05/2010 Substitution of Attorney
Filed by Samuel F. Benskin (Defendant)
03/05/2010 Substitution of Attorney
Filed by Turner, Priscilla (doe 1) (Defendant)
03/05/2010 Substitution of Attorney
Filed by Farzad Haiem (Legacy Party)
03/05/2010 Substitution of Attorney
Filed by Johnathan Marzet (Defendant)
03/01/2010 PLAINTIFFS' STATEMENT RE STATUS AND
TRIAL SETTING CONFERENCE
03/01/2010 Miscellaneous-Other
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
02/26/2010 NOTICE OF ENTRY OF ORDER GRANTING
RELIEF FROM BANKRUPTCY STAY
02/26/2010 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
p. 176 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

02/19/2010 PLAINTIFFS' OPPOSITION TO UNTIMELY
MOTION TO BE RELIEVED AS COUNSEL; ETC.
02/19/2010 NOTICE OF RULING RE STATUS
CONFERENCE AND OSC RE CONTEMPT
02/19/2010 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
02/19/2010 Opposition Document
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
TOP 02/18/2010 09/02/2009 04/29/2009 10/02/2008
06/25/2008
02/18/2010 PROOF OF SERVICE - CIVIL
02/18/2010 Minute Order
02/18/2010 Proof of Service (not Summons and Complaint)
Filed by Johnathan Marzet (Defendant); True Harmony, Inc.
(Defendant)
02/11/2010 PLAINTIFFS' REPORT RE STATUS
CONFERENCE AND OSC RE CONTEMPT
02/11/2010 Status Report
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
02/10/2010 DECLARATION IN SUPPORT OF
ATTORNEY'S MOTION TO BE RELIEVED AS
COUNSEL-CIVIL
02/10/2010 NOTICE OF MOTION AND MOTION TO BE
RELIEVED AS COUNSEL-CIVIL
02/10/2010 PROOF OF PERSONAL SERVICE - CIVIL
02/10/2010 NOTICE OF RULING RE ORDER TO SHOW
CAUSE RE CIVIL CONTEMPT
02/10/2010 Declaration
Filed by Defendant/Respondent
02/10/2010 Motion to Be Relieved as Counsel
Filed by Defendant/Respondent
02/10/2010 Proof-Personal Service
p. 177 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by Plaintiff/Petitioner
02/10/2010 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
02/05/2010 Minute Order
02/05/2010 Ex-Parte Application
Filed by Plaintiff/Petitioner
01/15/2010 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
01/14/2010 NOTICE OF ENTRY OF ORDER ON
STIPULATION TO CONTINUE STATUS CONFERENCE
01/08/2010 Minute Order
01/08/2010 STIPULATION TO CONTINUE STATUS
CONFERENCE; ORDER
01/08/2010 Stipulation
Filed by Plaintiff/Petitioner
12/29/2009 NOTICE OF RULING ON DEFENDANTS' EX
PARTE APPLICATION FOR STAY AND PLAINTIFFS'
MOTION FOR SUMMARY ADJUDICATION
12/29/2009 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
12/24/2009 Minute Order
12/24/2009 DECLARATION OF JOHNATHAN MARZET
IN SUPPORT OF DEFENDANTS' SUPPLEMENTAL
BRIEF
12/24/2009 Declaration
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
12/21/2009 Minute Order
12/17/2009 BANKRUPTCY CASES RELIED UPON BY
PLAINTIFFS
12/17/2009 PLAINTIFFS' BRIEF IN OPPOSITION TO
DEFENDANTS' EFFORTS TO STAY THE HEARING ON
PLAINTIFFS' SUMMARY ADJUDICATION MOTION
p. 178 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

12/17/2009 Miscellaneous-Other
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
12/17/2009 Brief
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
12/15/2009 SUBSTITUTION OF ATTORNEY
12/15/2009 SUBSTITUTION OF ATTORNEY
12/15/2009 NOTICE OF RULING
12/15/2009 SUBSTITUTION OF ATTORNEY
12/15/2009 SUBSTITUTION OF ATTORNEY
12/15/2009 SUBSTITUTION OF ATTORNEY
12/15/2009 DECLARATION OF KASRA TORABI IN
12/15/2009 SUBSTITUTION OF ATTORNEY
12/15/2009 SUBSTITUTION OF ATTORNEY
12/15/2009 SUBSTITUTION OF ATTORNEY
12/15/2009 SUBSTITUTION OF ATTORNEY
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 Declaration
p. 179 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
12/15/2009 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
12/14/2009 MINUTE ORDER
12/14/2009 SUBSTITUTION OF ATTORNEY
12/14/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/11/2009 NOTICE OF HEARING AND SUPPLEMENTAL
BRIEF IN SUPPORT OF APPLICATION FOR
ORDER STAYING ALL PROCEEDINGS PURSUANT TO
THE AUTOMATIC STAY, 11 U.S.C 1334 AND ETC.
12/11/2009 Notice of Hearing
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
12/10/2009 Minute Order
12/10/2009 ExParte Application & Order
Filed by Defendant/Respondent
12/08/2009 PLAINTIFFS' REPLY TO OPPOSITION TO
SUMMARY ADJUDICATION OF FIFTH CAUSE OF
ACTION
12/08/2009 PLAINTIFFS' REPLY TO DEFENDANTS'
OPPOSITION TO SEPARATE STATEMENT OF
UNDISPUTED MATERIAL FACTS IN SUPPORT OF
PLAINTIFFS' MOTION FOR SUMMARY
ADJUDICATION
OF THE FIFTH CAUSE OF ACTION
12/08/2009 PLAINTIFFS' OBJECTIONS TO
DEFENDANTS' PURPORTED EVIDENCE IN
OPPOSITION TO
MOTION FOR SUMMARY ADJUDICATION OF THE
FIFTH CAUSE OF ACTION
12/08/2009 Objection Document
p. 180 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by 1130 South Hope Street Investment Associ(Plaintiff)
12/08/2009 Reply/Response
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
12/08/2009 Reply/Response
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
11/20/2009 NOTICE OF RULING RE STATUS
CONFERENCE
11/20/2009 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
11/17/2009 Minute Order
11/02/2009 PLAINTIFFS' STATEMENT RE STATUS AND
TRIAL SETTING CONFERENCE
11/02/2009 Miscellaneous-Other
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
09/24/2009 DECLARATION OF ROSARIO PERRY IN
SUPPORT OF PLAINTIFFS' MOTION FOR SUMMARY
ADJUDICATION OF THE FIFTH CAUSE OF ACTION
09/24/2009 DECLARATION OF NORM SOLOMON IN
SUPPORT OF PLAINTIFFS' MOTION FOR SUMMARY
ADJUDICATION OF THE FIFTH CAUSE OF ACTION
09/24/2009 SEPARATE STATEMENT OF UNDISPUTED
MATERIAL FACTS IN SUPPORT OF PLAINTIFF 1130
SOUTH HOPE STREET INVESTMENT ASSOCIATES,
LLC'S MOTION, ETC
09/24/2009 DECLARATION OF JEFF BERKE IN
SUPPORT OF CROSS DEFENDANT COMONWEALTH
LAND
TITLE INSURANCE COMPANY'S AND, ETC
09/24/2009 REQUEST FOR JUDICIAL NOTICE IN
SUPPORT OF MOTION OF PLAINTIFF 1130 SOUTH
HOPE
p. 181 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

STREET INVESTMENT ASSOCIATION, LLC. FOR
SUMMARY ADJUDICATION, ETC
09/24/2009 NOTICE OF MOTION AND MOTION OF
PLAINTIFF 1130 SOUTH HOPE STREET INVESTMENT
ASSOCIATES, LLC FOR SUMMARY ADJUDICATION,
ETC
09/24/2009 Request for Judicial Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
09/24/2009 Declaration
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
09/24/2009 Motion
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
TOP 02/18/2010 09/02/2009 04/29/2009 10/02/2008
06/25/2008
09/02/2009 NOTICE OF RULING AT STATUS / TRIAL
SETTING CONFERENCE
09/02/2009 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
08/31/2009 MINUTE ORDER
08/27/2009 NOTICE OF BANKRUPTCY FILING AND
UPDATE ON THE EFFECT OF THE 1130 SOUTH HOPE
STREET INVESTMENT ASSOCIATES, LLC
BANKRUPTCY FILING
08/27/2009 Notice
Filed by Samuel F. Benskin (Defendant)
08/26/2009 PLAINTIFFS' STATEMENT RE STATUS AND
TRIAL SETTING CONFERENCE
08/26/2009 Miscellaneous-Other
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
08/18/2009 NOTICE OF RULING
p. 182 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

08/18/2009 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
08/17/2009 REQUEST FOR COPIES
08/17/2009 Minute Order
08/17/2009 Request
Filed by Plaintiff/Petitioner
08/13/2009 NOTICE OF NON-OPPOSITION TO
SUMMARY JUDGMENT MOTION
08/13/2009 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
07/02/2009 Proof of Service
07/02/2009 Proof of Service (not Summons and Complaint)
Filed by Defendant/Respondent
07/01/2009 ORDER GRANTING ATTORNEY'S MOTION
TO BE RELIEVED AS COUNSEL
07/01/2009 Minute Order
06/10/2009 NOTICE OF ENTRY OF JUDGMENT
CONFIRMING ARBITRATION AWARD
06/10/2009 Notice of Entry of Judgment
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
06/05/2009 REQUEST FOR COPIES
06/05/2009 Request
Filed by Defendant/Respondent
06/04/2009 NOTICE OF ENTRY OF ORDER GRANTING
PETITION TO CONFIRM ARBITRATION AWARD
06/04/2009 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
06/03/2009 Declaration
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
06/03/2009 Declaration
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
p. 183 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

06/03/2009 Declaration
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
06/03/2009 Request for Judicial Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
06/03/2009 Statement of Facts
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
06/03/2009 Motion for Summary Judgment
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
06/03/2009 Judgment
Filed by Plaintiff
06/03/2009 DECLARATION OF JEFF BERKE IN
SUPPORT OF CROSS DEFENDANT COMMONWEALTH
LAND TITLE INSURANNCE COMPANY'S AND; ETC
06/03/2009 REQUEST FOR JUDICIAL NOTICE IN
SUPPORT OF MOTION OF PLAINTIFF 1130 SOUTH
HOPE
STREET INVESTMENT ASSOCIATIONS, LLC FOR...;
ETC
06/03/2009 DECLARATION OF ROSARIO PERRY IN
SUPPORT OF MOTION OF PLAINTIFF 1130 SOUTH
HOPE STREET INVESTMENT ASSOCIATES, LLC FOR
SUMMARY...; ETC
06/03/2009 DECLARATION OF NORM SOLOMON IN
SUPPORT OF MOTION OF PLAINTIFF 1130 SOUTH
HOPE STREET INVESTMENT ASSOCIATES, LLC FOR...;
ETC
06/03/2009 NOTICE OF MOTION AND MOTION OF
PLAINTIFF 1130 SOUTH HOPE STREET INVESTMENT
ASSOCIATES, LLC FOR SUMMARY JUDGMENT; ETC
06/03/2009 SEPARATE STATEMENT OF UNDISPUTED
MATERIAL FACTS IN SUPPORT OF PLAINTIFF 1130
SOUTH HOPE STREET INVESTMENT ASSOCIATES,
LLC FOR...; ETC
p. 184 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

06/03/2009 JUDGMENT CONFIRMING ARBITRATION
AWARD
05/28/2009 Order
05/28/2009 Order
05/28/2009 Minute Order
05/28/2009 ORDER GRANTING PETITIONS TO CONFIM
ARBITRATION AWARD
05/26/2009 Declaration
Filed by Defendant/Respondent
05/26/2009 Motion to Be Relieved as Counsel
Filed by Defendant/Respondent
05/26/2009 DECLARATION IN SUPPORT OF
ATTORNEY'S MOTION TO BE RELIEVED AS
COUNSEL-CIVIL
05/26/2009 NOTICE OF MOTION AND MOTION TO BE
RELIEVED AS COUNSEL-CIVIL
05/20/2009 Notice of Stay of Proceedings (Bankruptcy)
Filed by Defendant/Respondent
05/20/2009 NOTICE OF STAY OF PROCEEDINGS
05/19/2009 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
05/19/2009 NOTICE OF RULING
05/18/2009 ExParte Application & Order
05/18/2009 ORDER GRANTING EX PARTE
APPLICATION OF PLAINTIFFS 1130 SOUTH HOPE
STREET
INVESTMENT ASSOCIATES, LLC, A CALIFORNIA
LIMITED LIABILITY COMPANY AND ROSARIO PERRY
TO
PERMIT HEARING OFO SUMMARY JUDGMENT; ETC.
05/18/2009 Minute Order
05/18/2009 EX PARTE APPLICATION OF PLAINTIFFS
1130 SOUTH HOPE STREET INVESTMENT
ASSOCIATES, LLC, A CALIFORNIA LIMITED
LIABILITY COMPANY AND ROSARIO PERRY TO
PERMIT
p. 185 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

HEARING OF SUMMARY JUDGMENT MOTION; ETC.
05/07/2009 Notice
Filed by 1130 South Hope Street Investment Associates(Plaintiff)
05/07/2009 Notice of Stay of Proceedings (Bankruptcy)
Filed by Defendant/Respondent
05/07/2009 Notice
Filed by Plaintiff/Petitioner
05/07/2009 NOTICE OF BANKRUPTCY FILING
05/07/2009 NOTICE OF TAKING MOTION TO BE
RELIEVED AS COUNSEL OFF CALENDAR
05/01/2009 Minute Order
Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
TOP 02/18/2010 09/02/2009 04/29/2009 10/02/2008
06/25/2008
04/29/2009 PETITIONER'S OBJECTIONS TO "AMENDED
DECLARATION OF THE BOARD OF DIRECTORS
OF TRUE HARMONY, INC." SERVED BY EXPRESS
MAIL FRIDAY, ETC.
04/29/2009 DECLARATION OF RICK EDWARDS
04/28/2009 Notice
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
04/28/2009 NOTICE OF ERRATA, ETC.
04/27/2009 Reply/Response
Filed by Plaintiff/Petitioner
04/27/2009 PEITIONER'S OBJECTIONS TO PURPORTED
EVIDENCE OF RESPONDENT TRUE HARMONY,
INC., ETC.
04/27/2009 PETITIONER'S REPLY TO OPPOSITION OF
RESPONDENT TRUE HARMONY TO PETITION TO
CONFIRM CONTRACTUAL ARBITRATION AWARD
AND, ETC.
04/24/2009 Reply/Response
Filed by Plaintiff/Petitioner
p. 186 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

04/24/2009 PETITIONER'S REPLY TO OPPOSITION OF
RESPONDENT TRUE HARMONY TO PETITION TO
CONFIRM CONTRACTUAL ARBITRATION AWARD,
ETC
04/24/2009 PETITIONER'S OBJECTION TO PURPORTED
EVIDENCE OF RESPONDENT TRUE HARMONY,
INC. SUBMTTED IN OPPOSITION TO PETITION TO
CONFIRM CONTRACTUAL ARBITRATION AWARD;
PROPOSED ORDER THEREON
04/22/2009 Reply/Response
Filed by Plaintiff/Petitioner
04/22/2009 Objection Document
Filed by Plaintiff/Petitioner
04/22/2009 PLAINTIFFS' OBJECTIONS TO EVIDENCE
SUBMITTED BY TRUE HARMONY IN ITS
OPPOSITION TO PETITIONS TO CONFIRM AWARD OF
ARBITRATOR
04/22/2009 REPLY TO OPPOSITION TO PETITION TO
CONFIRM ARBITRATION AWARD, ETC.
04/21/2009 Declaration
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
04/21/2009 Motion to Be Relieved as Counsel
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
04/21/2009 NOTICE OF MOTION AND MOTION TO BE
RELIEVED AS COUNSEL-CIVIL
04/21/2009 DECLARATION IN SUPPORT OF
ATTORNEY'S MOTION TO BE RELIEVED AS
COUNSEL-CIVIL
04/16/2009 Substitution of Attorney
Filed by Ray of Life Charitable Foundation (Defendant)
04/16/2009 Substitution of Attorney
Filed by Farzad Nediathaiem (Defendant); Farzad Haiem
(Legacy Party); Ray Haiem (Legacy Party)
04/16/2009 Declaration
p. 187 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
04/16/2009 Declaration
Filed by Defendant/Respondent
04/16/2009 DECLARATION OF RUZANNA POGHOSYAN
RE: SUBSTITUTION OF ATTORNEY IS FILED AS TO
THE REMAINING AND ALL DEFENDANTS
04/16/2009 SUBSTITUTION OF ATTORNEY
04/16/2009 SUBSTITUTION OF ATTORNEY
04/16/2009 AMENDED DECLARATION OF THE BOARD
OF DIRECTORS OF TRUE HARMONY INC.
04/14/2009 Opposition Document
Filed by Defendant/Respondent
04/14/2009 TRUE HARMONY INC'S NOTICE OF
OPPOSITION AND OPPOSITION TO PETITIONS TO
CONFIRM AWARD OF ARBITRATOR, ETC.
04/09/2009 Substitution of Attorney
Filed by Turner, Priscilla (doe 1) (Defendant)
04/09/2009 Substitution of Attorney
Filed by La Vance Tarver (Defendant)
04/09/2009 Substitution of Attorney
Filed by Johnathan Marzet (Defendant)
04/09/2009 Substitution of Attorney
Filed by Samuel F. Benskin (Defendant)
04/09/2009 Substitution of Attorney
Filed by Defendant/Respondent
04/09/2009 Minute Order
04/09/2009 SUBSTITUTION OF ATTORNEY
04/09/2009 SUBSTITUTION OF ATTORNEY
04/09/2009 SUBSTITUTION OF ATTORNEY
04/09/2009 SUBSTITUTION OF ATTORNEY
04/09/2009 SUBSTITUTION OF ATTORNEY
04/02/2009 Request for Certified Copy
Filed by Plaintiff/Petitioner
04/02/2009 Petition
Filed by Plaintiff/Petitioner
p. 188 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

04/02/2009 NOTICE OF PETITION AND PETITION TO
CONFIRM AWARD OF ARBITRATOR AS JUDGMENT
04/02/2009 REQUEST FOR COPIES
04/02/2009 PETITION TO CONFIRM CONTRACTUAL
ARBITRATION AWARD
04/01/2009 Declaration
Filed by Defendant/Respondent
04/01/2009 Declaration
Filed by Defendant/Respondent
04/01/2009 Declaration
Filed by Defendant/Respondent
04/01/2009 Declaration
Filed by Defendant/Respondent
04/01/2009 Declaration
Filed by Defendant/Respondent
04/01/2009 Declaration
Filed by Defendant
04/01/2009 Declaration
Filed by Defendant
04/01/2009 DECLARATION OF RUZANNA POGHOSYAN
RE: DEFENDANTS 1130 SOUTH HOPE STREET
INVESTMENT ASSOCIATES, LLC, A DELAWARE
LIMITED LIABILITY COMPANY; ETC.
04/01/2009 DECLARATION OF 1130 SOUTH HOPE
STREET INVESTMENT ASSOCIATES, LLC ( A
DELAWARE LIMITED LIABILITY COMPANY)
04/01/2009 DECLARATION OF FARZAD NEDIATHAIEM
AKA FARZAD HAIEM AKA RAY HAIEM AKA FARZAD
NEDJAT-HAIEM RE: ORDER TO SHOW CAUSE
04/01/2009 DECLARATION OF PRISCILLA TURNER RE:
ORDER TO SHOW CAUSE
04/01/2009 DECLARATION OF LA VANCE TARVER RE:
ORDER TO SHOW CAUSE
03/18/2009 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
p. 189 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

03/18/2009 NOTICE OF RULING AT POSTARBITRATION STATUS CONFERENCE
03/11/2009 Minute Order
03/11/2009 Minute Order
03/05/2009 Substitution of Attorney
Filed by True Harmony, Inc. (Defendant)
03/05/2009 Notice
Filed by Defendant/Respondent
03/05/2009 SUBSTITUTION OF ATTORNEY
03/05/2009 DEFENDANT TRUE HARMONY, INC'S
STATUS CONFERENCE STATEMENT
03/03/2009 Notice of Status Conference filed
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/03/2009 PLAINTIFFS' STATUS CONFERENCE
STATEMENT
01/05/2009 Notice of Case Assignment
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
01/05/2009 Notice of Case Reassignment and Order for
Plaintiff to Give Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
01/05/2009 NOTICE OF CASE REASSIGNMENT
01/05/2009 NOTICE OF CASE REASSIGNMENT
12/24/2008 Notice of Case Reassignment and Order for
Plaintiff to Give Notice
Filed by Clerk
12/24/2008 NOTICE OF CASE REASSIGNMENT AND OF
ORDER FOR PLAINTIFF TO GIVE NOTICE
12/02/2008 Request for Certified Copy
Filed by Plaintiff/Petitioner
12/02/2008 REQUEST FOR COPIES
10/23/2008 Stipulation
Filed by Defendant/Respondent
10/23/2008 Ord-Withdrawal as Attorney of Record
Filed by Defendant/Respondent
p. 190 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

10/23/2008 STIPULATION FOR LAW OFFICES OF
LOTTIE COHEN TO BE RELIEVED AS COUNSEL FOC
ALL
CLIENTS
10/23/2008 ORDER GRANTING ATTORNEY'S MOTION
TO BE RELIEVED AS COUNSEL - CIVIL
10/23/2008 Minute Order
10/08/2008 Opposition Document
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
10/08/2008 OPPOSITION TO UNTIMELY MOTION TO BE
RELIEVED AS COUNSEL
Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
TOP 02/18/2010 09/02/2009 04/29/2009 10/02/2008
06/25/2008
10/02/2008 Motion to Be Relieved as Counsel
Filed by Defendant/Respondent
10/02/2008 NOTICE OF MOTION AND MOTION TO BE
RELIEVED AS COUNSEL-CIVIL
09/17/2008 Notice of Ruling
Filed by Plaintiff/Petitioner
09/17/2008 NOTICE OF RULING
09/16/2008 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
09/16/2008 NOTICE OF ENTRY OF ORDER
COOMPELLING BINDING ARBITRATION AND TO
STAY ACTION
09/11/2008 Order
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
09/11/2008 ORDER COMPELLING BINDING
ARBITRATON AND TO STAY ACTION
09/11/2008 Minute Order
09/03/2008 Reply/Response
p. 191 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by 1130 South Hope Street Investment Associates
(Plaintiff)
09/03/2008 PLAINTIFFS' REPLY TO OPPOSITION TO
MOTION FOR ORDER COMPELLING BINDING
ARBITRATION, ETC.
08/29/2008 Case Management Statement
Filed by Defendant/Respondent
08/29/2008 CASE MANAGEMENT STATEMENT
08/28/2008 Opposition Document
Filed by 1130 South Hope Street Investment Associates
(Plaintiff)
08/28/2008 Opposition Document
Filed by 1130 South Hope Street Investment Associates
(Plaintiff)
08/28/2008 Request for Judicial Notice
Filed by 1130 South Hope Street Investment Associates
(Plaintiff)
08/28/2008 REQUEST FOR JUDICIAL NOTICE IN
SUPPORT OF DEMURRER AND MOTION TO STRIKE
08/28/2008 PLAINTIFFS' OPPOSITION TO MOTION TO
STRIKE AND OBJECTIONS TO DECLARATION OF
JOHN MARZET
08/28/2008 PLAINTIFFS' OPPOSITION TO DEMURRER
TO FIRST AMENDED COMPLAINT
08/26/2008 Notice
Filed by Defendant/Respondent
08/26/2008 NOTICE OF NON AVAILABILITY OF
ATTORNEY MS.LOTTIE COHEN, COUNSEL FOR
DEFENDANTS
08/22/2008 Opposition Document
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
08/22/2008 OPPOSITION OF ALL DEFENDANTS TO
PLAINTIFFS' MOTION FOR ORDER COMPELLING
BINDING ARBITRATION AND TO STAY ACTION; ETC.
08/19/2008 Case Management Statement
p. 192 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by 1130 South Hope Street Investment Associ(Plaintiff)
08/19/2008 CASE MANAGEMENT STATEMENT
08/14/2008 Notice of Ruling
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
08/14/2008 NOTICE OF RULING ON PLAINTIFFS EX
PARTE APPLICATION TO CONTINUE HEARING ON
DEFENDANTS DEMURRER AND MOTION TO STRIKE
08/12/2008 Opposition Document
Filed by Defendant/Respondent
08/12/2008 Ex-Parte Application
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
08/12/2008 EX PARTE APPLICATION OF PLAINTIFFS
TO CONTINUE THE HEARING ON THE DEMURRER
AND MOTION TO STRIKE FILED BY DEFENDANTS,
ETC
08/12/2008 Minute Order
08/12/2008 OPPOSITON TO PLAINTIFFS' EX PARTE
APPLICATION TO CONTINUE HEARING ON
DEMURRER AND MOTION TO STRIKE
08/01/2008 PLAINTIFFS' NOTICE OF MOTION AND
MOTION FOR ORDER COMPELLING BINDING
ARBITRATION AND TO STAY ACTION, ETC
08/01/2008 Motion to Compel
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
07/29/2008 Minute Order
07/28/2008 STIPULATION TO CONTINUE CASE
MANAGEMENT CONFERENCE AND ORDER THEREON
07/28/2008 Stipulation and Order
Filed by Plaintiff/Petitioner
07/18/2008 Motion to Strike
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
p. 193 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

(Defendant) et al.
07/18/2008 NOTICE OF MOTION, MOTION TO STRIKE
BY DEFENDANTS TO STRIKE PLAINTIFFS' FIRST
AMENDED COMPLAINT, ETC.
07/17/2008 NOTICE OF DEMURRER AND DEMURRER
BY DEFENDANTS, ETC.
07/17/2008 Motion to Strike
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
07/17/2008 Demurrer
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
07/17/2008 REQUEST FOR JUDICIAL NOTICE BY
DEFENDANTS, ETC.
07/03/2008 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
07/03/2008 NOTICE OF RULING
07/02/2008 SUBSTITUTION OF ATTORNEY
07/02/2008 Minute Order
07/02/2008 SUBSTITUTION OF ATTORNEY
07/02/2008 Substitution of Attorney
Filed by La Vance Tarver (Defendant); Johnathan Marzet
(Defendant); Samuel F. Benskin (Defendant) et al.
07/02/2008 SUBSTITUTION OF ATTORNEY
07/02/2008 SUBSTITUTION OF ATTORNEY
07/02/2008 SUBSTITUTION OF ATTORNEY
07/02/2008 SUBSTITUTION OF ATTORNEY
06/30/2008 CASE MANAGEMENT STATEMENT
06/30/2008 Case Management Statement
Filed by Defendant/Respondent
Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
TOP 02/18/2010 09/02/2009 04/29/2009 10/02/2008
06/25/2008
p. 194 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

06/25/2008 Minute Order
06/10/2008 CASE MANAGEMENT STATEMENT
06/10/2008 Case Management Statement
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
06/09/2008 STIPULATION TO CONTINUE CASE
MANAGEMENT CONFERENCE AND ORDER THEREON
06/04/2008 NOTICE OF CASE MANAGEMENT
CONFERENCE
06/04/2008 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
05/27/2008 NOTICE OF CASE MANAGEMENT
CONFERENCE
05/27/2008 NOTICE OF CASE MANAGEMENT
CONFERENCE
05/27/2008 Notice of Case Management Conference
Filed by Clerk
05/23/2008 NOTICE OF RULING RE RELATED CASES
05/23/2008 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
05/22/2008 Minute Order
05/22/2008 Order on Application for Waiver of Court Fees
and Costs
05/22/2008 Order on Court Fee Waiver (Superior Court)
Filed by Defendant
05/20/2008 Minute Order
05/20/2008 FIRST AMENDED COMPLAINT FOR
DECLARATORY AND INJUNCTIVE RELIEF,
CANCELLATION
OF INSTRUMENTS, DAMAGES AND ATTORNEY FEES
05/20/2008 First Amended Complaint
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
04/30/2008 AMENDED DEMURRER OF DEFENDANTS
TO COMPLAINT, TO POINTS AND AUTHORITIES
p. 195 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

AND REQUEST FOR JUDICIAL NOTICE
04/30/2008 Demurrer
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
04/21/2008 NOTICE OF DEFENDANTS' DEMURRER TO
COMPLAINT, ETC.
04/21/2008 DEFENDANTS' REQUEST FOR JUDICIAL
NOTICE POINTS AND AUTHORITIES
04/21/2008 Demurrer
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant)
04/21/2008 Request for Judicial Notice
Filed by Defendant/Respondent
04/02/2008 PROOF OF SERVICE SUMMONS
04/02/2008 Proof-Service/Summons
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/11/2008 Proof-Service/Summons
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/11/2008 Proof-Service/Summons
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/11/2008 Proof-Service/Summons
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/11/2008 Proof-Service/Summons
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/11/2008 PROOF OF SERVICE SUMMONS
03/11/2008 PROOF OF SERVICE SUMMONS
03/11/2008 PROOF OF SERVICE SUMMONS
03/11/2008 PROOF OF SERVICE SUMMONS
03/11/2008 Proof-Service/Summons
p. 196 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/11/2008 Proof-Service/Summons
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/11/2008 Proof-Service/Summons
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/10/2008 Amendment to Complaint
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/10/2008 AMENDMENT TO COMPLAINT
(FICTITIOUS/INCORRECT NAME)
02/29/2008 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
02/29/2008 AMENDED NOTICE OF PENDENCY OF
ACTION
02/14/2008 NOTICE OF PENDENCY OF ACTION
02/14/2008 COMPLAINT FOR DECLARATORY RELIEF ,
ETC
02/14/2008 Notice of Related Case
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
02/14/2008 SUMMONS
02/14/2008 NOTICE OF RELATED CASES
02/14/2008 Notice of Lis Pendens
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
02/14/2008 Complaint
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
TOP 02/18/2010 09/02/2009 04/29/2009 10/02/2008
06/25/2008
PROCEEDINGS HELD
p. 197 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Case Information | Register Of Actions | FUTURE
HEARINGS | PARTY INFORMATION | Documents Filed |
Proceedings Held
Proceedings Held (Proceeding dates listed in descending
order)
Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
05/18/2009
02/15/2012 at 00:00 AM in Department 37
Unknown Event Type - Held
04/22/2010 at 00:00 AM in Department 30
Non-Appearance Case Review - Held
03/15/2010 at 09:30 AM in Department 30
Unknown Event Type - Held
03/05/2010 at 09:00 AM in Department 30
Final Status Conference - Held
02/18/2010 at 08:30 AM in Department 30
Status Conference - Held
02/05/2010 at 08:30 AM in Department 33
Ex-Parte Proceedings (Exparte proceeding; Matter continued)
01/27/2010 at 08:30 AM in Department 30
Status Conference (Status Conference; Status Conference
continued) 01/19/2010 at 09:30 AM in Department 30
Jury Trial (Jury Trial; Advanced to a Previous Date) 01/08/2010 at 09:00 AM in Department 30
Final Status Conference (Final Status Conference; Continued
by Court) 12/24/2009 at 08:30 AM in Department 30
Hearing on Motion for Summary Adjudication - Held
12/21/2009 at 00:00 AM in Department 30
Non-Appearance Case Review - Held
12/14/2009 at 08:30 AM in Department 30
Hearing on Motion for Summary Adjudication (Motion for
Summary Adjudication; Continued by Court) 12/10/2009 at 08:30 AM in Department 30
p. 198 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Ex-Parte Proceedings (Exparte proceeding; Continued by
Court) 11/17/2009 at 08:30 AM in Department 30
Status Conference (Status Conference; Court makes order) 08/31/2009 at 09:30 AM in Department 30
Jury Trial (Jury Trial; Vacated) 08/31/2009 at 08:30 AM in Department 30
Trial Setting Conference - Held
08/21/2009 at 09:00 AM in Department 30
Final Status Conference - Not Held - Advanced and Vacated
08/17/2009 at 08:30 AM in Department 30
Hearing on Motion for Summary Judgment (Motion for
Summary Judgment; Motion Denied) 07/01/2009 at 08:30 AM in Department 30
Hearing on Motion to be Relieved as Counsel - Held - Motion
Granted
05/29/2009 at 08:32 AM in Department 30
Hearing on Motion to be Relieved as Counsel (Motion to be
Relieved as Counsel; Off Calendar) 05/28/2009 at 00:00 AM in Department 30
Non-Appearance Case Review - Held
Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
TOP 05/18/2009
05/18/2009 at 08:30 AM in Department 30
Ex-Parte Proceedings - Held - Motion Granted
05/01/2009 at 08:32 AM in Department 30
Hearing on Motion to Confirm Arbitration Award - Held Motion Granted
04/09/2009 at 08:30 AM in Department 30
(Order to Show Cause; OSC Discharged) 03/11/2009 at 08:30 AM in Department 30
Status Conference - Held
01/02/2009 at 00:00 AM in Department 30
Unknown Event Type
10/23/2008 at 08:32 AM in Department 30
p. 199 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Hearing on Motion to be Relieved as Counsel - Held - Motion
Granted
09/11/2008 at 08:35 AM in Department 30
Hearing on Demurrer - without Motion to Strike (Hearing on
Demurrer; Demurrer overruled) 08/12/2008 at 08:30 AM in Department 30
Ex-Parte Proceedings (Exparte proceeding; Denied) 08/05/2008 at 08:31 AM in Department 30
Case Management Conference (Conference-Case
Management; Advanced to a Previous Date) 07/29/2008 at 08:30 AM in Department 30
Court Order - Held
07/02/2008 at 08:31 AM in Department 30
Case Management Conference - Held - Continued
06/25/2008 at 08:31 AM in Department 30
Case Management Conference (Conference-Case
Management; Advanced to a Previous Date) 05/22/2008 at 08:32 AM in Department 30
Hearing on Demurrer - without Motion to Strike (Hearing on
Demurrer; Off Calendar) 05/20/2008 at 08:30 AM in Department 64
Court Order (Court Order; Court makes order) Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
TOP 05/18/2009
REGISTER OF ACTIONS
Case Information | Register Of Actions | FUTURE
HEARINGS | PARTY INFORMATION | Documents Filed |
Proceedings Held
Register of Actions (Listed in descending order)
Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
02/18/2010 11/02/2009 05/19/2009 01/02/2009 07/28/2008
02/14/2008
09/04/2012 ORDER ON COURT FEE WAIVER
(SUPERIOR COURT)
p. 200 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

05/21/2012 REPLY TO OPPOSITION OF RAY HAIEM, IN
PRO PER, TO HOPE PARK LOFTS LLCS MOTION
FOR ORDER COMPELLING ARBITRATION AS TO
APPROPRIATENESS OF INTERPLEADER ACTION...
DIRECTED SOLELY AGAINST PLAINTIFF 1130 HOPE
STREET INVESTMENT ASSOCIATES LLC,
02/15/2012 at 00:00 AM in Department 37
Unknown Event Type - Held
02/15/2012 Minute Order
10/24/2011 Notice of Related Case
Filed by Defendant/Respondent
10/24/2011 STATEMENT OF DEFENDANTS NORMAN
SOLOMON AND HOPE PARK LOFTS LL.C RE
UNOTICE OF RELATED CASESU
10/24/2011 STATEMENT OF DEFENDANTS NORMAN
SOLOMON AND HOPE PARK LOFTS LIC RE NOTICE
OF RELATED CASES
05/04/2010 Memorandum of Costs
Filed by Plaintiff/Petitioner
05/04/2010 MEMORANDUM OF COSTS (SUMMARY)
04/30/2010 Proof of Service (not Summons and Complaint)
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
04/27/2010 Notice of Entry of Judgment
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
04/27/2010 NOTICE OF ENTRY OF JUDGMENT
04/23/2010 Opposition Document
Filed by Turner, Priscilla (doe 1) (Defendant)
04/23/2010 OPPOSITION TO PLAINTIFFS MOTION TO
HAVE PROPOSED JUDGMENT SIGNED. LETTER
FROM PRISCILLA TURNER. DECLARATION FOR JOHN
MARZET
04/23/2010 Judgment
Filed by Plaintiff/Petitioner
04/22/2010 at 00:00 AM in Department 30
Non-Appearance Case Review - Held
p. 201 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

04/22/2010 {IH4)TM4I JUDGMENT IN FAVOR OF
PLAINTIFFS AND AGAINST DEFENDANTS 1130
SOUTH
HOPE STREET INVESTMENT ASSOCIATES, LUC, A
DELAWARE LIMITED LIABILITY COMPANY; LA
VANCE
TARVER; RAY OF LIFE CHARITABLE FOUNDATION, A
CALIFORNIA NON-PROFIT PUBLIC BENEFIT
CORPORATIO
04/22/2010 Minute Order
04/22/2010 Judgment
Filed by Plaintiff/Petitioner
04/20/2010 PROOF OF SERVICE OF NOTICE OF ENTRY
OF JUDGMENT
04/08/2010 Notice
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
04/08/2010 NOTICE OF ATTORNEYS' LIEN FOR FEES
AND COSTS
03/22/2010 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/22/2010 NOTICE OF ENTRY OF ORDER OF
SUMMARY ADJUDICATION
03/15/2010 at 09:30 AM in Department 30
Unknown Event Type - Held
03/15/2010 Request for Dismissal
Filed by Plaintiff/Petitioner
03/15/2010 Request for Dismissal
Filed by Plaintiff/Petitioner
03/15/2010 ORDER GRANTING PLAINTIFFS' MOTION
FOR SUMMARY ADJUDICATION OF THE FIFTH
CAUSE OF ACTION
03/15/2010 Order
Filed by Plaintiff/Petitioner
03/15/2010 REQUEST FOR DISMISSAL
p. 202 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

03/15/2010 Minute Order
03/15/2010 REQUEST FOR DISMISSAL
03/11/2010 NOTICE OF NON-OBJECTION TO PROPOSED
ORDER / JUDGMENT
03/11/2010 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/11/2010 Brief
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/11/2010 PLAINTIFFS' TRIAL BRIEF
03/10/2010 Opposition Document
Filed by Johnathan Marzet (Defendant)
03/10/2010 STATEMENT : OPPOSITION TO PLAINTIFF'S
( PROPOSED) ORDER GRANTING PLAINTIFFS
MOTION FOR SUMMARY ADJUDICATION OF, THE
FIFTH CAUSE OF ACTION AND ETC.
03/08/2010 NOTICE OF RULING
03/08/2010 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/05/2010 at 09:00 AM in Department 30
Final Status Conference - Held
03/05/2010 SUBSTITUTION OF ATTORNEY
03/05/2010 SUBSTITUTION OF ATTORNEY
03/05/2010 SUBSTITUTION OF ATTORNEY
03/05/2010 Minute Order
03/05/2010 SUBSTITUTION OF ATTORNEY
03/05/2010 SUBSTITUTION OF ATTORNEY
03/05/2010 SUBSTITUTION OF ATTORNEY
03/05/2010 SUBSTITUTION OF ATTORNEY
03/05/2010 Substitution of Attorney
Filed by Ray of Life Charitable Foundation (Defendant);
Farzad Haiem (Legacy Party)
03/05/2010 Substitution of Attorney
Filed by Farzad Haiem (Legacy Party)
03/05/2010 Substitution of Attorney
p. 203 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by Johnathan Marzet (Defendant); True Harmony, Inc.
(Defendant)
03/05/2010 Substitution of Attorney
Filed by Johnathan Marzet (Defendant)
03/05/2010 Substitution of Attorney
Filed by Farzad Haiem (Legacy Party)
03/05/2010 Substitution of Attorney
Filed by Turner, Priscilla (doe 1) (Defendant)
03/05/2010 Substitution of Attorney
Filed by Samuel F. Benskin (Defendant)
03/01/2010 Miscellaneous-Other
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/01/2010 PLAINTIFFS' STATEMENT RE STATUS AND
TRIAL SETTING CONFERENCE
02/26/2010 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
02/26/2010 NOTICE OF ENTRY OF ORDER GRANTING
RELIEF FROM BANKRUPTCY STAY
02/19/2010 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
02/19/2010 NOTICE OF RULING RE STATUS
CONFERENCE AND OSC RE CONTEMPT
02/19/2010 PLAINTIFFS' OPPOSITION TO UNTIMELY
MOTION TO BE RELIEVED AS COUNSEL; ETC.
02/19/2010 Opposition Document
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
TOP 02/18/2010 11/02/2009 05/19/2009 01/02/2009
07/28/2008 02/14/2008
02/18/2010 at 08:30 AM in Department 30
Status Conference - Held
02/18/2010 PROOF OF SERVICE - CIVIL
p. 204 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

02/18/2010 Proof of Service (not Summons and Complaint)
Filed by Johnathan Marzet (Defendant); True Harmony, Inc.
(Defendant)
02/18/2010 Minute Order
02/11/2010 PLAINTIFFS' REPORT RE STATUS
CONFERENCE AND OSC RE CONTEMPT
02/11/2010 Status Report
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
02/10/2010 NOTICE OF MOTION AND MOTION TO BE
RELIEVED AS COUNSEL-CIVIL
02/10/2010 Declaration
Filed by Defendant/Respondent
02/10/2010 Motion to Be Relieved as Counsel
Filed by Defendant/Respondent
02/10/2010 Proof-Personal Service
Filed by Plaintiff/Petitioner
02/10/2010 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
02/10/2010 PROOF OF PERSONAL SERVICE - CIVIL
02/10/2010 NOTICE OF RULING RE ORDER TO SHOW
CAUSE RE CIVIL CONTEMPT
02/10/2010 DECLARATION IN SUPPORT OF
ATTORNEY'S MOTION TO BE RELIEVED AS
COUNSEL-CIVIL
02/05/2010 at 08:30 AM in Department 33
Ex-Parte Proceedings (Exparte proceeding; Matter continued)
02/05/2010 Minute Order
02/05/2010 Ex-Parte Application
Filed by Plaintiff/Petitioner
01/27/2010 at 08:30 AM in Department 30
Status Conference (Status Conference; Status Conference
continued) 01/19/2010 at 09:30 AM in Department 30
Jury Trial (Jury Trial; Advanced to a Previous Date) p. 205 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

01/15/2010 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
01/14/2010 NOTICE OF ENTRY OF ORDER ON
STIPULATION TO CONTINUE STATUS CONFERENCE
01/08/2010 at 09:00 AM in Department 30
Final Status Conference (Final Status Conference; Continued
by Court) 01/08/2010 STIPULATION TO CONTINUE STATUS
CONFERENCE; ORDER
01/08/2010 Stipulation
Filed by Plaintiff/Petitioner
01/08/2010 Minute Order
12/29/2009 NOTICE OF RULING ON DEFENDANTS' EX
PARTE APPLICATION FOR STAY AND PLAINTIFFS'
MOTION FOR SUMMARY ADJUDICATION
12/29/2009 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
12/24/2009 at 08:30 AM in Department 30
Hearing on Motion for Summary Adjudication - Held
12/24/2009 Minute Order
12/24/2009 DECLARATION OF JOHNATHAN MARZET
IN SUPPORT OF DEFENDANTS' SUPPLEMENTAL
BRIEF
12/24/2009 Declaration
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
12/21/2009 at 00:00 AM in Department 30
Non-Appearance Case Review - Held
12/21/2009 Minute Order
12/17/2009 PLAINTIFFS' BRIEF IN OPPOSITION TO
DEFENDANTS' EFFORTS TO STAY THE HEARING ON
PLAINTIFFS' SUMMARY ADJUDICATION MOTION
12/17/2009 BANKRUPTCY CASES RELIED UPON BY
PLAINTIFFS
p. 206 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

12/17/2009 Brief
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
12/17/2009 Miscellaneous-Other
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 Declaration
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
12/15/2009 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
12/15/2009 SUBSTITUTION OF ATTORNEY
12/15/2009 SUBSTITUTION OF ATTORNEY
12/15/2009 NOTICE OF RULING
12/15/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/15/2009 SUBSTITUTION OF ATTORNEY
12/15/2009 DECLARATION OF KASRA TORABI IN
12/15/2009 SUBSTITUTION OF ATTORNEY
p. 207 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

12/15/2009 SUBSTITUTION OF ATTORNEY
12/15/2009 SUBSTITUTION OF ATTORNEY
12/15/2009 SUBSTITUTION OF ATTORNEY
12/15/2009 SUBSTITUTION OF ATTORNEY
12/15/2009 SUBSTITUTION OF ATTORNEY
12/14/2009 at 08:30 AM in Department 30
Hearing on Motion for Summary Adjudication (Motion for
Summary Adjudication; Continued by Court) 12/14/2009 Substitution of Attorney
Filed by Defendant/Respondent
12/14/2009 SUBSTITUTION OF ATTORNEY
12/14/2009 MINUTE ORDER
12/11/2009 NOTICE OF HEARING AND SUPPLEMENTAL
BRIEF IN SUPPORT OF APPLICATION FOR
ORDER STAYING ALL PROCEEDINGS PURSUANT TO
THE AUTOMATIC STAY, 11 U.S.C 1334 AND ETC.
12/11/2009 Notice of Hearing
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
12/10/2009 at 08:30 AM in Department 30
Ex-Parte Proceedings (Exparte proceeding; Continued by
Court) 12/10/2009 Minute Order
12/10/2009 ExParte Application & Order
Filed by Defendant/Respondent
12/08/2009 PLAINTIFFS' REPLY TO DEFENDANTS'
OPPOSITION TO SEPARATE STATEMENT OF
UNDISPUTED MATERIAL FACTS IN SUPPORT OF
PLAINTIFFS' MOTION FOR SUMMARY
ADJUDICATION
OF THE FIFTH CAUSE OF ACTION
12/08/2009 Reply/Response
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
12/08/2009 Objection Document
p. 208 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by 1130 South Hope Street Investment Associ(Plaintiff)
12/08/2009 PLAINTIFFS' OBJECTIONS TO
DEFENDANTS' PURPORTED EVIDENCE IN
OPPOSITION TO
MOTION FOR SUMMARY ADJUDICATION OF THE
FIFTH CAUSE OF ACTION
12/08/2009 PLAINTIFFS' REPLY TO OPPOSITION TO
SUMMARY ADJUDICATION OF FIFTH CAUSE OF
ACTION
12/08/2009 Reply/Response
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
11/20/2009 NOTICE OF RULING RE STATUS
CONFERENCE
11/20/2009 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
11/17/2009 at 08:30 AM in Department 30
Status Conference (Status Conference; Court makes order) 11/17/2009 Minute Order
Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
TOP 02/18/2010 11/02/2009 05/19/2009 01/02/2009
07/28/2008 02/14/2008
11/02/2009 PLAINTIFFS' STATEMENT RE STATUS AND
TRIAL SETTING CONFERENCE
11/02/2009 Miscellaneous-Other
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
09/24/2009 SEPARATE STATEMENT OF UNDISPUTED
MATERIAL FACTS IN SUPPORT OF PLAINTIFF 1130
SOUTH HOPE STREET INVESTMENT ASSOCIATES,
LLC'S MOTION, ETC
09/24/2009 DECLARATION OF ROSARIO PERRY IN
SUPPORT OF PLAINTIFFS' MOTION FOR SUMMARY
ADJUDICATION OF THE FIFTH CAUSE OF ACTION
p. 209 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

09/24/2009 Motion
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
09/24/2009 REQUEST FOR JUDICIAL NOTICE IN
SUPPORT OF MOTION OF PLAINTIFF 1130 SOUTH
HOPE
STREET INVESTMENT ASSOCIATION, LLC. FOR
SUMMARY ADJUDICATION, ETC
09/24/2009 DECLARATION OF NORM SOLOMON IN
SUPPORT OF PLAINTIFFS' MOTION FOR SUMMARY
ADJUDICATION OF THE FIFTH CAUSE OF ACTION
09/24/2009 DECLARATION OF JEFF BERKE IN
SUPPORT OF CROSS DEFENDANT COMONWEALTH
LAND
TITLE INSURANCE COMPANY'S AND, ETC
09/24/2009 Declaration
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
09/24/2009 Request for Judicial Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
09/24/2009 NOTICE OF MOTION AND MOTION OF
PLAINTIFF 1130 SOUTH HOPE STREET INVESTMENT
ASSOCIATES, LLC FOR SUMMARY ADJUDICATION,
ETC
09/02/2009 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
09/02/2009 NOTICE OF RULING AT STATUS / TRIAL
SETTING CONFERENCE
08/31/2009 at 09:30 AM in Department 30
Jury Trial (Jury Trial; Vacated) 08/31/2009 at 08:30 AM in Department 30
Trial Setting Conference - Held
08/31/2009 MINUTE ORDER
08/27/2009 Notice
Filed by Samuel F. Benskin (Defendant)
p. 210 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

08/27/2009 NOTICE OF BANKRUPTCY FILING AND
UPDATE ON THE EFFECT OF THE 1130 SOUTH HOPE
STREET INVESTMENT ASSOCIATES, LLC
BANKRUPTCY FILING
08/26/2009 PLAINTIFFS' STATEMENT RE STATUS AND
TRIAL SETTING CONFERENCE
08/26/2009 Miscellaneous-Other
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
08/21/2009 at 09:00 AM in Department 30
Final Status Conference - Not Held - Advanced and Vacated
08/18/2009 NOTICE OF RULING
08/18/2009 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
08/17/2009 at 08:30 AM in Department 30
Hearing on Motion for Summary Judgment (Motion for
Summary Judgment; Motion Denied) 08/17/2009 Request
Filed by Plaintiff/Petitioner
08/17/2009 REQUEST FOR COPIES
08/17/2009 Minute Order
08/13/2009 NOTICE OF NON-OPPOSITION TO
SUMMARY JUDGMENT MOTION
08/13/2009 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
07/02/2009 Proof of Service
07/02/2009 Proof of Service (not Summons and Complaint)
Filed by Defendant/Respondent
07/01/2009 at 08:30 AM in Department 30
Hearing on Motion to be Relieved as Counsel - Held - Motion
Granted
07/01/2009 Minute Order
07/01/2009 ORDER GRANTING ATTORNEY'S MOTION
TO BE RELIEVED AS COUNSEL
06/10/2009 Notice of Entry of Judgment
p. 211 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by 1130 South Hope Street Investment Associ(Plaintiff)
06/10/2009 NOTICE OF ENTRY OF JUDGMENT
CONFIRMING ARBITRATION AWARD
06/05/2009 REQUEST FOR COPIES
06/05/2009 Request
Filed by Defendant/Respondent
06/04/2009 NOTICE OF ENTRY OF ORDER GRANTING
PETITION TO CONFIRM ARBITRATION AWARD
06/04/2009 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
06/03/2009 DECLARATION OF NORM SOLOMON IN
SUPPORT OF MOTION OF PLAINTIFF 1130 SOUTH
HOPE STREET INVESTMENT ASSOCIATES, LLC FOR...;
ETC
06/03/2009 DECLARATION OF ROSARIO PERRY IN
SUPPORT OF MOTION OF PLAINTIFF 1130 SOUTH
HOPE STREET INVESTMENT ASSOCIATES, LLC FOR
SUMMARY...; ETC
06/03/2009 REQUEST FOR JUDICIAL NOTICE IN
SUPPORT OF MOTION OF PLAINTIFF 1130 SOUTH
HOPE
STREET INVESTMENT ASSOCIATIONS, LLC FOR...;
ETC
06/03/2009 DECLARATION OF JEFF BERKE IN
SUPPORT OF CROSS DEFENDANT COMMONWEALTH
LAND TITLE INSURANNCE COMPANY'S AND; ETC
06/03/2009 Declaration
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
06/03/2009 NOTICE OF MOTION AND MOTION OF
PLAINTIFF 1130 SOUTH HOPE STREET INVESTMENT
ASSOCIATES, LLC FOR SUMMARY JUDGMENT; ETC
06/03/2009 JUDGMENT CONFIRMING ARBITRATION
AWARD
p. 212 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

06/03/2009 SEPARATE STATEMENT OF UNDISPUTED
MATERIAL FACTS IN SUPPORT OF PLAINTIFF 1130
SOUTH HOPE STREET INVESTMENT ASSOCIATES,
LLC FOR...; ETC
06/03/2009 Judgment
Filed by Plaintiff
06/03/2009 Motion for Summary Judgment
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
06/03/2009 Statement of Facts
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
06/03/2009 Request for Judicial Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
06/03/2009 Declaration
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
06/03/2009 Declaration
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
05/29/2009 at 08:32 AM in Department 30
Hearing on Motion to be Relieved as Counsel (Motion to be
Relieved as Counsel; Off Calendar) 05/28/2009 at 00:00 AM in Department 30
Non-Appearance Case Review - Held
05/28/2009 ORDER GRANTING PETITIONS TO CONFIM
ARBITRATION AWARD
05/28/2009 Order
05/28/2009 Order
05/28/2009 Minute Order
05/26/2009 Declaration
Filed by Defendant/Respondent
05/26/2009 NOTICE OF MOTION AND MOTION TO BE
RELIEVED AS COUNSEL-CIVIL

p. 213 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

05/26/2009 DECLARATION IN SUPPORT OF
ATTORNEY'S MOTION TO BE RELIEVED AS
COUNSEL-CIVIL
05/26/2009 Motion to Be Relieved as Counsel
Filed by Defendant/Respondent
05/20/2009 Notice of Stay of Proceedings (Bankruptcy)
Filed by Defendant/Respondent
05/20/2009 NOTICE OF STAY OF PROCEEDINGS
Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
TOP 02/18/2010 11/02/2009 05/19/2009 01/02/2009
07/28/2008 02/14/2008
05/19/2009 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
05/19/2009 NOTICE OF RULING
05/18/2009 at 08:30 AM in Department 30
Ex-Parte Proceedings - Held - Motion Granted
05/18/2009 EX PARTE APPLICATION OF PLAINTIFFS
1130 SOUTH HOPE STREET INVESTMENT
ASSOCIATES, LLC, A CALIFORNIA LIMITED
LIABILITY COMPANY AND ROSARIO PERRY TO
PERMIT
HEARING OF SUMMARY JUDGMENT MOTION; ETC.
05/18/2009 Minute Order
05/18/2009 ORDER GRANTING EX PARTE
APPLICATION OF PLAINTIFFS 1130 SOUTH HOPE
STREET
INVESTMENT ASSOCIATES, LLC, A CALIFORNIA
LIMITED LIABILITY COMPANY AND ROSARIO PERRY
TO
PERMIT HEARING OFO SUMMARY JUDGMENT; ETC.
05/18/2009 ExParte Application & Order
05/07/2009 NOTICE OF TAKING MOTION TO BE
RELIEVED AS COUNSEL OFF CALENDAR
05/07/2009 NOTICE OF BANKRUPTCY FILING
05/07/2009 Notice
p. 214 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by 1130 South Hope Street Investment Associ(Plaintiff)
05/07/2009 Notice
Filed by Plaintiff/Petitioner
05/07/2009 Notice of Stay of Proceedings (Bankruptcy)
Filed by Defendant/Respondent
05/01/2009 at 08:32 AM in Department 30
Hearing on Motion to Confirm Arbitration Award - Held Motion Granted
05/01/2009 Minute Order
04/29/2009 DECLARATION OF RICK EDWARDS
04/29/2009 PETITIONER'S OBJECTIONS TO "AMENDED
DECLARATION OF THE BOARD OF DIRECTORS
OF TRUE HARMONY, INC." SERVED BY EXPRESS
MAIL FRIDAY, ETC.
04/28/2009 NOTICE OF ERRATA, ETC.
04/28/2009 Notice
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
04/27/2009 Reply/Response
Filed by Plaintiff/Petitioner
04/27/2009 PEITIONER'S OBJECTIONS TO PURPORTED
EVIDENCE OF RESPONDENT TRUE HARMONY,
INC., ETC.
04/27/2009 PETITIONER'S REPLY TO OPPOSITION OF
RESPONDENT TRUE HARMONY TO PETITION TO
CONFIRM CONTRACTUAL ARBITRATION AWARD
AND, ETC.
04/24/2009 Reply/Response
Filed by Plaintiff/Petitioner
04/24/2009 PETITIONER'S REPLY TO OPPOSITION OF
RESPONDENT TRUE HARMONY TO PETITION TO
CONFIRM CONTRACTUAL ARBITRATION AWARD,
ETC
04/24/2009 PETITIONER'S OBJECTION TO PURPORTED
EVIDENCE OF RESPONDENT TRUE HARMONY,
p. 215 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

INC. SUBMTTED IN OPPOSITION TO PETITION TO
CONFIRM CONTRACTUAL ARBITRATION AWARD;
PROPOSED ORDER THEREON
04/22/2009 REPLY TO OPPOSITION TO PETITION TO
CONFIRM ARBITRATION AWARD, ETC.
04/22/2009 Reply/Response
Filed by Plaintiff/Petitioner
04/22/2009 PLAINTIFFS' OBJECTIONS TO EVIDENCE
SUBMITTED BY TRUE HARMONY IN ITS
OPPOSITION TO PETITIONS TO CONFIRM AWARD OF
ARBITRATOR
04/22/2009 Objection Document
Filed by Plaintiff/Petitioner
04/21/2009 Declaration
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
04/21/2009 Motion to Be Relieved as Counsel
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
04/21/2009 DECLARATION IN SUPPORT OF
ATTORNEY'S MOTION TO BE RELIEVED AS
COUNSEL-CIVIL
04/21/2009 NOTICE OF MOTION AND MOTION TO BE
RELIEVED AS COUNSEL-CIVIL
04/16/2009 Substitution of Attorney
Filed by Farzad Nediathaiem (Defendant); Farzad Haiem
(Legacy Party); Ray Haiem (Legacy Party)
04/16/2009 Substitution of Attorney
Filed by Ray of Life Charitable Foundation (Defendant)
04/16/2009 AMENDED DECLARATION OF THE BOARD
OF DIRECTORS OF TRUE HARMONY INC.
04/16/2009 SUBSTITUTION OF ATTORNEY
04/16/2009 SUBSTITUTION OF ATTORNEY
04/16/2009 DECLARATION OF RUZANNA POGHOSYAN
RE: SUBSTITUTION OF ATTORNEY IS FILED AS TO
THE REMAINING AND ALL DEFENDANTS
04/16/2009 Declaration
p. 216 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
04/16/2009 Declaration
Filed by Defendant/Respondent
04/14/2009 Opposition Document
Filed by Defendant/Respondent
04/14/2009 TRUE HARMONY INC'S NOTICE OF
OPPOSITION AND OPPOSITION TO PETITIONS TO
CONFIRM AWARD OF ARBITRATOR, ETC.
04/09/2009 at 08:30 AM in Department 30
(Order to Show Cause; OSC Discharged) 04/09/2009 SUBSTITUTION OF ATTORNEY
04/09/2009 SUBSTITUTION OF ATTORNEY
04/09/2009 SUBSTITUTION OF ATTORNEY
04/09/2009 SUBSTITUTION OF ATTORNEY
04/09/2009 Substitution of Attorney
Filed by Defendant/Respondent
04/09/2009 Substitution of Attorney
Filed by Samuel F. Benskin (Defendant)
04/09/2009 Substitution of Attorney
Filed by Johnathan Marzet (Defendant)
04/09/2009 Substitution of Attorney
Filed by La Vance Tarver (Defendant)
04/09/2009 Substitution of Attorney
Filed by Turner, Priscilla (doe 1) (Defendant)
04/09/2009 SUBSTITUTION OF ATTORNEY
04/09/2009 Minute Order
04/02/2009 Request for Certified Copy
Filed by Plaintiff/Petitioner
04/02/2009 REQUEST FOR COPIES
04/02/2009 PETITION TO CONFIRM CONTRACTUAL
ARBITRATION AWARD
04/02/2009 Petition
Filed by Plaintiff/Petitioner
04/02/2009 NOTICE OF PETITION AND PETITION TO
CONFIRM AWARD OF ARBITRATOR AS JUDGMENT
p. 217 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

04/01/2009 DECLARATION OF FARZAD NEDIATHAIEM
AKA FARZAD HAIEM AKA RAY HAIEM AKA FARZAD
NEDJAT-HAIEM RE: ORDER TO SHOW CAUSE
04/01/2009 DECLARATION OF 1130 SOUTH HOPE
STREET INVESTMENT ASSOCIATES, LLC ( A
DELAWARE LIMITED LIABILITY COMPANY)
04/01/2009 DECLARATION OF PRISCILLA TURNER RE:
ORDER TO SHOW CAUSE
04/01/2009 DECLARATION OF LA VANCE TARVER RE:
ORDER TO SHOW CAUSE
04/01/2009 Declaration
Filed by Defendant/Respondent
04/01/2009 DECLARATION OF RUZANNA POGHOSYAN
RE: DEFENDANTS 1130 SOUTH HOPE STREET
INVESTMENT ASSOCIATES, LLC, A DELAWARE
LIMITED LIABILITY COMPANY; ETC.
04/01/2009 Declaration
Filed by Defendant
04/01/2009 Declaration
Filed by Defendant/Respondent
04/01/2009 Declaration
Filed by Defendant/Respondent
04/01/2009 Declaration
Filed by Defendant/Respondent
04/01/2009 Declaration
Filed by Defendant/Respondent
04/01/2009 Declaration
Filed by Defendant
03/18/2009 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/18/2009 NOTICE OF RULING AT POSTARBITRATION STATUS CONFERENCE
03/11/2009 at 08:30 AM in Department 30
Status Conference - Held
03/11/2009 Minute Order
03/11/2009 Minute Order
p. 218 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

03/05/2009 Notice
Filed by Defendant/Respondent
03/05/2009 SUBSTITUTION OF ATTORNEY
03/05/2009 DEFENDANT TRUE HARMONY, INC'S
STATUS CONFERENCE STATEMENT
03/05/2009 Substitution of Attorney
Filed by True Harmony, Inc. (Defendant)
03/03/2009 PLAINTIFFS' STATUS CONFERENCE
STATEMENT
03/03/2009 Notice of Status Conference filed
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
01/05/2009 Notice of Case Assignment
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
01/05/2009 NOTICE OF CASE REASSIGNMENT
01/05/2009 NOTICE OF CASE REASSIGNMENT
01/05/2009 Notice of Case Reassignment and Order for
Plaintiff to Give Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
TOP 02/18/2010 11/02/2009 05/19/2009 01/02/2009
07/28/2008 02/14/2008
01/02/2009 at 00:00 AM in Department 30
Unknown Event Type
12/24/2008 Notice of Case Reassignment and Order for
Plaintiff to Give Notice
Filed by Clerk
12/24/2008 NOTICE OF CASE REASSIGNMENT AND OF
ORDER FOR PLAINTIFF TO GIVE NOTICE
12/02/2008 Request for Certified Copy
Filed by Plaintiff/Petitioner
12/02/2008 REQUEST FOR COPIES
10/23/2008 at 08:32 AM in Department 30
p. 219 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Hearing on Motion to be Relieved as Counsel - Held - Motion
Granted
10/23/2008 ORDER GRANTING ATTORNEY'S MOTION
TO BE RELIEVED AS COUNSEL - CIVIL
10/23/2008 STIPULATION FOR LAW OFFICES OF
LOTTIE COHEN TO BE RELIEVED AS COUNSEL FOC
ALL
CLIENTS
10/23/2008 Minute Order
10/23/2008 Ord-Withdrawal as Attorney of Record
Filed by Defendant/Respondent
10/23/2008 Stipulation
Filed by Defendant/Respondent
10/08/2008 Opposition Document
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
10/08/2008 OPPOSITION TO UNTIMELY MOTION TO BE
RELIEVED AS COUNSEL
10/02/2008 NOTICE OF MOTION AND MOTION TO BE
RELIEVED AS COUNSEL-CIVIL
10/02/2008 Motion to Be Relieved as Counsel
Filed by Defendant/Respondent
09/17/2008 NOTICE OF RULING
09/17/2008 Notice of Ruling
Filed by Plaintiff/Petitioner
09/16/2008 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
09/16/2008 NOTICE OF ENTRY OF ORDER
COOMPELLING BINDING ARBITRATION AND TO
STAY ACTION
09/11/2008 at 08:35 AM in Department 30
Hearing on Demurrer - without Motion to Strike (Hearing on
Demurrer; Demurrer overruled) 09/11/2008 Order
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
p. 220 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

09/11/2008 ORDER COMPELLING BINDING
ARBITRATON AND TO STAY ACTION
09/11/2008 Minute Order
09/03/2008 Reply/Response
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
09/03/2008 PLAINTIFFS' REPLY TO OPPOSITION TO
MOTION FOR ORDER COMPELLING BINDING
ARBITRATION, ETC.
08/29/2008 Case Management Statement
Filed by Defendant/Respondent
08/29/2008 CASE MANAGEMENT STATEMENT
08/28/2008 Opposition Document
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
08/28/2008 Opposition Document
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
08/28/2008 Request for Judicial Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
08/28/2008 PLAINTIFFS' OPPOSITION TO MOTION TO
STRIKE AND OBJECTIONS TO DECLARATION OF
JOHN MARZET
08/28/2008 PLAINTIFFS' OPPOSITION TO DEMURRER
TO FIRST AMENDED COMPLAINT
08/28/2008 REQUEST FOR JUDICIAL NOTICE IN
SUPPORT OF DEMURRER AND MOTION TO STRIKE
08/26/2008 Notice
Filed by Defendant/Respondent
08/26/2008 NOTICE OF NON AVAILABILITY OF
ATTORNEY MS.LOTTIE COHEN, COUNSEL FOR
DEFENDANTS
08/22/2008 OPPOSITION OF ALL DEFENDANTS TO
PLAINTIFFS' MOTION FOR ORDER COMPELLING
BINDING ARBITRATION AND TO STAY ACTION; ETC.
08/22/2008 Opposition Document
p. 221 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
08/19/2008 CASE MANAGEMENT STATEMENT
08/19/2008 Case Management Statement
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
08/14/2008 Notice of Ruling
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
08/14/2008 NOTICE OF RULING ON PLAINTIFFS EX
PARTE APPLICATION TO CONTINUE HEARING ON
DEFENDANTS DEMURRER AND MOTION TO STRIKE
08/12/2008 at 08:30 AM in Department 30
Ex-Parte Proceedings (Exparte proceeding; Denied) 08/12/2008 Opposition Document
Filed by Defendant/Respondent
08/12/2008 Minute Order
08/12/2008 Ex-Parte Application
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
08/12/2008 OPPOSITON TO PLAINTIFFS' EX PARTE
APPLICATION TO CONTINUE HEARING ON
DEMURRER AND MOTION TO STRIKE
08/12/2008 EX PARTE APPLICATION OF PLAINTIFFS
TO CONTINUE THE HEARING ON THE DEMURRER
AND MOTION TO STRIKE FILED BY DEFENDANTS,
ETC
08/05/2008 at 08:31 AM in Department 30
Case Management Conference (Conference-Case
Management; Advanced to a Previous Date) 08/01/2008 PLAINTIFFS' NOTICE OF MOTION AND
MOTION FOR ORDER COMPELLING BINDING
ARBITRATION AND TO STAY ACTION, ETC
08/01/2008 Motion to Compel
p. 222 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by 1130 South Hope Street Investment Associ(Plaintiff)
07/29/2008 at 08:30 AM in Department 30
Court Order - Held
07/29/2008 Minute Order
Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
TOP 02/18/2010 11/02/2009 05/19/2009 01/02/2009
07/28/2008 02/14/2008
07/28/2008 STIPULATION TO CONTINUE CASE
MANAGEMENT CONFERENCE AND ORDER THEREON
07/28/2008 Stipulation and Order
Filed by Plaintiff/Petitioner
07/18/2008 NOTICE OF MOTION, MOTION TO STRIKE
BY DEFENDANTS TO STRIKE PLAINTIFFS' FIRST
AMENDED COMPLAINT, ETC.
07/18/2008 Motion to Strike
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
07/17/2008 REQUEST FOR JUDICIAL NOTICE BY
DEFENDANTS, ETC.
07/17/2008 Demurrer
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
07/17/2008 Motion to Strike
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
07/17/2008 NOTICE OF DEMURRER AND DEMURRER
BY DEFENDANTS, ETC.
07/03/2008 Notice of Ruling
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
07/03/2008 NOTICE OF RULING
07/02/2008 at 08:31 AM in Department 30
p. 223 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Case Management Conference - Held - Continued
07/02/2008 SUBSTITUTION OF ATTORNEY
07/02/2008 SUBSTITUTION OF ATTORNEY
07/02/2008 Substitution of Attorney
Filed by La Vance Tarver (Defendant); Johnathan Marzet
(Defendant); Samuel F. Benskin (Defendant) et al.
07/02/2008 Minute Order
07/02/2008 SUBSTITUTION OF ATTORNEY
07/02/2008 SUBSTITUTION OF ATTORNEY
07/02/2008 SUBSTITUTION OF ATTORNEY
07/02/2008 SUBSTITUTION OF ATTORNEY
06/30/2008 Case Management Statement
Filed by Defendant/Respondent
06/30/2008 CASE MANAGEMENT STATEMENT
06/25/2008 at 08:31 AM in Department 30
Case Management Conference (Conference-Case
Management; Advanced to a Previous Date) 06/25/2008 Minute Order
06/10/2008 Case Management Statement
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
06/10/2008 CASE MANAGEMENT STATEMENT
06/09/2008 STIPULATION TO CONTINUE CASE
MANAGEMENT CONFERENCE AND ORDER THEREON
06/04/2008 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
06/04/2008 NOTICE OF CASE MANAGEMENT
CONFERENCE
05/27/2008 Notice of Case Management Conference
Filed by Clerk
05/27/2008 NOTICE OF CASE MANAGEMENT
CONFERENCE
05/27/2008 NOTICE OF CASE MANAGEMENT
CONFERENCE
05/23/2008 Notice of Ruling
p. 224 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Filed by 1130 South Hope Street Investment Associ(Plaintiff)
05/23/2008 NOTICE OF RULING RE RELATED CASES
05/22/2008 at 08:32 AM in Department 30
Hearing on Demurrer - without Motion to Strike (Hearing on
Demurrer; Off Calendar) 05/22/2008 Minute Order
05/22/2008 Order on Application for Waiver of Court Fees
and Costs
05/22/2008 Order on Court Fee Waiver (Superior Court)
Filed by Defendant
05/20/2008 at 08:30 AM in Department 64
Court Order (Court Order; Court makes order) 05/20/2008 First Amended Complaint
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
05/20/2008 FIRST AMENDED COMPLAINT FOR
DECLARATORY AND INJUNCTIVE RELIEF,
CANCELLATION
OF INSTRUMENTS, DAMAGES AND ATTORNEY FEES
05/20/2008 Minute Order
04/30/2008 AMENDED DEMURRER OF DEFENDANTS
TO COMPLAINT, TO POINTS AND AUTHORITIES
AND REQUEST FOR JUDICIAL NOTICE
04/30/2008 Demurrer
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant) et al.
04/21/2008 NOTICE OF DEFENDANTS' DEMURRER TO
COMPLAINT, ETC.
04/21/2008 Demurrer
Filed by La Vance Tarver (Defendant); Ray of Life Charitable
Foundation (Defendant); Farzad Nediathaiem
(Defendant)
04/21/2008 Request for Judicial Notice
Filed by Defendant/Respondent
p. 225 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

04/21/2008 DEFENDANTS' REQUEST FOR JUDICIAL
NOTICE POINTS AND AUTHORITIES
04/02/2008 Proof-Service/Summons
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
04/02/2008 PROOF OF SERVICE SUMMONS
03/11/2008 PROOF OF SERVICE SUMMONS
03/11/2008 Proof-Service/Summons
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/11/2008 Proof-Service/Summons
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/11/2008 PROOF OF SERVICE SUMMONS
03/11/2008 PROOF OF SERVICE SUMMONS
03/11/2008 PROOF OF SERVICE SUMMONS
03/11/2008 Proof-Service/Summons
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/11/2008 Proof-Service/Summons
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/11/2008 Proof-Service/Summons
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/11/2008 Proof-Service/Summons
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/11/2008 Proof-Service/Summons
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/10/2008 Amendment to Complaint
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
03/10/2008 AMENDMENT TO COMPLAINT
(FICTITIOUS/INCORRECT NAME)
p. 226 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

02/29/2008 AMENDED NOTICE OF PENDENCY OF
ACTION
02/29/2008 Notice
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
TOP 02/18/2010 11/02/2009 05/19/2009 01/02/2009
07/28/2008 02/14/2008
02/14/2008 NOTICE OF PENDENCY OF ACTION
02/14/2008 Complaint
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
02/14/2008 Notice of Lis Pendens
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
02/14/2008 Notice of Related Case
Filed by 1130 South Hope Street Investment Associ(Plaintiff)
02/14/2008 COMPLAINT FOR DECLARATORY RELIEF ,
ETC
02/14/2008 SUMMONS
02/14/2008 NOTICE OF RELATED CASES
Click on any of the below link(s) to see Register of Action
Items on or before the date indicated:
TOP 02/18/2010 11/02/2009 05/19/2009 01/02/2009
07/28/2008 02/14/2008

p. 227 (A11), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

#A12

Appendix A12 – Excerpts from Decision of State Court of
Appeals in B183928
Filed 3/21/07 Hope Park Lofts v. True Harmony CA2/5
NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and
parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule
8.1115(b). This opinion has not been certified for publication
or ordered published for purposes of rule 8.1115.
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FIVE
HOPE PARK LOFTS, LLC,
Plaintiff and Respondent,
v.
TRUE HARMONY, INC., et al.,
Defendants and Appellants.
B183928
(Los Angeles County Super. Ct. No. BC244718)
Appeals from a judgment of the Superior Court of Los
Angeles County, Kenneth R. Freeman, Judge. Affirmed. Rick
Edwards, Inc., Rick Edwards and Casey Hull for Plaintiff and
Respondent. Herbert Davis; Benedon & Serlin, Douglas G.
Benedon and Gerald R. Serlin for Defendant and Appellant
p. 228 (A12), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

True Harmony, Inc. Andrew E. Smyth, and Debbie Nash, in
pro per, for Cross-Defendant and Appellant Debbie Nash.
-2INTRODUCTION
Plaintiff and respondent Hope Park Lofts, LLC (Hope Park)
sued defendant and appellant True Harmony, Inc. (True
Harmony) and others to quiet title to a commercial property in
downtown Los Angeles (Property). True Harmony crosscomplained seeking, inter alia, to quiet title in its name as
against the adverse claims of Hope Park and the other crossdefendants. On the first day of trial, Hope Park and True
Harmony entered into settlement negotiations that culminated
the next day in a written settlement agreement signed on
behalf of True Harmony by its chief financial officer (CFO).
The agreement provided, inter alia, that title to the Property
would be quieted in the name of a new entity, 1130 Hope
Street Investment Associates, LLC (Investment Associates), to
be owned equally by True Harmony and Hope Park, that True
Harmony’s attorney would manage the new corporation, and
that the Property would be sold immediately by the new
corporation, with the proceeds divided between True Harmony
and Hope Park pursuant to a specified formula. Soon after
executing the agreement, True Harmony’s CFO expressed
doubts to True Harmony’s attorney about the enforceability of
the agreement, but did not raise the issue with Hope Park.
After some delay due to the filing of certain bankruptcy
petitions, the trial proceeded and resulted in a statement of
decision that, inter alia, quieted title in True Harmony. Before
the trial court entered judgment on its statement of decision,
and after True Harmony denied the existence of the
settlement, Hope Park filed a motion to
p. 229 (A12), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

enter judgment on the settlement, pursuant to Code of Civil
Procedure section 664.6.
The trial court initially denied the motion on the grounds that
only one of the two officers necessary to bind True Harmony
had executed the settlement agreement. But the trial court
reconsidered its ruling, held an evidentiary hearing, and
ultimately issued an order granting Hope Park’s motion to
enter judgment quieting title in accordance with the . . .
....
- 31 E. True Harmony Has Failed to Show That the Settlement
Agreement Was Illegal
In an argument not raised below, fn13 True Harmony
contends that as a nonprofit public benefit corporation, it was
entitled to a federal tax exemption under 26 United States
Code section 501, subdivision (c)(3). It further contends that
by requiring that the Property be transferred to a for profit
corporation, the settlement agreement would effectively
“strip” True Harmony of its tax exemption, and is therefore
contrary to California law and public policy, i.e., it is void
based on the doctrine of illegality. True Harmony’s illegality
argument is unsupported by the record. The only factual
support cited is the trial court’s finding after trial that True
Harmony was originally formed and organized in 1984 as a
nonprofit public benefit corporation to teach word processing
skills to the homeless. Those facts, however, are insufficient to
establish the predicate for True Harmony’s illegality
argument―that it was entitled to a federal tax exemption
under 26 United States Code section 501, subdivision (c)(3), at
the time the agreement was made in October 2003. Under
p. 230 (A12), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

federal law, the burden was on True Harmony, as the party
claiming entitlement to the exemption, “to prove that it
qualified for a tax exemption.” (St. David’s Health Care
System v. U.S. (5th Cir. 2003) 349 F.3d 232, 234.) To qualify
__________________________________________________
Fn 13 In its opposition to Hope Park’s motion to enter
judgment, True Harmony argued, inter alia, that the agreement
was unenforceable under Corporations Code section 5913
because the Attorney General had not approved the transfer of
the Property. It did not, however, assert that the agreement
was illegal because it would have resulted in the loss of its tax
exempt status. Nevertheless, because illegality can be raised at
any time, including for the first time on appeal, we address the
merits of True Harmony’s arguments based on that affirmative
defense. (Yoo v. Robi (2005) 126 Cal.App.4th 1089, 1103;
Cook v. King Manor and Convalescent Hospital (1974) 40
Cal.App.3d 782, 793, superseded by statute on other grounds.)
- 32 –
for tax exempt status, True Harmony was required to show
that it was “organized and operated exclusively” for charitable
purposes. (Ibid., citing 26 C.F.R. § 1.501(c)(3)— 1 (a).)
Although the trial court’s findings upon which True Harmony
relies may arguably satisfy the “organizational test,” they do
not address, much less satisfy, the “operational test.” “To pass
the ‘operational test,’ [the party claiming the exemption] was
required to show: (1) that it ‘engage[s] primarily in activities
which accomplish’ its exempt purpose; (2) that its net earnings
do not ‘inure to the benefit of private shareholders or
individuals’; (3) that it does ‘not expend a substantial part of
its resources attempting to influence legislation or political
campaigns’; and (4) that it ‘serve[s] a valid purpose and
p. 231 (A12), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

confer[s] a public benefit.’” (Id. at p. 235.) The record on
Hope Park’s motion to enter judgment is devoid of evidence
that would satisfy any of the four requirements of the
“operational test.” For example, although the trial court’s
statement of decision recited that True Harmony was
originally organized in 1984 to teach word processing skills to
the homeless, there is no evidence that it was engaged
primarily in activities that accomplished its “exempt purpose”
at the time the agreement was made in October 2003.
Similarly, there was no evidence that it had net earnings at the
time of the settlement, much less evidence that those earnings
did not inure to private shareholders or individuals. Nor was
there any evidence as to whether or not True Harmony
expended money on political campaigns or to influence
legislation, or that it was serving a valid purpose and
conferring a public benefit at the time the agreement was
made. True Harmony has therefore failed to sustain its burden
of proving its tax exempt status and, in the process, failed to
establish the basic premise for its argument that the settlement
agreement jeopardized such tax exempt status and was
therefore void due to illegality. Moreover, even assuming True
Harmony was entitled to a federal tax exemption under 26
United States Code section 501, subdivision (c)(3), it does not
follow that the settlement agreement was illegal. The doctrine
of illegality requires the party asserting that defense to show
either that the consideration for or the “object” of the
agreement was unlawful. (Wells Fargo Bank, Minnesota, N.A.
v. B.C.B.U. (2006) 143 Cal.App.4th 493,
- 33 –
505.) “The consideration for a promise must be lawful. ([Civ.
Code] 1607; see Heaps v. Toy (1942) 54 Cal.App.2d 178, 182,
128 P.2d 813.) ‘If any part of a single consideration for one or
p. 232 (A12), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

more objects, or of several considerations for a single object,
is unlawful, the entire contract is void.’ ([Civ. Code] 1608.)”
(1 Witkin, Summary of Cal. Law (10th ed. 2005) Contracts, §
419, p. 460.) “The object of a contract must be lawful (Civ.
Code 1550); i.e., it must not be in conflict either with express
statutes or public policy. (See infra, §§ 451, 452.) If the
contract has a single object, and that object is unlawful
(whether in whole or in part), the entire contract is void.
[Citations.]” (Id. at § 420 at p. 461; see Kashani v. Tsann
Kuen China Enterprise Co. (2004) 118 Cal.App.4th 531.)
Here, the consideration for the agreement was lawful. Both
parties agreed to avoid the risk posed by the pending trial of
their respective interests in the Property by agreeing to sell it
and share in the proceeds, regardless of which party prevailed
at trial. Thus, each party exchanged a prospective right to an
interest in the entire Property for a share of the sale proceeds.
“The compromise of a claim, either valid, doubtful, or
disputed (but not void) is good consideration, the claimant
giving up his or her asserted right to recover the whole amount
as consideration for a promise to pay a lesser amount.” (1
Witkin, Summary of Cal. Law, supra, § 211 at p. 247 and
cases cited.) The “object” of the agreement was not unlawful.
Contrary to True Harmony’s assertion, the object of the
settlement agreement was not to “strip” True Harmony of its
federal tax exemption, or to deter it from pursuing its original
charitable purpose. The object was to settle a lawsuit against a
nonprofit public benefit corporation. True Harmony does not
contend that public benefit corporations cannot be sued, or
that they cannot settle lawsuits filed against them. Thus, the
essential object of the agreement―the settlement of disputed
claims―is not facially unlawful or contrary to public policy.
To the contrary, the object of the agreement is entirely
consistent with the strong public policy favoring the
p. 233 (A12), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

settlement of disputed claims. (Western Steamship Lines, Inc.
v. San Pedro Peninsula Hospital (1994) 8 Cal.4th 100, 110.)
Nevertheless, True Harmony argues that the mechanism by
which the settlement was to be funded - the transfer of the
Property to Investment Associates for immediate
- 34 –
sale - renders the agreement illegal or void as against public
policy because the loss of its federal tax exemption would
eliminate the primary incentive for pursuing its charitable
purpose. But the transfer to Investment Associates was only a
procedural device by which the Property could be sold and the
settlement funded. The mere transfer of the Property to a for
profit corporation like Investment Associates would not be
illegal per se, or contrary to public policy, and True Harmony
does not contend otherwise. fn14
Similarly, that True Harmony would receive its share of the
sale proceeds from Investment Associates would not, without
more, taint those proceeds with illegality. Moreover, there is
nothing to suggest that True Harmony intended to use the sale
proceeds for anything other than charitable purposes. There
was nothing to prevent True Harmony from using the sale
proceeds to buy or lease another property and devote its use to
a charitable purpose. Thus, True Harmony’s assertion that the
loss of its federal tax exemption would inevitably lead to the
destruction of its alleged charitable purpose is purely
speculative. The record does not support True Harmony’s
illegality argument.
F. True Harmony Has Forfeited the Issue of Whether the
Settlement Agreement Was Voidable Due to Its Former
Attorney’s Alleged Ethical Misconduct
p. 234 (A12), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

True Harmony’s final contention on appeal is that the
settlement agreement was voidable at its option because Perry,
its attorney, did not advise it in writing of the ethical
implications of his involvement in the transaction, did not
advise it of its right to seek the advice of independent counsel,
and did not obtain its written consent to his involvement
__________________________________________________
Fn 14
As noted, True Harmony argued in the trial court that the
agreement was unenforceable because it had not been
approved by the Attorney General, but it does not advance that
separate argument on appeal.
....
MOSK, J.
....
ARMSTRONG, J.
-1I concur. Although I agree that the judgment should be
affirmed, I do not think that the discussion in the lead opinion
treating a motion for reconsideration under section 1008 as a
motion to vacate a judgment under section 663 is correct. And,
I do not see "extremely good cause," or any cause for that
matter, that justifies us to ignore the general rule that an
appellate court will construe a motion as it is labeled. (APRI
Ins. Co. v. Superior Court (1999) 76 Cal.App.4th 176, 181185.) Further, since True Harmony appealed only that portion
of the amended judgment which awarded quiet title to
Investment Associates based on a finding that the settlement
p. 235 (A12), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

agreement between True Harmony and Hope Park was a valid
agreement, the trial court's decision to vacate the April 8 quiet
title judgment is not properly before us. "[T]he rule is
established that the notice of appeal limits the power of the
reviewing court, and an order will not be reviewed from which
no appeal has been taken." (Smith v. Halstead (1948) 88
Cal.App.2d. 638, 640.) If the appeal were not so limited, I
would conclude that the trial judge had discretion under Code
of Civil Procedure sections 578 ("Judgment for or against one
or more of several parties; determination of rights between
parties") and 579 ("Judgment against one or more defendants;
action proceeding against others") to vacate the April 8
judgment in order to merge it and the settlement agreement
finding into the April 15 amended judgment. The April 15
amended judgment restated without change the following
language from paragraph B.(3) of the April 8 judgment:
"JUDGMENT on the third cause of action for Quiet Title is
for cross-complainant True Harmony as to cross defendants
Gladstone Hollar, Hope Park Lofts, LLC, Pacific Continental
Investment
-2Partners, LLC, Debbie Nash, Joseph Davis Suthern, aka Joey
Davis, and Iris Fay Warren."fn 1
As Justice Kriegler points out, True Harmony has not suffered
prejudice from the amended judgment and that is another
reason it is not entitled to reversal of the judgment.
__________________________________________________
Fn 1 The only change from the April 8 judgment was the
addition of the settlement agreement finding, to wit: "As of
October 9, 2003, 1130 South Hope Street Investment
p. 236 (A12), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

Associates, LLC, is the sole owner of the real property
commonly known as 1130 South Hope Street, Los Angeles,
California which bears the legal description . . . ." That
sentence replaced a sentence which said that the sole owner of
the property was True Harmony.
ARMSTRONG, J.

p. 237 (A12), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

KRIEGLER, J., Concurring.
-1When a trial court rules on five occasions that a settlement is
enforceable, a reviewing court should “cut the Gordian knot of
procedural niceties” (People v. Dudley (1978) 81 Cal.App.3d
866, 873 (dis. opn. of Fleming, J.) and affirm a judgment that
upholds the settlement. I therefore concur in the affirmance of
the judgment, but for reasons different than those set forth in
the lead opinion. True Harmony, Inc. (True Harmony) and
Hope Park Lofts, LLC (Hope Park) entered into a settlement
providing that if either prevailed in a pending quiet title action,
title to the property would be placed in a newly created entity
called 1130 Hope Street Investment Associates, LLC
(Investment Associates). Although True Harmony challenged
the validity of the settlement, the trial court has repeatedly
ruled in this action that the settlement was enforceable and
that title ultimately should be quieted in Investment
Associates. The amended judgment, challenged by True
Harmony in this appeal, is consistent with the terms of the
settlement. Rather than construing Hope Park’s motion for
reconsideration as a motion to vacate a judgment—something
we should not do in general, and certainly something we
should not do where the motion does not assert legally
sufficient grounds to vacate the judgment—I would simply
affirm the amended judgment on the basis that True Harmony
has not suffered prejudice from the amended judgment and is
therefore not entitled to reversal.
Code of Civil Procedure section 906 – fn 1 empowers this
court to affirm any judgment on the basis that the party
appealing was not “prejudiced by the error or errors upon
which
p. 238 (A12), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

__________________________________________________
Fn 1
Code of Civil Procedure section 906 provides as follows:
“Upon an appeal pursuant to Section 904.1 or 904.2, the
reviewing court may review the verdict or decision and any
intermediate ruling, proceeding, order or decision which
involves the merits or necessarily affects the judgment or
order appealed from or which substantially affects the rights of
a party, including, on any appeal from the judgment, any order
on motion for a new trial, and may affirm, reverse or modify
any judgment or order appealed from and may direct the
proper judgment or order to be entered, and may, if necessary
or proper, direct a new trial or further proceedings to be had.
The respondent, or party in whose favor the judgment was
given, may, without appealing from such judgment, request
the reviewing court to and it may review any of the foregoing
matters for the purpose of determining whether or not the
appellant was prejudiced by the error or errors upon which he
relies for reversal or modification of the judgment from which
the appeal is taken. The provisions of this section do not
authorize the reviewing court to review any decision or order
from which an appeal might have been taken.”
-2he relies for reversal or modification of the judgment from
which the appeal is taken.” A respondent, or a party in whose
favor judgment was given, may request the Court of Appeal to
review the appeal for the purpose of determining if the party
appealing the judgment suffered prejudice. Code of Civil
Procedure section 906 allows this review for prejudice without
the necessity of an appeal by the respondent or party in whose
p. 239 (A12), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

favor judgment was given. (See Estate of Powell (2000) 83
Cal.App.4th 1434, 1439; California State Employees’ Assn. v.
State Personnel Bd. (1986) 178 Cal.App.3d 372, 382, fn. 7.) I
am satisfied that the amended judgment, from which True
Harmony appeals, is not prejudicial to the rights of True
Harmony within the meaning of Code of Civil Procedure
section 906. The record demonstrates that the trial court
consistently announced its intention to enforce the settlement
in this action in the five following ways: (1) by orally granting
Hope Park’s motion to enforce the settlement between True
Harmony and Hope Park on November 10, 2004; (2) by orally
stating at the time of the original judgment on April 8, 2005,
that title would be quieted in the name of True Harmony but
that Hope Park could enforce the November 2004 settlement
order without the need to file another lawsuit; (3) by signing
the amended judgment quieting title in Investment Associates
pursuant to the terms of the settlement on April 15, 2005; (4)
by signing the written order enforcing the judgment in May
2005; and (5) by signing a second amended judgment on
August 17, 2005, which again quieted title in favor of
Investment Associates pursuant to the settlement. As the lead
opinion properly holds, the trial court did not err in ruling that
the settlement was enforceable pursuant to Code of Civil
Procedure section 664.6.
-3–
Section 664.6 provides that if parties to pending litigation
stipulate “for settlement of the case,” the court “may enter
judgment pursuant to the terms of the settlement” upon motion
of a party. The trial did exactly that in the amended judgment,
consistent with its ruling throughout the proceedings that the
settlement was enforceable. True Harmony had no right to title
p. 240 (A12), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

to the property as a result of the enforceable settlement. Under
these circumstances, True Harmony was not prejudiced by an
amended judgment which enforces the settlement. I would
affirm on this basis.
KRIEGLER, J.

p. 241 (A12), Appendix – Petition for the Writ of Certiorari in
Thomas v. Solomon et al.

